<html>
<title> - A REVIEW OF VA'S VOCATIONAL REHABILITATION AND EMPLOYMENT PROGRAM</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


   A REVIEW OF VA'S VOCATIONAL REHABILITATION AND EMPLOYMENT PROGRAM

=======================================================================

                                 HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         THURSDAY, MAY 17, 2018

                               __________

                           Serial No. 115-61

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


        Available via the World Wide Web: http://www.govinfo.gov
                     
                     
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-489                      WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="42322d02213731362a272e326c212d2f6c">[email&#160;protected]</a>                             
                     
                     
                   
                     
                     
                     COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
BRAD R. WENSTRUP, Ohio               JULIA BROWNLEY, California
AMATA COLEMAN RADEWAGEN, American    ANN M. KUSTER, New Hampshire
    Samoa                            BETO O'ROURKE, Texas
MIKE BOST, Illinois                  KATHLEEN RICE, New York
BRUCE POLIQUIN, Maine                J. LUIS CORREA, California
NEAL DUNN, Florida                   CONOR LAMB, Pennsylvania
JODEY ARRINGTON, Texas               ELIZABETH ESTY, Connecticut
JOHN RUTHERFORD, Florida             SCOTT PETERS, California
CLAY HIGGINS, Louisiana
JACK BERGMAN, Michigan
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                    JODEY ARRINGTON, Texas, Chairman

GUS BILIRAKIS, Florida               BETO O'ROURKE, Texas, Ranking 
BRAD WENSTRUP, Ohio                      Member
JOHN RUTHERFORD, Florida             MARK TAKANO, California
JIM BANKS, Indiana                   LUIS CORREA, California
                                     KATHLEEN RICE, New York

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                           
                           
                           C O N T E N T S

                              ----------                              

                         Thursday, May 17, 2018

                                                                   Page

A Review Of VA's Vocational Rehabilitation And Employment Program     1

                           OPENING STATEMENTS

Honorable Jodey Arrington, Chairman..............................     1
Honorable Beto O'Rourke, Ranking Member..........................     3

                               WITNESSES

Mr. Jack Kammerer, Director, Vocational Rehabilitation and 
  Employment Service, Veterans Benefits Administration, U.S. 
  Department of Veterans Affairs.................................     4
    Prepared Statement...........................................    33

        Accompanied by:

    Mr. Lloyd Thrower, Deputy Chief Information Officer, Account 
        Manager for Benefits, Office of Information and 
        Technology, U.S. Department of Veterans Affairs

Ms. Heather Ansley, Esq., MSW, Acting Associate Executive 
  Director of Government Relations, Paralyzed Veterans of America     6
    Prepared Statement...........................................    36

Ms. Cassandra Vangellow, Esq., Legal and Policy Fellow, Student 
  Veterans of America............................................     8
    Prepared Statement...........................................    40

Mr. Shane L. Liermann, Assistant National Legislative Director, 
  Disabled American Veterans.....................................    10
    Prepared Statement...........................................    60

                       STATEMENTS FOR THE RECORD

Veterans Of Foreign Wars Of The United States, Patrick Murray, 
  Associate DirectorNational Legislative Service.................    64
The American Legion..............................................    65

 
   A REVIEW OF VA'S VOCATIONAL REHABILITATION AND EMPLOYMENT PROGRAM

                              ----------                              


                         Thursday, May 17, 2018

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:28 p.m., in 
Room 334, Cannon House Office Building, Hon. Jodey Arrington, 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Arrington, Bilirakis, Banks, 
O'Rourke, Takano, and Correa.

         OPENING STATEMENT OF JODEY ARRINGTON, CHAIRMAN

    Mr. Arrington. Good morning, or afternoon, whatever time--
someone wrote that on my paper, you know, I might want to check 
that. But here it is, right here.
    [Laughter.]
    Mr. Arrington. All right, in case C-SPAN--regardless, I am 
glad you are here. I want to welcome you to the Economic 
Opportunity Subcommittee hearing today entitled, ``A Review of 
VA's Vocational Rehabilitation and Employment Program.''
    Today, the Subcommittee will conduct an oversight hearing 
of the Vocational Rehabilitation and Employment Program at the 
Department of Veterans Affairs, a program designed to help our 
severely wounded and disabled veterans by helping them find 
meaningful employment and to maximize their independent living. 
Every day, VR&E master's level counselors work diligently with 
veterans in the program to help them create a rehabilitation 
plan and execute that plan, while also being a constant 
resource and source of support for the participant as they go 
through their individualized rehab program.
    I agree with those who have said that the VR&E should be 
the crown jewel of benefits provided to veterans through the 
Veterans Benefits Administration. This program is more than 
just a benefits program, it is also a vital first step for 
disabled veterans to become more financially independent, which 
is a win-win for the veteran and the taxpayer alike.
    For several years now, we have seen the participation in 
VR&E increase and the President's latest budget submission 
anticipated a 12-percent increase of veterans participating in 
the program in fiscal year 2019 compared to fiscal year 2017. 
And as VBA continues to move through the current disability 
claims backlog, it would seem logical that these participation 
numbers are actually low, the 12 percent, that is, we think it 
will rise even more. However, despite the increase in the 
caseload numbers, it is concerning that once again the budget 
has flat-lined counselors. This Subcommittee has continued to 
sound the alarm on this issue and I am worried that our 
concerns seem to have fallen or are falling on deaf ears.
    Another topic that seems to be falling on deaf ears is 
oversight of the new case management system for tracking VR&E 
participants. This is the IT system for managing caseload. This 
system was supposed to finally bring VR&E into the 21st century 
and eliminate participants' paper-based files, believe it or 
not, that can be lost, damaged, or hamper counselor efficiency. 
After years of waiting, in 2015 VR&E was given the green light 
to begin working with VA IT staff on a replacement for the 
current case management program that has been in place since 
1997. Lots of change since 1997.
    After almost 3 years of work and hundreds of man hours, 
$6.5 million paid to a contractor and another five and a half 
million lost in VA staff time and resources, the case 
management tool is not complete and it appears that the VA is 
now considering scrapping the system all together. Twelve 
million dollars of taxpayer money.
    This Subcommittee was first alerted to this problem not in 
December when the system was first flagged as challenged by 
senior leaders, but only last week in anticipation of the 
hearing. While we certainly appreciate being briefed on this 
problem, we have since learned that the project has gone 
through four project managers and it is still unclear if VA 
plans to start over and use a commercial, off-the-shelf program 
that is used by state Voc-Rehab offices in over 40 states or 
try to salvage the existing program.
    It is clear this project has gone off the rails due to a 
number of issues, not the least of which is the breakdown in 
communication between VR&E and their policy staff and the IT 
team. It appears that the IT staff did not appropriately 
explain, and we will certainly dig into this to verify, but did 
not appropriately explain to VR&E staff the type of business 
requirements they needed from them to appropriately build the 
system, and VR&E staff didn't know when to raise their hand and 
ask how and when the system should be built. So the IT 
development continued to plug along, wasting millions of 
dollars with little to no oversight by senior IT and VA 
leaders, at least that is what it looks like from this vantage 
point.
    This lack of prioritization, making VR&E important and 
demonstrating the importance by the senior leaders at the VA 
seems to be on full display in this particular glitch, but 
there are plenty of other areas I think that beg the question, 
is VR&E a priority or not.
    To the best of my knowledge, no one associated with these 
IT failures has been held accountable. So that is another line 
of questions I hope we get into today: what has been done, $12 
million wasted, who is accountable? If too many people are 
accountable, probably nobody is accountable, that is generally 
what I hear when I ask that question. So be prepared for that.
    Only in government do we continue to allow these types of 
failures to occur without accountability. It seems like the 
only disciplinary action I see is people being moved from one 
office to the next, although we have empowered the VA with this 
accountability tool and I think some of that is being used, but 
I think we need to use it all the more. I can only think of all 
the veterans that could have been helped if this money wasn't 
wasted, where we could invest $12 million and how we could 
better serve our heroes.
    I look forward to hearing from Mr. Kramer and, more 
importantly, Mr. Thrower, for an accounting of these failures 
and the way forward on this system, and what concrete steps can 
be taken to ensure these failures never happen again.
    Mr. Arrington. With that, I recognize Ranking Member Mr. 
O'Rourke, my friend from Texas, for his opening remarks.

       OPENING STATEMENT OF BETO O'ROURKE, RANKING MEMBER

    Mr. O'Rourke. Thank you, Mr. Chairman. I want to thank you 
and your staff, and the minority staff, for preparing us for 
this hearing, the witnesses who are about to testify today. I 
am very much looking forward to hearing from the VA and better 
understanding this program and its performance. And what we can 
look forward to in the months and years to come and how we 
together are going to ensure that there is proper oversight 
and, to use the Chairman's word, accountability for the 
performance of the VA, and our ability to deliver value for the 
veterans who put their lives on the line for this country.
    I am very much looking forward to hearing from the Veterans 
Service Organizations, their feedback, perhaps your guidance 
and direction on how we can meet the task before us. But I 
think, and I don't know if Mr. Takano and Mr. Bilirakis feel 
the same, but I have been on this Committee now for five and a 
half years and some of what I have learned that we are going to 
hear in greater detail is very dispiriting and disappointing.
    I think as we try to foster a culture of accountability and 
excellence for the delivery of care and earned benefits to 
veterans, to see this kind of money wasted, this lack of 
performance, it just undermines veterans and their family 
members' faith in the VA.
    Mr. Chairman, I would remiss if I didn't point out that we 
are without a VA Secretary, and this is a bipartisan problem 
that we have seen in successive administrations, the VA not 
being enough of a priority. I think this is the sixth 
successive VA Secretary with whom I have worked, the interim 
Secretary, in the 6 years that I have been here, from Shinseki 
through Sloan Gibson, through Robert McDonald, through David 
Shulkin to the interim Secretary, and we still await leadership 
for the second-largest department in the Federal bureaucracy, 
the one that has the most sacred and solemn mission that I can 
think of.
    If any of us, Republican, Democrat, President, or Member of 
Congress, really care about our veterans, we are going to make 
this a priority, because I don't think that--well, we will find 
out, I don't know that we are going to get true accountability 
in leadership and direction just from those who are testifying 
today, it has got to come from the top and from all of us.
    So, anyhow, I am committed, as I know you are and the other 
Members of the Committee to working on this, but I have got to 
say, some of this is on me, I have been here five and a half 
years and that we still have these kind of failings. It is 
very, very disappointing, but I want to make sure that we are 
working constructively towards getting better. I am looking 
forward to hearing ideas on how we can do that, but, yeah, we 
have got to do better than what we are doing now.
    Thanks.
    Mr. Arrington. Well, I associate myself with your comments 
and I am not going to--you know, we have got to let you guys 
talk and we will question, have our colleagues, give them time 
to ask questions, but you are right, without the continuity of 
leadership at the top, it is hard to present the full story of 
accountability and it is hard to expect that we are driving 
that through the organization. We have governance 
responsibility and oversight, but the first line of defense is 
having the leadership, having those positions filled, having 
the quarterback in place, our VA Secretary. And so I share your 
concerns on that and I hope we can quickly fill them, so we can 
provide not only the support that they need and the partnership 
that we need, but the accountability that I think is just 
devoid in too many places at the VA.
    So with that rosy picture, I would like to thank the 
panelists again for being here today. Joining us is Mr. Jack 
Kammerer, not Kramer, as I had misstated earlier, the Director 
of the Vocational Rehabilitation and Employment Service at the 
VA, who is accompanied by Lloyd Thrower, the Deputy Chief 
Information Officer and the Benefits Account Manager of the 
Office of Information and Technology.
    We also have Ms. Heather Ansley, Acting Associate Executive 
Director of Government Relations for Paralyzed Veterans of 
America; Ms. Cassandra Vangellow, Legal and Policy Fellow for 
Student Veterans of America; and Mr. Shane Liermann, Assistant 
National Legislative Director for the Disabled American 
Veterans.
    All of your complete written statements will be made part 
of the hearing record and each of you will be recognized for 5 
minutes for your oral statement.
    Let's begin with you, Mr. Kammerer, you are now recognized 
for 5 minutes.

                   STATEMENT OF JACK KAMMERER

    Mr. Kammerer. Thank you, Chairman Arrington, Ranking Member 
O'Rourke, and Members of the Subcommittee. It is an honor to 
appear again to discuss VA's Vocational Rehabilitation and 
Employment Program. I am accompanied by Mr. Lloyd Thrower from 
OI&T, as you stated.
    We have continued our deliberate efforts to achieve our 
strategic goal of transforming VR&E. VR&E assists 
servicemembers and veterans with service-connected disabilities 
and barriers to employment to prepare for, find, and maintain 
suitable employment. For veterans with service-connected 
disabilities so severe they cannot immediately consider 
employment, independent living services are offered to improve 
their ability to live independently.
    We employ nearly 1,000 vocational rehabilitation counselors 
and deliver services in the network of nearly 350 locations. 
Our service delivery model supports veterans where they are 
located and currently includes operations of 56 regional 
offices, 142 VR&E out-based offices, 71 military installations, 
and 95 VetSuccess on-campus sites.
    Our team is committed to and engaged in multiple 
transformational initiatives. We remain focused on assisting 
veterans with service-connected disabilities in achieving 
employment and living independently, with over 132,000 veterans 
participating in 2017. We have seen an overall increase in 
applications, as you stated, as more adjudicate compensation 
claims result in more eligible VR&E clients with service-
connected disabilities.
    VR&E Chapter 31 applicants grew 33 percent from 2013 to 
2017, with a corresponding increase of 17 percent in 
participants. Most veterans in the program are on average in 
the program for five or more years.
    While our workload has grown, the counselor caseload has 
slowly declined as we achieve more positive outcomes, resolve 
older cases, and strive for active veteran participants. 
Currently, VR&E has a rolling average of 133 veterans per 
counselor, down from 140 veterans per counselor at the end of 
2016. I would highlight that there are other VR&E staff members 
who work directly with the counselors assisting veterans in 
their goals.
    VBA just executed an organizational review focused on VR&E 
staffing in order to help standardize operations across all 
ROs. We are actively looking at multiple methods, including 
technology to enhance the time counselors are able to engage 
with our veterans. We are also conducting an ongoing time study 
with the ultimate goal of improving counselor processes.
    At 2017, VR&E counselors achieved 15,528 positive outcomes, 
up 8 percent from 2016. These included successfully 
rehabilitating 12,128 veterans, with 10,461 of those veterans 
achieving rehabilitation into employment, and 889 veterans with 
disabilities so severe they could not pursue employment, but 
achieved rehabilitation through the delivery of independent 
living.
    With our team of VSOC counselors, we continued to leverage 
our partnership with schools across the country. In 2017, our 
counselors assisted over 43,000 veteran students. VR&E has nine 
newly signed VSOC Memorandums of Understanding and we are 
working to expand these new cites.
    VR&E also closely collaborates with DoD to provide VR&E 
services to active duty, reserve and National Guard 
servicemembers through the IDES system, with nearly 145 
counselors now at 71 installations.
    We appreciate the Committee's long-term support to our 
wounded, ill, and injured servicemembers. We continue to work 
on leveraging technology to increase efficiencies and service 
delivery. In collaboration with the Veterans Health 
Administration, we use technology to enhance services through 
online medical referrals and tele-counseling.
    In 2015, we began VHA tele-counseling technology with the 
Pexip application, which we will begin piloting in June 2018. 
Pexip is secure and mobile-friendly, and eliminates the need 
for veterans to install specialized software. This updated 
technology will improve VR&E's responsiveness to veterans' 
needs, reduce travel costs and time for veterans and employees.
    VBA continues to work with our partners in OI&T and other 
partners to find a viable solution to transfer VR&E to an 
electronic case management system, as you stated. VBA, OI&T and 
our partners are conducting a needs assessment and exploring 
alternatives to determine the most cost-effective and efficient 
way to deliver a modern case management system. The goals of 
the case management system remain to deliver a digital, 
paperless service delivery, better support veterans on their 
own terms, ensure better service delivery, and improve the 
counselor experience. Methods to develop and implement this 
effort will be evaluated once options are complete.
    VR&E will continue to improve the delivery of vocational 
and rehabilitation services to a most deserving population that 
is our veterans with service-connected disabilities. Through 
the development of this new case management system, program 
performance measures that focus on veteran outcomes, clear 
accounting of both veteran progress and employment outcomes, 
and technologies as I spoke about such as tele-counseling, we 
will continue to strive towards substantially improving and 
materially enhancing the VR&E program.
    Mr. Chairman, this concludes my statement and I would be 
pleased to answer your questions, sir.

    [The prepared statement of Jack Kammerer appears in the 
Appendix]

    Mr. Arrington. Thank you, Mr. Kammerer.
    Ms. Ansley, you are now recognized for 5 minutes--is it Ms. 
Ansley?
    Ms. Ansley. Yes, that is correct, sir.
    Mr. Arrington. Okay.

                  STATEMENT OF HEATHER ANSLEY

    Ms. Ansley. Chairman Arrington, Ranking Member O'Rourke, 
and Members of the Subcommittee, Paralyzed Veterans of America 
would like to thank you for the opportunity to testify today 
regarding the Department of Veterans Affairs Vocational 
Rehabilitation and Employment Program, or VR&E.
    Until the passage of the Americans with Disabilities Act, 
or ADA, in 1990, there were no widespread protections in 
Federal law prohibiting disability-based discrimination in 
employment. PVA was a leader in advocating for the passage of 
the ADA because of the need to ensure equality of opportunity 
and access for all people with disabilities.
    Despite the ADA and other civil rights laws, too many 
people with disabilities, including disabled veterans, still 
encounter barriers to entering in or remaining in the 
workforce. The most recent Bureau of Labor Statistics survey 
found that approximately 42 percent of Gulf War-era veterans 
with service-connected disability ratings of 60 percent or 
higher are not in the workforce.
    VA's VR&E Program is critical to helping veterans with 
disabilities to benefit from the opportunities fostered by the 
ADA. Veterans who have acquired disabilities due to their 
military service that then create barriers to employment have 
earned every opportunity available to allow them to find 
success in employment. A strong VR&E Program is critical to the 
long-term success of our Nation's efforts to help veterans with 
service-connected disabilities transition into employment 
following their service.
    Ensuring a proper counselor-to-veteran ratio in VR&E's 
Program has been a perennial issue because of the impact 
staffing deficiencies have on the successful administration of 
the program and ultimately how successfully the program serves 
veterans. Even experienced counselors need sufficient time to 
properly evaluate veterans who have significant, yet manageable 
physical and mental health disabilities for services, collect 
needed information, and ultimately guide their veteran clients.
    While managing a caseload, the vocational counselor also 
needs to remain up-to-date on training programs and what is 
happening in today's workforce. All these tasks are important 
functions of the job.
    In light of all these duties, it is important that a 
counselor maintains a balanced caseload. Veterans come into the 
vocational rehabilitation system with some or more barriers to 
employment due to their one or many disabilities. If the 
proportion of veteran clients who have significant barriers to 
employment is too great, then it may be tough for one counselor 
to properly manage the standard of 125 cases at a time.
    In January of 2014, the Government Accountability Office 
issued a report calling on VA's VR&E Program to implement 
performance and workload management improvements. At that time, 
caseloads for VR&E case managers ranged up to 1-to-139. 
According to VA, the average counselor-to-veteran caseload 
ratio was approximately now 1-to-133.
    The independent budget, or IB, that was coauthored by the 
Disabled American Veterans, PVA, and the Veterans of Foreign 
Wars has continually highlighted the need for additional VR&E 
personnel to improve the program's effectiveness. Our most 
recent budget recommendation recommended an $18 million 
increase for VR&E over the estimated then fiscal year 2018 
appropriations. This funding would allow VA to hire an 
additional 143 full-time employees, and we believe the vast 
majority of these new employees should be VR&E counselors.
    Increased VR&E staffing is needed due to the imbalance 
between the increasing number of veterans participating in the 
program and the number of employees available to serve them. In 
the last 4 years, participation in the program has increased 
approximately 16.8 percent; personnel, however, have not seen 
anywhere near that same increase. With program participation 
estimated to increase once again in the next fiscal year, 
personnel will continue to feel constrained to provide the 
services that veterans, particularly those with significant 
barriers to employment, need to be successful.
    Providing VR&E with additional resources to decrease the 
counselor-to-veteran ratio is an important step toward ensuring 
the program is meeting veterans' needs. VR&E must also reduce 
bureaucratic hurdles that delay veterans in moving through 
their vocational rehabilitation process. In addition, VR&E must 
continue to deploy technology where appropriate to facilitate 
interaction with veteran clients and reduce the administrative 
burden on counselors.
    VR&E's piloted effort to use technology to facilitate the 
entitlement process by using tele-counseling was a step in the 
right direction. Further implementation of electronic processes 
to facilitate participation by veterans, particularly those 
with catastrophic disabilities, and reduce administrative 
burdens on VR&E personnel has the potential to boost the 
program's success while allowing VA to more efficiently use the 
resources it has available.
    The services available to veterans with service-connected 
disabilities through VA's VR&E Program are vital to their 
ability to successfully return to work after acquiring what is 
in some cases a catastrophic disability. Additional investment 
in this program, along with a reduction of administrative 
delays and increased use of technology, is key to ensuring that 
counselors are able to use the tools needed to help these 
veterans obtain and retain competitive employment in their 
communities.
    PVA thanks you for the opportunity to express our views and 
we would be happy to answer any questions you may have.

    [The prepared statement of Heather Ansley appears in the 
Appendix]

    Mr. Arrington. Thank you, Ms. Ansley.
    Now we yield 5 minutes to Ms. Vangellow.

                STATEMENT OF CASSANDRA VANGELLOW

    Ms. Vangellow. Chairman Arrington, Ranking Member O'Rourke, 
and Members of the Committee, thank you for inviting Student 
Veterans of America to submit our testimony on the important 
economic opportunity program, Vocational Rehabilitation and 
Employment, or VR&E.
    With more than 1500 chapters, representing the more than 
1.1 million students in schools across the country, we are 
pleased to share the perspective of those directly impacted by 
this Committee's work.
    In recent years, we have collected stakeholder feedback on 
VR&E. Specifically, we performed a deep-dive analysis during 
the past 5 months. Such analysis included obtaining feedback 
from our constituents.
    I want to begin by emphasizing the importance of VR&E. We 
acknowledge many successful rehabilitations and the growth of 
the VetSuccess on Campus Program. As you can see from our 
written testimony, we want to spend our time highlighting 
program issues, as well as supplying solutions both short-term 
and strategic.
    Three problem areas including counselor quality and number, 
program training, and VR&E's organizational control structure.
    First, counselor quality is a predominant issue our 
students cite. Quality is suffering as counselors strain under 
ever-increasing workloads. Public Law 114-223 requires a ratio 
of one counselor for every 125 veterans in the program. The 
average counselor ratio was 136.4 in 2017, yet VA consistently 
does not request additional full-time employees to address this 
ratio problem. Service is suffering and our veterans are paying 
the price.
    Robert A. asserts, ``Fewer veterans need to be assigned to 
a specific counselor so it does not take an act of Congress to 
get them to at least email you back.''
    Second, program training raises many red flags. While we 
acknowledge the requirements for a master's level education and 
other required course work, a diploma does not equate to VR&E-
track knowledge. Counselors would benefit from track-specific 
training. Receiving training about entrepreneurship and 
changing academic requirements and demands-demand would 
contribute to positive outcomes, both in terms of program 
satisfaction and successful rehabilitation.
    As Logan B. says, ``It feels like I'm fighting tooth and 
nail to take the self-employment route. I wish they would be 
more open to me making my own choices instead of trying to put 
me on whatever track is easiest.''
    Third, VR&E control and ownership impedes its success. 
While VR&E is responsible for policy and procedure 
implementation, the Office of Field Operations maintains 
oversight responsibility and management. This division of 
responsibility and authority is ineffective. All of the policy 
guidance in the world does not address the root issue: VR&E 
does not have control over individual counselors.
    Katherine S. highlights, ``If a veteran does not follow 
through with his or her responsibility, the veteran is removed 
from the program. If the counselor does not follow through, 
there is no action taken.''
    After identifying barriers to success, I want to shift the 
conversation to solutions. In the short term, two immediate 
recommendations relate to expectation management and 
subsistence allowances. Many VR&E challenges arise based on 
unclear expectations about what the program does and does not 
do. Revamping how VR&E is publicized through consistent and 
coherent messaging would be a major step forward. Subsistence 
allowance cause stress for many program participants. Dean Z., 
a VR&E participant here in D.C., illustrates the point when he 
says, ``I have had to take out loans to pay for housing, 
because I could not afford to live in the local area.''
    Program participants should not have to choose between 
pursuing education and training and putting food on the table. 
Providing parity with the post-9/11 GI Bill rates would be a 
good start.
    With regard to our strategic recommendations, I want to 
focus on the VA Economic Opportunity Administration and 
authority restructuring. This fourth administration at VA will 
provide EO programs like VR&E with the champion these programs 
need and deserve.
    We are proud to support the Vet Opp Act of 2018 introduced 
by Subcommittee Members Brad Wenstrup and Mark Takano. While 
Director of Policy Lauren Augustine will testify on this 
legislation next week, I want to emphasize how this change 
provides for greater accountability without expanding the 
government footprint. The VR&E office must be given 
responsibility and authority over counselors and personnel 
administering the program. Redistribution of this authority 
will enable effective personnel allocation to each regional 
office.
    Thank you, Mr. Chairman, Ranking Member, and Members of the 
Subcommittee for making the success of transitioning 
servicemembers, veterans, and their families a top priority in 
this Congress. I look forward to your questions about this 
critical transition and empowerment program.

    [The prepared statement of Cassandra Vangellow appears in 
the Appendix]

    Mr. Arrington. Thank you, Ms. Vangellow.
    Mr. Liermann, you are now recognized for 5 minutes.

                 STATEMENT OF SHANE L. LIERMANN

    Mr. Liermann. Chairman Arrington, Ranking Member O'Rourke, 
and Members of the Subcommittee, on behalf of DAV, we thank you 
for the opportunity to present our recommendations on VA's 
Vocational Rehabilitation and Employment Program.
    We represent over one million veterans and survivors, 
making DAV the largest Veterans Service Organization providing 
claims assistance. Our mission includes the principle that this 
Nation's first duty to veterans is the rehabilitation and 
welfare of its wartime disabled. To fulfill our mission, DAV 
directly employs a nationwide corps of more than 260 national 
service officers.
    Like all DAV national service officers, I myself received 
services through Voc-Rehab when I started my career with DAV. 
So not only am I a successful outcome of Voc-Rehab, but as a 
DAV MSO and a supervisor, I have personally assisted over 15 
DAV apprentices and hundreds of veterans with Voc-Rehab, to 
include applications, meeting with their counselors, and 
representation in their appeals at VA regional offices and the 
Board of Veterans Appeals.
    Voc-Rehab is a unique employment program that combines 
training, education services, and specialty needs, to include 
equipment and services, all customized to each veteran to 
overcome their own disabilities.
    The Voc-Rehab Longitudinal Study Annual Report for fiscal 
year 2016 notes, ``On average, participants have a higher 
service-connected disability rating than the overall veteran 
population, thus indicating the program is benefitting those 
with serious employment handicaps.''
    The most significant finding of the study to date is 
veterans who have achieved rehabilitation have substantially 
better employment and standard-of-living outcomes than those 
who discontinued services in the program. Those who achieved 
rehabilitation had a median annual income that is $15,000 a 
year higher than those who discontinued services, dramatically 
demonstrating its successful outcomes for the veteran 
population Voc-Rehab serves.
    The study also reveals that roughly 90 percent of veterans 
have a moderately to highly satisfying experience with Voc-
Rehab.
    Mr. Chairman, notwithstanding the successes of veterans 
participating in Voc-Rehab, in our written testimony we 
provided several recommendations and now I will just highlight 
a few.
    First, for the past 3 years, VA has not requested new 
personnel for Voc-Rehab. Based on the Administration's proposed 
budget for fiscal year 2019, they indicate the current rolling 
average ratio of counselor-to-client is 1 to 136. In order to 
achieve the 1-to-125 counselor-to-client ratio established by 
Public Law, we estimate that they will need another 143 full-
time employees for fiscal year 2019 for a total direct 
workforce of 1,585.
    Second, we believe that leveraging technology can improve 
efficiency of counselors. For example, Voc-Rehab requires 
regular face-to-face interactions with veterans to deliver 
benefits and services and, unfortunately, half do not show for 
these appointments.
    Two pieces of technology can improve the appearance rate: 
one, the use of electronic or text appointment reminder system, 
and the other is a tele-counseling network. Both would allow 
veterans to receive reminders of their appointments and receive 
their counseling from their own homes or schools, while the 
time improving the efficiency of each Voc-Rehab counselors.
    In order to realize the advantage of technology, Voc-Rehab 
needs an increase in their IT resources.
    Third, we are encouraged by Voc-Rehab's new competency-
based training system that provides all newly employed 
counselors 80 hours of training. We suggest this training 
system can be used to provide uniformity and some 
standardization, since inconsistency between VA regional 
offices and counselors is common within Voc-Rehab. At the same 
time, we urge them to use this training to ensure each 
counselors understands the flexibility they have to address the 
individualized needs of their veterans while remaining 
consistent within the overall Voc-Rehab program.
    Finally, in recent years there have been some suggestions 
that Voc-Rehab should be scaled back by limiting the number of 
veterans who are eligible, and we note that restricting 
eligibility to Voc-Rehab could potentially decrease the 
counselor-to-client ratio. However, DAV will adamantly oppose 
any legislation or policies that would restrict existing 
eligibility criteria. As Voc-Rehab is an employment program, 
any changes to eligibility will negatively impact disability 
veterans' ability to obtain and maintain substantial gainful 
employment.
    Mr. Chairman, we thank you for the opportunity this 
afternoon, and this concludes my testimony. I am pleased to 
answer any questions you or Members of the Subcommittee may 
have.

    [The prepared statement of Shane L.Liermann appears in the 
Appendix]

    Mr. Arrington. Thank you, Mr. Liermann. I again appreciate 
the panelists coming. I am going to yield 5 minutes to myself 
for questions and then we will move over to the Ranking Member.
    So, Mr. Kammerer, tell me, there could be debate about what 
the ratio is, I understand in some Appropriations bill it is 
the ratio, the appropriate maximum ratio is 1-to-125, I think 
somebody mentioned, but I don't know when that was set, I don't 
know science was behind that. I am already suspect, because it 
was set by Congress. So the proof should be in the outcome, the 
proof should be in your achievement.
    Tell me about the success rate and give me a trend of your 
success rate over the last 3 years on employment rate, success 
rate, and independent living success rate. I would like for you 
to be a little clearer with me on how you define success with 
respect to the independent living component of your mission.
    Mr. Kammerer. Thank you for the question, Mr. Chairman. I 
would say I agree with you on the caseload, the number 125-to-1 
would be in Appropriations language from several years ago, but 
I believe 125-to-1, to my knowledge when I took over the 
program in 2013-2014, came from a study or review 10 years ago 
informally of state vocational rehab programs.
    Mr. Arrington. A lot of changes in technology, a lot of new 
tools since then.
    Mr. Kammerer. Absolutely. So--
    Mr. Arrington. My point is, it may not be arbitrary, but 
forget the ratio--
    Mr. Kammerer. Moving forward, yes, sir.
    Mr. Arrington [continued]. --just tell me what your 
outcomes have been--
    Mr. Kammerer. Right.
    Mr. Arrington [continued]. --your success rate on 
employment and on the sort of independent living side of your 
mission. Over the last 3 years, are we going up in terms of 
improvement on employment rate and independent living or are we 
going down?
    Mr. Kammerer. So I will give you the overall trend. We 
started new performance measures in 2015 where we went to 
positive outcomes. In 2016, for the first time, we reported to 
Congress a national success rate, Mr. Chairman, that was the 
number of veterans that achieved a positive outcome at their 
sixth year in the program since GAO found that we were a 5 to 6 
years organization. So, in 2016, we had 48 percent of the 6-
year group that were successful; at the sixth year, 48 percent 
of them were--correction, 47 percent of them were successful 
outcomes, and then 72 percent of them, including those 
successful outcomes, were still in the program.
    So we--
    Mr. Arrington. Successful outcomes to move to independent 
living or employment--
    Mr. Kammerer. Those included the--
    Mr. Arrington [continued]. --or both?
    Mr. Kammerer [continued]. --employment rehabilitations, the 
independent living rehabilitations.
    Mr. Arrington. So can you bifurcate the two? Can you just 
tell me what the outcomes were for employment first and then 
independent living second?
    Mr. Kammerer. Yes, I can.
    Mr. Arrington. What you said right now is less than half 
after 6 years were successful, is that--
    Mr. Kammerer. That is correct. And then last year, Mr. 
Chairman, we went to 48 percent were positive outcomes and 
then--
    Mr. Arrington. What was that percentage again?
    Mr. Kammerer. Forty-eight percent. So the first year we 
measured it, 47 percent who were in the program successfully 
completed at their sixth year, and then 72 percent were 
persisting or had been a positive outcome.
    The following year, last year, the second year we reported 
that overall number, it was 48 percent achieved a positive 
outcome and then 68 percent, including those positive outcomes, 
were still persisting.
    So I read the numbers to you in my statement on positive 
outcomes. Last year, they went up eight percent from the 
previous year. Every year, I think for the--and I will get you 
the detailed numbers for the record--every year for the last 3 
years, sir, of the individual employment, independent living, 
and maximum rehab gains.
    But our program has performed, in my view as the director, 
very well. Our performance continues to increase every year in 
terms of the positive outcomes. So last year, as I said in my 
statement, we were up eight percent.
    So I believe, it would be my assessment as the director, 
that we are performing at a level based on the success after 
that sixth year, which again, on average, are veterans 5 to 6 
years, if nearly half of them, sir, are positive outcomes at 
the sixth year and nearly 70 percent are still persisting, I 
feel as the director that those are positive measures, sir.
    Mr. Arrington. And why do you feel that way? Do you have 
something to compare it to or--
    Mr. Kammerer. I think that we have the right performance 
measures--
    Mr. Arrington. If I got my votes right half the time, I 
would be fired. I mean, my district would fire me.
    Mr. Kammerer. I understand your concern. Maybe I could 
explain it in a different way.
    Mr. Arrington. I am out of time.
    Mr. Kammerer. Yes.
    Mr. Arrington. I really wanted to start with just getting 
some idea of what success looks like and whether you're moving 
in the right direction or not in spite of the caseload 
increase.
    We are probably going to have multiple rounds. As long as 
my colleagues want to stay, I am going to stay and ask more 
questions, but right now I am going to defer and yield 5 
minutes to my Ranking Member.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    And, you know, I realize that the comments I made at the 
opening of this hearing might have been out of context. I was 
referring to something that I'd just learned today, which is 
that the case management system for this program is managed on 
paper right now and that there was an effort undertaken to move 
that into a digital system, I guess developing our own 
software, we have spent $12 million and I think it has been a 
failure by all accounts.
    And I was hoping that in your opening remarks you were 
going to at least account for that or tell us where you are or 
why that happened, because I think it touches on some of the 
points that some of the Veterans Service Organizations have 
brought up. If we have challenges with ratios, with training, 
with outcomes, and we want to be able to shift resources where 
they are most effective, I would think moving off of a, you 
know, 19th century system to make sure that we are leveraging 
technology to its fullest capacity to help us to do that is 
essential.
    So tell me, if you could just take a minute, because I only 
have 5 minutes total, could you just tell me what happened and 
what you are going to do going forward.
    Mr. Kammerer. I understand your concern about the case 
management system, I will pass to my colleague.
    We started this journey in 2014 with the business 
requirements, we evolved the system for 2 years, extended it 
for a third year after the requirements were accepted. The 
software that we showed to our leadership team in the field in 
St. Paul last year, Ranking Member O'Rourke, looked good. And 
we identified in January when the application was fielded there 
are challenges with that, that we perhaps were not on course, 
and I worked with my IT partner. I will let my IT partner 
finish this.
    Mr. O'Rourke. And, Mr. Thrower, before you begin, I just 
want to make sure that I am not misleading anyone who is 
watching this or my colleagues on the outcome, is it true that 
this began in 2015, that to date we spent $12 million and we 
still don't have an operable system?
    Mr. Thrower. Yes, sir, that is true.
    Mr. O'Rourke. Okay. Money down the toilet, something we can 
salvage from that? What's next? Please don't take more than a 
minute to answer that.
    Mr. Thrower. Okay. I will say that, you know, as we have 
looked at this, I think we had some failures on a couple points 
in terms of use of our development methodology, we did not 
appropriately use agile development methodology. We also didn't 
communicate sort of the downsides of not doing that 
appropriately to our customers.
    We are at a point now where we have an incomplete system. 
We made a lot of progress, we had six successful bill cycles up 
until we discovered there was problems at the beginning of this 
year. We are now looking at a series of options, one of them is 
to finish the complete--we took the pause because we felt it 
was prudent at that point to really understand where we were 
and were we going to be able to complete this. We are now 
looking at--
    Mr. O'Rourke. Last question, when will this be complete and 
what will the total cost be to the taxpayer?
    Mr. Thrower. That we do not know.
    Mr. O'Rourke. Okay. Get back to us, please, when you do 
know. I would argue that maybe we should stop digging until we 
have an answer on this and a budget set forward or we are just 
going to--yeah, you are not inspiring confidence; not you 
personally, just this process so far and the explanation for 
it.
    To the Chairman's question, I show that, and you reiterated 
this, Mr. Kammerer, that fiscal year 2016 VA reported a class 
success rate of 47 percent and a class persistence rate of 72 
percent. I want to follow up on the Chairman's question, what 
was the goal?
    Mr. Kammerer. Originally, when we baselined it, I believe 
it was 60 percent and 70 as the goals, then we re-baselined--
that was the first year that you spoke of, Mr. O'Rourke, we re-
baselined a 55 percent and 70 percent success and persistence.
    Mr. O'Rourke. So you were trying to get to 60 percent, you 
hit 47 percent.
    Mr. Kammerer. The first year.
    Mr. O'Rourke. Then you dropped the goal down--
    Mr. Kammerer. We dropped it to--
    Mr. O'Rourke [continued]. --and it only moved up a point?
    Mr. Kammerer [continued]. --55 percent. We didn't achieve 
that again the second time.
    Mr. O'Rourke. Okay. And so to the very good recommendations 
made by members of this Veterans Service Organization, is that 
attributable to counselor training and efficacy, is it 
attributable to ratio? Why aren't you hitting your goal?
    Mr. Kammerer. I think I perhaps didn't explain my answer 
right to Chairman Arrington and I will try to give a better 
explanation. One of the challenges we have in the VR&E Program 
is veterans generally, and that is why I went to the cohort 
measure, sir, spend 5 to 6 years in our program, but some 
veterans spend longer in the program based on the extent of 
their disabilities.
    Mr. O'Rourke. That is the persistence rate?
    Mr. Kammerer. Yes, sir. So if you stay in the program, it 
is a positive thing. But as Chairman Arrington said, I am 
driven to get the program outcomes, we need to get the veterans 
re-employed. So the challenge we have is our education is 
slightly different, it is up to 48 months, it can be extended 
beyond that if you have a serious employment handicap, and then 
generally 18 months, Mr. O'Rourke, for job services.
    Many veterans in stay in longer, so we want to get them a 
successful outcome, but we need to take care of their 
disabilities.
    Mr. O'Rourke. Okay. And for the record, because I am going 
to turn it back over to the Chairman, I would like to know what 
the goal is for both of these measures for the next fiscal 
year, and I would like to know what the budget is for 
transitioning from a paper-based system to a digital system for 
the case management system, because I don't know what to 
measure 12 million against. Was it a $12 million budget and we 
spent it all, is it a $24 million budget? How much are we on 
the line for?
    Don't answer now, get us in writing, and that way we can 
hold each other accountable.
    And I yield back.
    Mr. Arrington. I thank the Ranking Member. And we will get 
that information for him and for the rest of the Committee, and 
I appreciate his line of questions.
    I will now yield Mr. Banks 5 minutes.
    Mr. Banks. Thank you, Mr. Chairman.
    Mr. Thrower, one of the options that I understand that is 
now being explored by VR&E and the IT staff is to purchase a 
commercial, off-the-shelf system. You have mentioned to this 
Committee staff that this system was not available though when 
the project was first scoped in 2015. Do you still stand by 
that today?
    Mr. Thrower. I would say that I actually do not know 
whether or not the solution was available at that time. I 
suspect there was early versions that were, I do not know 
whether or not it was a maturity level that was to serve the 
mission.
    What I do know is that, from what I can understand, I do 
not believe that the team at the time who was doing the 
evaluation looked at a COTS product.
    Mr. Banks. So you don't know?
    Mr. Thrower. I don't know.
    Mr. Banks. Yet you led the Committee staff to believe that 
there was not a commercial option available?
    Mr. Thrower. I don't think I--
    Mr. Banks. You dispute that?
    Mr. Thrower [continued]. --led them to believe that in that 
way, but that could have been interpreted.
    Mr. Banks. So if that is the case, if you didn't know if 
there was a commercial option available, then clearly you and 
your staff didn't do your due diligence in 2015, or now, as the 
Committee's research indicates that the first version of this 
system was created approximately 20 years and was being used in 
dozens of states in 2015. So how do you explain that?
    Mr. Thrower. I would agree with you that the team that did 
the initial analysis did not look appropriately at COTS 
products. I think that was a failing at the very beginning of 
the program.
    Mr. Banks. Okay. You have summed up quite well your 
inability to find out whether or not there was a commercial 
option that was available, and I surely hope that you wouldn't 
either be misleading to us now or incapable of doing your job 
well by figuring out the answer to that question as it stands 
today.
    So can you explain to me, since you didn't know then and 
you don't know now, could you further explain about the steps 
that you and your staff are taking to correct this colossal 
mistake?
    Mr. Thrower. So we discovered this problem--well, the first 
inkling that we had a problem was in December when there was a 
user acceptance test that did not pass all standards. That 
looked to the team at the time as a glitch. We did not really, 
actually realize that it was potentially a real problem until 
mid-January when we were looking at the fact that there was 
considerably more requirements than we expected at that point, 
which should have been a further, a farther down path--we 
should have been very close to completion. We caused a pause--
or we asked for an assessment at that point and in mid-February 
we caused a pause.
    Now we are looking at options of what is the best way to go 
forward both from a financial perspective and from a timing 
perspective to deliver the best solution for our veterans. We 
are looking at a couple, several options. One is to see what it 
would cost to understand how to blow out what we were--to 
finish what we have started. Another option is to look in the 
commercial COTS environment to see if that is a more 
expeditious and cost-effective solution. The third is sort of a 
hybrid on that and really kind of see if there is a managed 
service solution that could be dealt with.
    So we are in the midst of doing an analysis of those 
options. We committed to--I think we, being the collective VBA 
and OI&T team committed to bringing a recommendation to the 
leadership of VBA at the beginning of June, so that VBA 
leadership can make a decision during the month of June, as the 
best way forward.
    Mr. Banks. Well, thank you for those answers.
    Mr. Chairman, I find this situation be thoroughly 
disappointing and confusing nonetheless, but with that I yield 
back.
    Mr. Arrington. Thank you, Mr. Banks.
    I now yield 5 minutes to Mr. Correa.
    Mr. Correa. Thank you, Mr. Chairman. I just wanted to 
follow up on some of the comments from Mr. Banks, Mr. Thrower, 
and it sounds like you are going to have some options for us or 
the department in the next couple of weeks, 2 or 3 weeks. Any 
thoughts where we would be going, any thoughts on some 
commercial applications?
    Or let me restate that question, do you think there is any 
way to implement a system in a timely basis that has a long-
term horizon as opposed to, these are my words, putting a Band-
Aid on what is going on right now and moving forward?
    Mr. Thrower. Our goal is to come up with the best solution 
and it is not looking at--we are not look at--
    Mr. Correa. And, you know, I am just trying to figure out 
what is going on. Coming up with the best solution to do what?
    Mr. Thrower. We are looking for the best solution to meet 
the business requirement that has been defined by our customer, 
by Mr. Kammerer, and by the VBA and the Vocational 
Rehabilitation team. So whether or not at this point--I look at 
it, as Mr. O'Rourke said earlier, as we have a certain amount 
of costs in here, that happened, okay? I am now looking at can 
I leverage that--or the team who is evaluating this is saying, 
can we leverage this, does it make sense to finish this? Will 
this best meet the need of our veterans or are we better 
served--
    Mr. Correa. At this point, are there--
    Mr. Thrower [continued]. --looking at another option.
    Mr. Correa [continued]. --at this point, sir, are there any 
commercial vendors out there that with possibly off-the-shelf 
programs that would meet the needs or is it so specific that 
unlikely?
    Mr. Thrower. There is a commercial vendor that we know 
about, that is a potential that we are looking at as an option.
    Mr. Correa. Thank you. Let me shift very quickly gears 
here.
    The Vocational Rehab and Employment Program, it is supposed 
to our veterans up and running, integrate into our society. I 
have got a constituent, Aaron Edwards, who goes to my alma 
mater, Cal State, Fullerton. Single father, two kids, trying to 
get himself up, but he has got to take care of his kids as 
well.
    A question to the group. I have introduced legislation too 
called the Veteran Employment Child Care Access Act, that 
essentially would cover childcare assistance to veterans who 
are participating in the workforce. Any thoughts?
    Mr. Kammerer. Jack Kammerer, representing VR&E. I would say 
on a case-by-case basis we do have a limited ability to provide 
some degree of childcare support--
    Mr. Correa. At this point?
    Mr. Kammerer. In our program, but it's case-by-case and it 
is not, I wouldn't describe it as robust and we have some 
ability.
    Mr. Correa. Very quickly, I am running out of time, is it 
not robust because that is providing childcare something you 
don't consider important or it is just something that you don't 
see as a need out there?
    Mr. Kammerer. I will take it for the record, but my short 
answer is I believe it is based on statutory authority we are 
able to provide some limited childcare.
    Mr. Correa. So you comply with statutory authority then?
    Mr. Kammerer. I will take it for the record, sir, but I 
believe that that would be my answer.
    Mr. Correa. My third question, very quickly. On the ratio 
of counselors-to-veterans, the Los Angeles regional office, 
that covers my area, Orange County, the ratio right now is I 
believe 225-to-1. And I guess I am going to come back and ask 
the question different than our Chairman, but related. You have 
got a ratio, you have got personnel, you have got folks who 
have to wait, I guess my question is, what is an appropriate 
ratio of counselors to veterans?
    Mr. Kammerer. As I was stating to Mr. Arrington, I am 
trying to move beyond the ratios as they have evolved over many 
years to a more time-driven model to determine can we measure 
the number of minutes that a counselor spends, is able to 
counsel a veteran a week. So in rough order of magnitude now, 
my math tells me it is about 12 minutes or so that a counselor 
is able to spend on average with a veteran per week, we would 
like to give more time back to the counselors.
    Mr. Correa. So we are probably going to need to hire more 
counselors to do the job?
    Mr. Kammerer. There are a number of ways we can do that. We 
have a time study going on right now. Some of the technology 
ways that we are looking at, including tele-counseling, the 
Dragon software we are getting ready to give to the counselors 
to dictate their case notes. There is a range of things we can 
do to give time back to the counselors. We have an Admin Hub 
study going on in San Diego to see if we can get school 
payments done for the counselors.
    So there is a range of things, sir, that we can do.
    Mr. Correa. And you are doing them right now?
    Mr. Kammerer. Yes, we are. And I would highlight also, our 
caseload in Los Angeles is one of our highest.
    Mr. Correa. Yes, it is.
    Mr. Kammerer. I have actually sent some of my team members 
out to LA to help in the past year with applications. They have 
had a turnover, they have had a number of things there. That 
has been on my radar, sir.
    Mr. Correa. Very quickly, are you implementing tele-
counseling in LA?
    Mr. Kammerer. We are getting ready to, this year we will do 
a national rollout of the new system.
    Mr. Correa. When--
    Mr. Kammerer. They can only have the old system, but we 
will help Los Angeles with the new tele-counseling.
    Mr. Correa. When do you think you will have that?
    Mr. Kammerer. We are rolling out the initial capability in 
the next 30 days, I will get it to Los Angeles by the end of 
the year, sir.
    Mr. Correa. Mr. Chair, I yield.
    I would like to continue to talk to you on this issue. 
Thank you.
    Mr. Kammerer. Yes, sir.
    Mr. Arrington. If you stick around, we will have another 
round of questions. If you have to leave, we understand, and 
whatever information you need from the panelist, I will make 
sure you get it. Thank you, Mr. Correa.
    Now we yield 5 minutes to Mr. Takano.
    Mr. Takano. Thank you, Mr. Chairman.
    I want to know if Mr. Kammerer would agree with this 
statement: the most efficient action that VR&E can take to 
bring about better outcomes is to have the flexibility to shift 
cases from counselors who are overburdened to counselors who 
are under-worked in more remote areas of the country, of the 
things we can do right now, it is the most efficient thing we 
can do. Would you agree or disagree with that?
    Mr. Kammerer. I agree in principle, I am challenged in 
practice with that. And to answer your question quickly, Mr. 
Takano, as you know, in compensation claims we are able to 
broker cases through the national work queue across the country 
and work. Three reasons, we still have paper in VR&E in some 
cases--
    Mr. Takano. If I might cut in, but you basically agree that 
that is the most efficient thing we can do and the barrier is 
that the paper system, the breakdown with the electronic system 
you are trying to build, is that right? I just want to put 
the--I just want to put--
    Mr. Kammerer. It is a very--I don't want to spend too much 
time on this, but it is a very complex issue, but the short 
answer is I agree with you in principle. Other than the 
technology and the paper challenges, sir, employment is a lot 
of times locally derived, so there are employment challenges 
when you move cases around, and veterans are very adamant about 
wanting to retain their counselors. So when we talk about 
moving workload around the country, it is a very complicated 
process.
    Mr. Takano. No, I understand that there is a need 
continuity. If I were a disabled veteran, I would want to make 
sure that the counselor who knew me was the one that stayed 
with me and I would prefer the face-to-face interaction with a 
local counselor, but as a matter of trying to untangle what we 
have now, I mean, an optimal situation would be that we have a 
local counselor working face-to-face with our disabled 
veterans. But as for managing the caseload now and getting to 
stability, it seems to me that we have to allocate the workload 
remotely and what is in the way of that is this electronic, the 
breakdowns with the electronic system. And I think we need to 
make that clear for the folks who are watching this hearing to 
understand why we are bearing down on and why there are so many 
questions from my colleagues about the electronic system, is 
that it is part of the solution to getting to a better work 
allocation.
    Mr. Kammerer. Absolutely, sir. And I will say as clearly as 
I can state it, our counselors deserve and need a new case 
management system, it is unacceptable that we don't have it, 
and that technology will help us do what you are talking about.
    Mr. Takano. And I believe my Ranking Member especially has 
some background on IT and that the Chairman is familiar with 
some of the business systems, and that we are going to get to 
the bottom and get to the accountability necessary for that, 
but I want to get to some of the other things that we can do to 
improve the VR&E going forward.
    I understand it is hard for VR&E to increase the overall 
number of counselors because counselors all must have master's 
degree and be highly qualified, is that correct?
    Mr. Kammerer. A hundred percent of our assigned counselors 
have master's degrees, that is correct.
    Mr. Takano. Yeah, and I can imagine it is a complex job to 
be a counselor and to make those judgments and to work with 
this population group, with our disabled veterans. So do we 
have incentive programs, do we have loan repayment? Are there 
programs to be able to help us build that pipeline of people to 
do these jobs? Do we have adequate--is there a need to do that?
    Mr. Kammerer. As you know, Mr. Takano, I am not a counselor 
myself, but I am responsible for the professionals that are. 
Generally, in my experience in four and a half years, we 
attract and retain counselors because counselors want to come 
to the VA to serve veterans. There are things we can do to make 
sure, like right now we are short at least 30 counselors.
    Mr. Takano. Yes.
    Mr. Kammerer. So we need to hire up to ceiling, and then we 
need to look at opportunities. I told you earlier we did a 
staffing review, we are looking at more standardization across 
the regional offices, which the Committee and others have 
brought to my attention in terms of service delivery, we might 
be able to generate some more counselors as part of that effort 
as well.
    Mr. Takano. And I understand that you are conducting a time 
study to see how much time counselors spend on individual 
tasks, so you can figure out ways to make the process more 
efficient. You have a goal to contract out the evaluation of 
the administration duties of your counselors, so that they can 
spend more time actually counseling veterans. So you are 
increasing your telecommunication, your tele-counseling 
functions, so you can minimize missed appointments and that 
sort of thing, but it seems to me that, you know, the immediate 
thing before us is to get the IT thing straightened out, so we 
can at least reallocate the caseloads, but we need to hire more 
counselors and we need to find ways to get them trained.
    Mr. Kammerer. And I will make my response on this real 
short, but as the Committee knows, we also have contract 
augmentation to our counselors for assessments and other tasks, 
my leadership has clearly communicated to me that we need to 
use that to the best advantage. We used 78 percent of about $4 
million last year to support our counselors in our national 
service contracts and I will get the Committee more information 
on that utilization.
    Mr. Takano. All right. Well, you know, I too wish to echo 
the sentiments of my Ranking Member that I hope you get this 
right and this is a very, very important group of veterans that 
we need to make sure we serve to the utmost. And I know that 
you are aligned behind that purpose and I hope we can get to 
the bottom of all this IT mess.
    Mr. Kammerer. Yes, sir.
    Mr. Takano. All right, thank you.
    Mr. Arrington. Thank you, Mr. Takano. I yield 5 minutes to 
myself.
    Let me follow along the line of questioning of Mr. Takano. 
What are the comps in terms of what a voc-rehab counselor is 
paid in the private sector versus the salary, the average 
salary you pay voc-rehab counselors at the VA?
    Mr. Kammerer. That is an excellent question, Mr. Chairman, 
I will have to take that for the record, I understand it. I 
don't have those numbers, but I will get those numbers for you.
    Mr. Arrington. There are voc-rehab counselors and this type 
of service you provide does exist in the private sector or 
outside the VA?
    Mr. Kammerer. The service contracts I told you about, there 
are contract--we don't have one for contract counselors, but we 
are augmented by vocational rehab counselors. Every state and I 
work with my partners, Mr. Arrington, at the Department of 
Education Rehab Service Administration, they manage the state 
workload through the state rehabilitation counselors. So all 
the states have counselors and there are non-profit counselors 
as well, and I work with the VSOs' partners as well.
    Mr. Arrington. Do these counselors have a disabled 
population as clients? I assume there--I am trying to get an 
apples-to-apples--
    Mr. Kammerer. Yes.
    Mr. Arrington [continued]. --comparison, so we can get at 
the question of the Ranking Member, which is what is a good 
goal? I mean, I am not saying 100 percent is feasible, 
realistic, or even 80 percent, but we have got to have 
something to compare it to other than ourselves or your 
operation over the last 2, 3 years, which seems like that is 
the only data we have to work with.
    So do you think that that exists in the marketplace where 
we could ascertain that data, so we could have some comps to 
know how far off the mark we are?
    Mr. Kammerer. We have tried with limited success to get 
state information in terms of how the states do it. I will try 
again, because I believe that is an excellent measure to try to 
gauge how the states do their business. One of the challenges, 
sir, as you pointed out, is they are not all veteran clients. 
So we are rather unique in terms of the fact that we serve 
veterans. I do have a counterpart in VHA, the compensated work 
there of people, that is a clinical program.
    So we will work with you, sir, to get you more information 
on that.
    Mr. Arrington. Thank you. I took notes and took note of one 
of the criticisms by the panelists that VR&E does not have 
control over their counselors and that there is a sense of not 
having accountability in terms of meeting with the clients, 
following up with the clients, being timely, quality of 
services. Do you get that impression? Do you have quality 
controls in place? Are you managing that where you can identify 
those counselors and the places where there are problems, and 
then addressing them, do you have systems in place for that?
    Mr. Kammerer. That is an excellent question, sir. I have 
direct responsibility for quality assurance at the national 
level. I have a staff of essentially ten, one leader and nine 
folks in Nashville, Tennessee that do that for me, they do the 
national. The local quality is done, as you stated, by the 
local leaders, those are the VR&E leaders. The chain of command 
goes through the Office of Field Operations, so the counselors 
do not directly report to me. I manage the quality, I do some 
of the internal controls, but I work very closely with the 
Office of Field Operations. I spent many hours last week with 
the district directors talking about VR&E-type issues.
    So your point is well taken. It is a partnership right now 
between me and the Office of Field Operations and the chain of 
command in terms of the chain of command for the counselors.
    Mr. Arrington. Who do you report to in the central office 
at the VA?
    Mr. Kammerer. Mr. Rob Reynolds, the Deputy Undersecretary 
for Disability Compensation, is acting as the Deputy 
Undersecretary for the Office of Economic Opportunity, he is my 
direct report.
    Mr. Arrington. How long has he been in that role?
    Mr. Kammerer. I think he has been in that role at least 
over, I would say at least a year.
    Mr. Arrington. So he has been an acting?
    Mr. Kammerer. He has been the acting since Deputy 
Undersecretary Coy departed in December.
    Mr. Arrington. I have got too many questions and I really 
want to get to the systems breakdown and the $12 million we 
have already established. And I appreciate your honesty, it was 
a big waste of time and money, taxpayer money. And I don't know 
how many counselors $12 million would add to the roster, but I 
am certain it would be significant at getting after the 
increase in caseload.
    But let me ask you, Mr. Thrower, what disciplinary action 
has ensued since your leadership has been made aware that we 
have effectively wasted $12 million on this project.
    Mr. Thrower. I cannot say that there has been any specific 
disciplinary action. We are actually still trying to--we are 
still diving in to understand exactly what the true situation 
is of the history.
    The key decisions that were made that I believe that took 
this program off track happened from the very inception, just 
the fact that we did not follow our normal process and then 
various communications issues that happened as a result of 
that.
    Mr. Arrington. Who is responsible for that?
    Mr. Thrower. Overall, the IT system development team is 
responsible for all delivery of--
    Mr. Arrington. Should we fire the whole team? I mean, 
should the VA fire the whole team? I know I am not supposed to 
ask that question, but I am going to go ahead and ask it. I 
mean, is the team responsible, are you responsible? Is there a 
CIO at the VA that is responsible?
    I have gone over my time, Mr. Ranking Member, I'm sorry. I 
am just--nobody is ever responsible at the VA, nobody. It is 
everybody is and then nobody is, and we can't ever track it 
down. And then I ask if there have been any disciplinary 
actions, usually I ask who has been fired and they told me not 
to ask that, but then I never get--we don't get the 
information. If we do, nobody has been fired.
    I don't know any place in the world, any market, any sector 
of our economy, any industry, any private or public enterprise 
where $12 million is wasted, somebody's job wasn't on the line. 
I don't imagine anybody is going to get fired and that just 
frustrates the dog out of me. I just don't know what to do 
except to keep grilling you. I may stay here all day, I may 
stay up here all day. I will let the Ranking Member go, but I 
may just stay up here. We may do an all-nighter, so we can call 
attention, so the taxpayers know how they are getting rooked 
and how the veterans are being poorly served by the bureaucracy 
at the VA. I think there is a tremendous breakdown on the IT 
system side.
    I am sorry I have gone over my time, Mr. Ranking Member. I 
am going to yield to you and then I am going to keep going.
    Mr. O'Rourke. Okay. Yeah, I think there does have to be 
some accountability. And I think you can spend unlimited 
amounts of money and unlimited amounts of time developing the 
software if there isn't a defined budget and if there isn't a 
defined deadline. I think that you can have the same people 
committing the same mistakes if there isn't accountability.
    You said that the typical or normal procedures were not 
followed, somebody chose not to follow them or made a mistake 
in not following them. I don't know if you know who that is or 
if there is a lesson learned, or if there has been a message 
sent throughout the organization that, you know, spending $12 
million and not having a result at the end of the day is not 
acceptable. We are not hearing it up here and I don't think 
anyone watching it. And I think given the accountability issues 
in the VA, that would just be something I would expect you to 
be super sensitive to and you are not, for whatever reason.
    I have a question for the VSOs, maybe if you could each 
take a minute in answering this. First of all, your testimony 
has been very helpful, from Ms. Ansley talking about, you know, 
let's add more full-time employees, so that we get better 
ratios. Ms. Vangellow, you were able to recount some anecdotes 
about not getting an email returned or not having the freedom 
to pursue, you know, a direction that was going to be most 
beneficial to that veteran.
    I really like, Mr. Liermann, the study you cited showing 
$15,000 on average in higher income for those veterans who 
completed the VR&E program. That is something measurable, I 
mean, that is real value for the veteran, real value for the 
taxpayer. It is allowing somebody to contribute at a higher 
potential.
    So I just thought I would ask each of you to take just one 
minute, if you might, because I don't know when we are going to 
meet again on this issue and I would love to have some guidance 
at the highest level for you described the means to get better 
outcomes, what should the Chairman and I and our colleagues be 
measuring? Is it persistence, do we care how long somebody 
stays in the program? Is it the success rate for these five 
different tracks that people are on?
    What do you at the level that we are at, voting on 1200 
different bills in a year, only getting to have a VR&E hearing 
once a year, what do you want us at the highest level to be 
focusing on? Ms. Ansley, could you take a minute to just share 
your guidance with me?
    Ms. Ansley. Overall, I think it is important for the 
Committee to be focused on accountability to ensure that we are 
seeing a difference. I testified three years ago at the last 
VR&E hearing and, unfortunately, we are still talking about a 
lot of the same things, and that is disappointing.
    So I feel like we need to really look at what changes are 
we making within the program, whether it is bureaucratic 
hurdles such as, you know, how people get into the program, how 
they measure. PVA has a vocational rehabilitation program 
called PAVE. I spoke with some of our counselors about these 
very issues, because they are serving PVA members who have 
catastrophic disabilities, and they talked about how they can 
quickly get into a medical center and start talking to somebody 
as soon as they acquire a disability, they can start talking to 
them about, yes, it is possible to return to work, they can 
quickly get the processes rolling. And how all of that is 
ultimately helpful to make sure that particularly people with 
catastrophic disabilities they are not self-selecting 
themselves out of the workforce thinking that they can't work 
and that they are not even pursuing opportunities like VR&E.
    So we want to make sure that the message is given that work 
is an opportunity for you and that Congress is going to invest 
in this program to make the changes needed, so that we are 
seeing not only higher success rates, but more veterans going 
into the program.
    Mr. O'Rourke. I like that and one of the things I take from 
that is higher expectations that the veterans are meeting 
because of a very successful VR&E Program, higher expectations 
for the VA, higher expectations for the Committee of Oversight, 
and we all got to perform to them. And I think it is just, you 
know, success, will we get more success in that, but we have 
got to take these steps. Thank you.
    Ms. Vangellow, would you like to add a minute's worth to 
the conversation?
    Ms. Vangellow. Sure. Thank you for that question. And you 
hit the nail on the head in terms of the outcomes, something 
that we go into in more depth in our written testimony, how 
positive outcome is defined currently is very, very broad. And 
we think that, you know, ``pursued academic outcome,'' what 
does that actually mean? It needs to be strictly defined. So, 
in terms of going forward we can measure that and find out how 
veterans are doing in this program in order to get them 
employed.
    And I think in order to make that successful, we really do 
have to focus on accountability and making sure that VR&E does 
have control over individual counselors. So, if someone is not 
meeting the expectations to serve our veterans, they are no 
longer in that role. And I think that does come down from, you 
know, having someone who oversees economic opportunity in the 
VA who from that top down can really make sure that the lines 
are clear and people are held to those tough standards for our 
veterans.
    Mr. O'Rourke. And I know that SVA has been real consistent 
on advocating for somebody who reports directly to the 
Secretary on this issue and you are being consistent in that as 
well. I appreciate that and you are making a good case for it, 
right? That there is somebody who is accountable at the 
undersecretary level to make sure that we deliver.
    Mr. Liermann, would you like to add to the conversation?
    Mr. Liermann. Yes, thank you. I think one of the best ways 
to measure success for a disabled veteran is employment. 
Whether it takes a year, 2 years, 3 years, or 5 years to get 
there, the fact that they can come back, survive their 
disabilities, and have the ability to not only provide for 
themselves, but their families and their communities, will set 
off a feeling within them and the community, that will just 
elevate everything even higher.
    So I think employment is probably the best outcome to look, 
is we should never give up on our disabled veterans and give 
them the means to find that employment, because as we indicated 
earlier, 15,000 a year higher in annual program for somebody 
who completes the program is amazing to me, it really is. So it 
really shows the value of the program and I think substantial, 
gainful employment should be what we are looking at as a 
successful outcome for any disabled veteran.
    Mr. O'Rourke. Well, I will close by thanking each of you, 
including our representatives from the VA, for the work that 
you are doing on this. It is an extraordinarily valuable 
program and I just think that one of the consistent things we 
are hearing, each one of you mentioned the word accountability, 
is there just has to be better control for performance. We have 
to make sure that we are truly delivering the highest value in 
each case, setting very high expectations, achieving them, and 
that is on us too. I want to make sure to the point of adding 
another 143 employees that we make the appropriations request, 
if we think that the ratio is determinative. To Mr. Takano's 
point, having a system that can allocate resources where they 
need to go that is not based on paper, and making sure that we 
are accountable for delivering that system, all of that is 
helpful.
    So I just want to thank you and to Ms. Ansley especially 
for reminding us that you testified 3 years ago. I think it is 
a real challenge on this Committee is we just don't want to 
continue to have the same conversation, because, it is on all 
of us, and I really in the time I have remaining here want to 
see if I can work with the Chairman to deliver on the guidance 
that you gave us.
    We have some very direct questions for the record for Mr. 
Thrower and Mr. Kammerer, and we really look forward to getting 
your answers, and we want to work collaboratively with you to 
then build on that and make sure that next time Ms. Ansley is 
here she is congratulating all of us on being able to deliver 
to the higher expectations that we have set.
    So, thank you all for doing this and, Mr. Chairman, thank 
you for calling this hearing today.
    Mr. Arrington. Thank you, Mr. Ranking Member. I know you 
are trying to get me to wrap it up.
    Mr. O'Rourke. I may have to go.
    Mr. Arrington. No, you can leave at any time and I won't 
keep you guys all night, but I do have a few more.
    Look, the Ranking Member and I are on the same page, and 
generally are. If it is resources you need and that is what we 
believe would make the most impact to achieving the desired 
outcomes in helping our wounded warriors make the most of their 
lives, and have a purpose-filled life and an impact in their 
communities and self-sufficiency and all those things, that is 
all we want, that is all we want. But if it is defining success 
better and having better performance metrics, if we are chasing 
the wrong thing in that regard, if it is authority you don't 
have, we have to just be clear so we can pursue that alongside 
of you.
    But I try to imagine what it would be like if a veteran, a 
disabled veteran and potential client, if not client, were 
sitting in this chair and my taxpayers from back in west Texas, 
that is why, and I think they would just be beside themselves. 
I think they would just be incensed with the waste and the 
mismanagement.
    And I hear it, I was at an oversight hearing recently on an 
IT issue that had to with logistics, management system, and it 
was $400 million of waste. So 12 million is just a drop in the 
bucket, but the cumulative loss in not managing IT at the VA is 
astronomical. And we keep giving more money and more money to 
the VA, because we all want to help our veterans, but meanwhile 
I think the taxpayers are being fleeced and I think the VA is 
not serving the customer like they should in terms of our 
veterans.
    And so I am going to ask some more questions to you, Mr. 
Thrower. Who do you report to at the VA?
    Mr. Thrower. I report to the Principal Deputy CIO.
    Mr. Arrington. And the Principal Deputy I suppose reports 
to the CIO?
    Mr. Thrower. Yes, sir.
    Mr. Arrington. And who is the CIO?
    Mr. Thrower. We have an acting CIO right now.
    Mr. Arrington. So every time I have asked for the record, 
asked the question who do you report to, ultimately it is 
somebody that is in an acting role.
    Mr. Thrower. Right.
    Mr. Arrington. How long has that person been in this role 
as acting CIO?
    Mr. Thrower. Approximately a month.
    Mr. Arrington. Okay. What happened to the last fellow?
    Mr. Thrower. He resigned.
    Mr. Arrington. On his own will?
    Mr. Thrower. That is my sense, yes.
    Mr. Arrington. Okay. So what is central VA, the acting CIO 
and Deputy Principal, what are they doing about this? Are they 
engaged in this in terms of what has happened, doing a post-
mortem, making sure we have lessons learned, making sure we 
have appropriate accountability, making sure we have a plan on 
whether to pick up what we have sunk and try to make it work or 
do we take something off the shelf, are they engaged in that 
process?
    Mr. Thrower. Yes, sir, they are. I mean, you know, I and 
the development teams have briefed them on what happened, our 
assessment of how it happened. We have gone through and tried 
to do--a lot of this is a lot of forensic work that I have been 
doing over the last couple of months to really understand how 
we got to where we are. And so our leadership is fully apprised 
of that, as is leadership of the Veterans Benefits 
Administration, because we have been briefing both parties, and 
we are working to understand both what is the trail of 
accountability and what we should do about it going forward, 
both from an accountability point of view and more importantly, 
and to me more importantly, of how are we going to deliver what 
we want to deliver for veterans.
    Mr. Arrington. Are you captain of the team for the project?
    Mr. Thrower. No, sir.
    Mr. Arrington. Who is?
    Mr. Thrower. That would be within our development 
organization.
    Mr. Arrington. The IT development?
    Mr. Thrower. Yes.
    Mr. Arrington. And why isn't that person here at this 
hearing?
    Mr. Thrower. I am the--well, I have been the one who has 
been providing--
    Mr. Arrington. Do you report to him or is he--
    Mr. Thrower. A separate chain of command.
    Mr. Arrington. Okay. So if the captain of the team is in a 
different chain of command, then I would go back and tell him 
that is the last time you ever come to a hearing and take the 
abuse that I am going to continue to dish out, when the person 
that I am understanding by your comments who is accountable is 
in a different part of the IT organization, is that correct?
    Mr. Thrower. That is a challenge. I will say, though, that 
I have, you know, in the time that I have been in the role that 
I am in, I serve the role of being the liaison between the 
Veterans Benefits Administration and OI&T, and the types of 
conversations that I think did not happen at the beginning of 
the program I am now in place to make sure they do happen.
    Mr. Arrington. So conversations between whom?
    Mr. Thrower. Between Mr. Kammerer, between the 
undersecretary, and the developer teams on our side of the 
fence, I broker that conversation.
    Mr. Arrington. Is Mr. Kammerer and the VR&E, are they your 
client essentially?
    Mr. Thrower. Yes, sir.
    Mr. Arrington. So they are your client and you have to 
understand what the client's needs are.
    Mr. Thrower. Yes, sir.
    Mr. Arrington. Did you serve your client or did you fail 
your client in this regard?
    Mr. Thrower. I would say that we as an organization have 
failed our client in--
    Mr. Arrington. When you say as an organization, I want to 
be specific, who is that? Who is the organization that failed 
the client, VR&E, and therefore failed the case managers to 
give them tools to be more efficient, and therefore failed the 
disabled veterans who are receiving services? So, who is the 
organization? Is it your team, is it the guy that is not here 
who is actually responsible?
    Mr. Thrower. My sense in this case--I have been in this 
role, sir, the role that I am in is a relatively new role. I am 
in the role because I think a lot are put in this role to put 
between these organizations because of I think a lot of the 
necessary communications and the ability to translate business 
speak to IT speak, as it were, was missing.
    Mr. Arrington. Were you in this role during this project?
    Mr. Thrower. No, sir.
    Mr. Arrington. So you just were placed in this role after 
the fact?
    Mr. Thrower. Well, at the point where we were past the 
point of no return certainly.
    Mr. Arrington. Okay.
    Mr. Thrower. I have been in this role for officially 6 
months.
    Mr. Arrington. Is it true there have been four project 
managers over this--
    Mr. Thrower. So within the development team, yes, there 
have been four project managers over the course of this 
project.
    Mr. Arrington. Who did those project managers report to?
    Mr. Thrower. They reported to the development organization.
    Mr. Arrington. And the head of development is whom?
    Mr. Thrower. Right now, it is, I would say Bill James is 
officially the head of the EPMO, he is actually--
    Mr. Arrington. I don't know what EPO means, I don't know 
what that means. Who is the head of development?
    Mr. Thrower. He is the head of our development 
organization.
    Mr. Arrington. James?
    Mr. Thrower. Bill James, yes. He is actually now detailed 
to be our acting Principal Deputy.
    Mr. Arrington. He got a promotion out of it. I would call 
that a promotion.
    Mr. Thrower. Well, sir, I would also say that he was not in 
that role either when this job got moved.
    Mr. Arrington. Okay. All right, let me just keep peeling 
back, because we are not going to leave here until the veterans 
back in my district understand what the hell is going on, 
because nobody understands what is going on up here. So we are 
just going to keep asking.
    Now, that guy who has now been promoted to Principal Deputy 
is gone--he is not gone, he--
    Mr. Thrower. No, sir. You didn't understand, sir.
    Mr. Arrington. Okay, please help me understand.
    Mr. Thrower. Okay. Well, so he has actually only been in 
that role for a little over a year himself.
    Mr. Arrington. I did understand.
    Mr. Thrower. Okay.
    Mr. Arrington. So he has been promoted to Principal Deputy, 
but he was not there when this project was breaking down.
    Mr. Thrower. That is right.
    Mr. Arrington. So when I asked who was responsible and you 
said project development, then I said who is the project--so 
who was the project development head, director, chief 
executive, while this project went through four--
    Mr. Thrower. When this guy started--
    Mr. Arrington [continued]. --development managers and 
ultimately failed--
    Mr. Thrower [continued]. --and when I go back--
    Mr. Arrington [continued]. --and wasted $12 million?
    Mr. Thrower. When I go back, sir, to 2015 when the original 
decisions were made in this, Mr. Rob Thomas was the head of the 
project development organization and Ms. Nicole Mayerhauser was 
the Deputy in that organization, neither of them are at VA 
today.
    Mr. Arrington. Why?
    Mr. Thrower. One retired and one left.
    Mr. Arrington. On their own accord?
    Mr. Thrower. On their own accord, yes.
    Mr. Arrington. Do you think they anticipated this hearing 
and maybe that--
    Mr. Thrower. I would not care to speculate. I do not 
believe that they did but, you know, there was a lot going on.
    Mr. Arrington. When did they retire and resign?
    Mr. Thrower. Mr. Thomas left about a year ago and they both 
left about a year ago.
    Mr. Arrington. How long has this project been going on?
    Mr. Thrower. Since 2015.
    Mr. Arrington. So who carried it, who carried the ball for 
at least half of the time?
    Mr. Thrower. So it has been passed along. If I may, sir?
    Mr. Arrington. You may.
    Mr. Thrower. I mean, I have looked, I have been looking 
really hard at this, because this bothers the heck out of me 
too, sir, to understand how we ended up in this path and how we 
diverged from things that we normally do. We normally follow a 
development path wherein we--which we call Agile, which has a 
methodology where you are actually delivering capability to 
customers on a regular basis. You deliver a piece of it today 
that people use and they work, and we know it works because it 
is out there in the field, then we do another piece in 2 months 
and another piece in 2 months after that. I have been up to 
this Committee and spoken to you in the past about what we are 
doing with education and with appeals. In both of those 
situations, we are following the methodology very carefully.
    Mr. Arrington. Whose methodology, the VA's?
    Mr. Thrower. No, the Agile methodology. This idea of 
delivering real things out in the field so we know that they 
work and they are fully tested.
    Mr. Arrington. Was the Agile methodology not followed in 
this case, is that what you are telling me?
    Mr. Thrower. It was not used in this case and it is my 
belief that it should have been, and to me that was the 
critical failure here. And instead, you know, there was a 
desire that was expressed early on that we wanted to--that it 
was a desire from the customer to deliver a fully developed, 
not to deploy in the field until we had a complete product, 
which in that has an inherent risk of if you do not--is that 
because you don't have that ability to test with real users and 
to have pieces of functionality delivered incrementally along 
the way.
    Mr. Arrington. Is there a strong default or incentive 
within the VA to do projects in-house?
    Mr. Thrower. Actually, I would say that is changing and I 
think that is a very move to the good for us because, you know, 
there has been over time we know that we are not the department 
of software development, we are the department--and 
maintenance, we are the Department of Veterans Affairs.
    Mr. Arrington. Yeah, because that just--exactly. I mean, 
seriously, we are looking at trying to figure out, this is 
basic management, best practice in operating any organization, 
and that is what are your core competencies, what is your core 
mission. And the VA is not qualified to be and nor should it be 
involved in, to me, software development, that is not your core 
job.
    And I have seen it over and over, the failure when the VA 
tries to develop their own software solutions instead of taking 
it off the shelf. We have an off-the-shelf solution for this 
that 40 other VA enterprise--or states, rather, have adopted, 
40 states have adopted a solution for this and meanwhile VA is 
trying to do their own technology, software development. It 
doesn't make any sense at all and we have just thrown away 
millions of dollars on account of trying to keep, in my 
opinion, jobs at the VA for software developers. Would you 
agree with that?
    Mr. Thrower. I would agree with that. And I would say that 
the leadership over the last 2 years within OI&T would agree 
with you as well. I mean, we have shifted to a very strong 
posture of buy before build. And in every project that is 
coming forward now, the first thing we are really incentivized 
to do is to see what products are out there in the marketplace 
that could fill this gap and to only do, if there is any 
development that we do in-house, it is only the pieces that are 
truly unique to VA that no one else can do, and it may be some 
issues around master data management or certain things that are 
very narrowly scoped.
    Mr. Arrington. I am going to give you the benefit of the 
doubt that you have a different philosophical view of what VA's 
core mission is and what they should be doing with respect to 
software solutions and it is different than the old paradigm, I 
am hoping and that is what I am hearing.
    Mr. Thrower. It is pretty dramatically different.
    Mr. Arrington. So I am going to just, you know, all I can 
do is trust and then verify it through the process. Is there 
any senior person in the software development side, CIO's 
office, who was there through the entire project or at least 
half of the project after those two gentlemen or the people 
that you mentioned who retired and resigned?
    Mr. Thrower. I actually don't believe that there has been 
anybody. The turnover in OI&T has been very large over the last 
several years and so there really has not been any one in a 
senior role that has been in the same job.
    Mr. Arrington. Mr. Kammerer, do you have to get permission 
to go out on your own to get software? Like it must be 
frustrating to you. Like could you just go out and get 
software? Because you are the leader, you know that we need IT 
solutions, because you are stuck in 1997 with a No. 2 pencil 
and a big chief tablet for your case workers, and can you just 
go out and get an IT solution yourself or do you have to go up 
the IT chain of command?
    Mr. Kammerer. There are legal and other challenges to just 
being able to purchase software. So the short answer is, I 
can't just get my own system for the counselors. It is 
unacceptable, as I stated, what happened. We need the system. 
We are working with our IT partners to address what you talked 
about, the managed services or managed software as a service.
    Mr. Arrington. But could you go out and purchase it 
yourself?
    Mr. Kammerer. There is some conversation within our 
organization about what is feasible in terms of our legal and 
appropriations ability to acquire those things. I will leave it 
to the expert, sir, to my right to give you more context, but--
    Mr. Arrington. Could he just go out and purchase a system 
that would help manage the case work?
    Mr. Thrower. So one piece of context is that, you know, 
there is a separate IT appropriation within VA, and so things 
that are clearly defined as IT do go through, all approvals go 
through the CIO. There are good reasons for that, not the least 
of which is that any solution that is purchased and/or 
implemented, we want to ensure that from a data-integrity 
standpoint and a data-interoperability standpoint that these 
systems work together and that we can aggregate information to 
have a holistic view of veterans. However, within that 
environment, particularly with our philosophy as it has been 
evolving to buy versus build, we encourage looking at outside 
solutions and using that. As long as we can assert that and 
assure that these solutions can be integrated within the 
environment, that we have the right integration between, you 
know, the folks on our side to make sure that it ties back in--
    Mr. Arrington. So I think you probably have the right 
answers to how it should be managed. My takeaway from my 
oversight hearings, this one, and every hearing I have had 
since the first hearing in this room as a new Member of 
Congress, is that the bureaucracy at the VA is absolutely, 
fundamentally broken, and nowhere is it more broken than on the 
IT management side. It is decentralized, centralized when it 
is--I would fire you guys as a client if I were Mr. Kammerer, I 
would be disappointed, because you are going to get beat up for 
not achieving your outcomes or you should be, if you are not, 
and then you have got to point over to the CIO and the 
ineptitude for these guys to manage a project.
    Mr. Kammerer, are you disappointed in your service from the 
IT side of VA where you are now still stuck in 1997? That is a 
yes or no.
    Mr. Kammerer. I am very disappointed we don't have a new 
system, Mr. Chairman.
    Mr. Arrington. How do you stay in this job just knowing 
that you aren't able to serve the veterans, the disabled 
veteran community that is your clientele? And you just get no 
help, it seems like. Do you need more resources? Yes or no.
    Mr. Kammerer. Certainly in the conversation we are having 
right now, Mr. Chairman, we need additional resources to 
complete this case management.
    Mr. Arrington. Do you need a better IT team?
    Mr. Kammerer. The gentleman to my right and I have had more 
time together in the last 6 months trying to solve this 
challenge and he hasn't been anything other than supportive, 
cooperative, and trying to get to, yes, so we can get some new 
software to our counselors, sir.
    Mr. Arrington. It has been a long day, we are going to 
close, and then I would like to follow up with you guys 
separately and I don't want to spend everybody else's time. I 
appreciate the other panelists and I am sorry to inconvenience 
you with the line of questions that has to do with you and your 
members of your organizations, but they are certainly 
discussions we could have outside of this Committee hearing.
    So I ask unanimous consent that statements for the record 
from The American Legion and the Veterans of Foreign Wars of 
the United States be submitted into the hearing record.
    Hearing no objection, so ordered.
    Mr. Arrington. Finally, I ask unanimous consent that all 
Members have 5 legislative days to revise and extend their 
remarks, and include any extraneous material in the record of 
today's hearing.
    Hearing no objection, so ordered.
    If there is nothing further, this hearing is adjourned.

    [Whereupon, at 4:02 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

                  Prepared Statement of Jack Kammerer
    Good Afternoon Chairman Arrington, Ranking Member O'Rourke, and 
Members of the Subcommittee. Thank you for inviting me to appear before 
you today to discuss the Department of Veterans Affairs (VA) Vocational 
Rehabilitation and Employment (VR&E) program. I am accompanied by Mr. 
Lloyd Thrower, Deputy Chief Information Officer, Account Manager for 
Benefits, Office of Information and Technology. VA continues our 
deliberate efforts to achieve our strategic goal of transforming the 
VR&E program, delineated in Fiscal Year (FY) 2014, and remains focused 
on understanding the needs of our current to future Veteran population 
and enhancing our service delivery to these Veterans. My testimony 
today will provide an overview of the VR&E program with a performance 
summary and a discussion of VR&E's performance metrics, programs, and 
initiatives.

VR&E Program Overview

    The Veterans Benefits Administration (VBA) VR&E Service assists 
Servicemembers and Veterans with service-connected disabilities and 
barriers to employment to prepare for, find, and maintain suitable 
employment. For Veterans with service-connected disabilities so severe 
that they cannot immediately consider employment, independent living 
(IL) services are offered to improve their ability to live as 
independently as possible. VR&E employs nearly 1,000 professional 
vocational rehabilitation counselors and delivers services through a 
network of nearly 350 office locations. VR&E's service delivery model 
supports Veterans where they are located, and currently includes 
operations at 56 Regional Offices (ROs), the National Capital Region 
Benefits Office, approximately 142 VR&E out-based offices, 71 military 
installations for the Integrated Disability Evaluation System (IDES), 
and 95 VetSuccess On Campus (VSOC) schools/sites.
    VA's VR&E team in Washington, D.C., and staff across the country 
are committed to and engaged in multiple transformational initiatives. 
VA's intent remains to increase program efficiencies through improved 
business processes, with continual refinement of our performance 
metrics and ongoing technology enhancements, all to provide the optimal 
support for over 132,000 Veterans participating in the VR&E program in 
FY 2017.
    VA remains focused on the goal of assisting Veterans with service-
connected disabilities in achieving employment and living 
independently. VR&E has seen an overall increase in applications as 
more adjudicated compensation claims result in more potentially 
eligible VR&E clients with service-connected disabilities and barriers 
to employment. VR&E Chapter 31 applicants grew 33 percent from FY 2013 
to FY 2017, with a corresponding increase of 17 percent in Chapter 31 
VR&E participants. VR&E processed 107,200 new Chapter 31 claims in FY 
2017, with an average of 54 days to process entitlement determination. 
While most Veterans are in the program, on average, five or more years, 
in FY 2017 VR&E counselors achieved over 15,000 positive outcomes 
including assisting more than 12,000 Veterans to achieve their 
rehabilitation goals and a 6.5 percent increase in employment 
rehabilitations from FY 2016.
    While the VR&E workload has grown, the counselor caseload has 
slowly declined as we achieve more positive outcomes, resolve older 
cases, and strive for active Veteran participation in the program. 
Currently, VR&E has a rolling average of 133 Veterans per counselor, 
down from 140 Veterans per counselor at the end of FY 2016. However, 
there are other VR&E staff members who work directly with the 
counselors assisting Veterans in reaching their rehabilitation goals. 
Recently, VBA executed an organizational review focused on VR&E's 
staffing levels nationwide. One of the primary directives was to 
standardize operations across all ROs in accordance with the population 
they serve. As part of this review, we looked at the combination of 
counselors and other staff members to ensure a balanced workload 
approach.
    VR&E is actively looking at multiple methods, including utilizing 
technology, to enhance the time counselors are able to engage Veterans. 
We are conducting an ongoing time study that consists of systematic 
observation, analysis, and measurement of the separate steps in the 
performance of a specific job. This is done for the purpose of 
establishing a standard time for each performance, with the ultimate 
goal of improving internal processes and procedures. This study will 
capture the work accomplished by VR&E staff and will define what VR&E-
specific work is being completed, how much time it takes to complete 
that work, and determine an average time for each job duty.

VR&E Program Data

    In FY 2017, VR&E counselors achieved 15,528 positive outcomes, up 8 
percent from FY 2016. These included successfully rehabilitating 12,128 
Veterans with service-connected disabilities, with 10,461 achieving 
rehabilitation into suitable employment, and an additional 778 Veterans 
completing their rehabilitation plan and electing to pursue further 
education rather than seek immediate employment. The remaining 889 were 
Veterans with disabilities so severe that they could not currently 
pursue employment, and achieved rehabilitation after they were able to 
gain greater independence through the delivery of IL services. VR&E 
counselors also achieved 3,400 Maximum Rehabilitation Gains.
    With our team of 79 assigned VSOC counselors, VR&E continues to 
leverage our partnership with 95 schools across the country to provide 
educational and vocational counseling and other on-site services to a 
current target population of approximately 78,000 Veteran students. In 
FY 2017, VR&E's VSOC counselors assisted over 43,000 Veteran students 
and eligible dependents, including over 14,000 new contacts. VR&E has 
eight new jointly signed VSOC/school Memorandums of Understanding and 
we are working to expand to these new sites within the next year.
    VR&E also closely collaborates with the Department of Defense (DoD) 
to provide VR&E services to Active Duty, Reserve, and National Guard 
Servicemembers through IDES. VR&E has nearly 145 IDES counselors 
located at 71 military installations, and provides early intervention 
counseling and other available services to IDES and other wounded, ill, 
and injured Servicemembers. In collaboration with the U.S. Army's 
Warrior Transition Command, staff members are jointly visiting select 
IDES sites to improve the referral process and services at military 
installations. VA appreciates the Committee's long-term support for 
wounded, ill and injured Servicemembers.
    The VR&E program continues to provide educational and career 
counseling under Chapter 36 to transitioning Servicemembers, Veterans, 
and beneficiaries who are eligible for VA educational benefits. VR&E 
continues to provide more comprehensive and updated information about 
Chapter 36 counseling and services that was also incorporated into the 
recent update to the Interagency-led (e.g. DoD, VA, DOL) Transition 
Assistance Program curriculum.

VR&E Longitudinal Study

    VR&E Service has continued tracking Veteran cohorts in the 
congressionally mandated 20-year Longitudinal Study. This study of 
Veterans who began their VR&E programs in FY 2010, 2012, and 2014, has 
provided a wealth of information including detailed analysis of cohort 
trends and Veteran satisfaction with VR&E services. From last year's 
iteration of the study, VR&E found that the majority of participants 
from all cohorts reported moderate-to-high program satisfaction (nearly 
90 percent); women make up a larger percentage of the program 
participants (17-20 percent) than in the overall Veteran population; 
and on average, cohort members have a service-connected disability 
rating of about 60 percent. The study at this juncture also reveals 
that almost one quarter of participants in each cohort have a primary 
rating of post-traumatic stress disorder; more than 80 percent of the 
Veterans who achieved rehabilitation from an employment plan were 
employed at the time of the survey; and more than 90 percent were 
employed within the past 12 months. The study further indicates that 
Veterans who successfully complete the VR&E program report more 
positive economic outcomes including higher employment rates, annual 
earnings, and home ownership compared to those Veterans who 
discontinued their participation in the VR&E program.

Information Technology and Business Process Improvements

    VR&E continues to work on leveraging technology to increase 
efficiencies and enhance our service delivery model in preparation for 
the development of a new VR&E Case Management System (VRE-CMS). In 
collaboration with the Veterans Health Administration (VHA), VR&E uses 
current technology to enhance Veteran services through an online 
medical referral tracking system and online counseling technology. In 
FY 2015, VR&E began employing VHA Telehealth technology that uses a 
secure video teleconference to enable VR&E counselors to remotely meet 
with and counsel Veterans receiving VR&E services. Initial feedback 
received from Veterans described the technology as challenging because 
the platform required the installation of specialized software, the use 
of a username and password, and did not operate on mobile devices. VR&E 
is working with VHA to use updated technology, the Pexip application, 
which will be easier for Veterans to participate in Tele-counseling 
appointments. VR&E will begin piloting this system in June 2018. The 
Pexip application is a mobile-friendly device that eliminates the need 
for Veterans to install specialized software, and provides a secure 
link between the counselor and Veteran. The ease of use and increased 
platform accessibility will improve VR&E's responsiveness to Veterans' 
needs and reduce travel costs and time for both Veterans and employees.
    VBA continues to work with the Office of Information and Technology 
(OI&T) and Multi-Channel Technology (MCT) to find a viable solution to 
transition VR&E to an electronic case management system. To ensure 
alignment with program objectives, VBA is conducting a complete 
evaluation of IT development to date. Currently VBA, OI&T, and MCT are 
actively conducting a needs assessment and exploring alternatives to 
determine the most effective and cost-efficient way to deliver a 
modern, case management system. The intent remains to integrate VR&E 
with other VA benefit information systems to enhance relationship 
management and support vocational rehabilitation success. The goals of 
the new VRE-CMS remain to deliver a paperless service delivery model, 
better support Veterans on their own terms, ensure consistent efficient 
service delivery and quality, and modernize the employee experience. 
Methods to develop and implement this effort will be evaluated once 
options are presented.

Competency Based Training System (CBTS) for VR&E Counselors

    VR&E piloted and is now planning a national deployment of the 
Competency Based Training System in FY 2019. This system will deliver 
empirically researched and industry benchmarked competency assessments 
to counselors online. This supports VBA's goal to improve the employee 
and Veteran experience by targeting training to the individual 
employee's needs and enabling employees to provide the highest level of 
counseling and employment services.

Remote entitlement

    In an effort to increase the use of Tele-Counseling, the VR&E 
Service undertook a new pilot in April 2017 with the St. Petersburg, 
Florida RO to allow the use during the initial entitlement 
determination with the VR&E applicant. The initial results of the pilot 
indicate a great benefit to the applicant with a time savings, on 
average, of two hours because the applicant does not have to travel to 
meet face-to-face with the counselor. Based on the success of this 
pilot, remote entitlement was extended to an additional five ROs in 
April 2018, with a national rollout expected by the end of FY 2018.

Other VR&E Initiatives using Innovative Approaches

    VR&E is also continuing to leverage and expand the use of national 
VR&E contract services to reduce the overall burden on the counselor 
staff and enable positive outcomes. VR&E continues to seek other 
technology and process innovations to improve service delivery to 
Veterans. We recently provided all counselors access to the Joint 
Legacy Viewer that provides bi-directional access to Veteran and DoD 
medical records. In the coming weeks, VR&E will implement Dragon 
software to our counselors. Dragon is a dictation software that will 
help to increase the efficiency of counselors as they perform daily and 
routine tasks.
    In an effort to reduce the overall no-show rate for appointments, 
VR&E is also leveraging technology to implement a process where 
Veterans are reminded of upcoming appointments through a text message 
on their mobile device. VR&E Service continues to work to transform the 
Quality Assurance (QA) program. In an effort to better track trends in 
performance and identify specific training needs, we revised this QA 
review instrument and worked with a statistician to ensure a valid and 
reliable sampling of cases are reviewed.

Concluding Remarks

    The VR&E Service, our leaders, and our teammates in the field will 
continue to further accelerate our VR&E Transformation. VR&E will 
continue to assess and improve the delivery of vocational 
rehabilitation services to a most deserving population: Veterans who 
have incurred a service-connected disability. Through the development 
of a new VR&E Case Management System, program performance measures that 
focus on Veteran outcomes, clear accounting of both Veteran progress 
and employment outcomes, and technology initiatives such as enhanced 
VR&E Tele-counseling, we continue to strive towards both substantially 
improving and materially enhancing the VR&E program. We also continue 
to develop and field comprehensive training, conduct significant 
oversight, and focus on efforts to enhance both service delivery and 
the actual services we provide Veterans in the VR&E program.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions from you or other members of the Subcommittee.

                                 <F-dash>
            Prepared Statement of Heather Ansley, Esq., MSW
    Chairman Arrington, Ranking Member O'Rourke, and members of the 
Subcommittee, Paralyzed Veterans of America (PVA), thanks you for the 
opportunity to testify for this oversight hearing regarding the 
Department of Veterans Affairs' (VA) Vocational Rehabilitation and 
Employment (VR&E) program. This program provides critical assistance to 
veterans who have catastrophic disabilities due to their service to our 
nation.
    Until the passage of the Americans with Disabilities Act (ADA) in 
1990, there were no widespread protections in Federal law prohibiting 
disability-based discrimination in employment. PVA was a leader in 
advocating for the passage of this seminal civil rights law that 
provides equality of opportunity and access for people with 
disabilities, including veterans with disabilities. Despite increasing 
numbers of people with disabilities finding and retaining employment, 
however, too many have barriers to entering or remaining in the labor 
market. For example, approximately 42 percent of Gulf War era veterans 
with service-connected disability ratings of 60 percent or higher are 
not in the workforce. \1\
---------------------------------------------------------------------------
    \1\ News Release, U.S. Bureau of Labor Statistics, Employment 
Situation of Veterans - 2017
---------------------------------------------------------------------------
    VR&E helps veterans as they work to rebuild their lives in the face 
of disabilities that are a result of their military service. The 
services available to veterans with catastrophic disabilities are 
critical to allowing them to benefit from the opportunities fostered by 
the ADA. VA's program, which is authorized by Chapter 31 of Title 38 of 
the United States Code, allows VA to provide comprehensive services to 
veterans with service-connected disabilities who have employment 
barriers that make it difficult for them to obtain and maintain 
competitive employment, while achieving maximum independence in daily 
living. For those who may be unable to seek employment following a 
disability or illness, VR&E is also authorized to provide independent 
living services.
    In fiscal year 2016, 137,097 veterans participated in VA's VR&E 
program, while another 36,502 received evaluation and counseling 
services. \2\ Of the veterans participating in VR&E services, 103,944, 
or more than 75 percent of all participants, had a serious employment 
barrier. \3\ Veterans with serious employment barriers have an 
impairment that significantly impacts their ability to prepare for, 
seek, and retain employment and may require additional services such as 
adaptive equipment. \4\
---------------------------------------------------------------------------
    \2\ Department of Veterans Affairs, Veterans Benefits 
Administration Annual Benefits Report for Fiscal Year 2016, https://
www.benefits.va.gov/REPORTS/abr/ABR-Vocational-Rehabilitation-
Employment-FY16-06092017.pdf.
    \3\ Id.
    \4\ Id.
---------------------------------------------------------------------------
    Veterans who have acquired disabilities due to their military 
service that then create barriers to employment have earned every 
opportunity available to allow them to find success in employment. For 
some veterans, this may mean building a small business, while for those 
with the most significant disabilities it may mean working part-time 
from home for an employer. Whatever the future holds for these 
veterans, a strong VR&E program is critical to the long-term success of 
our nation's efforts to help veterans with service-connected 
disabilities transition into employment following their service.

Improve Access to Services Through New Resources and Program 
    Efficiencies

    It takes time for a vocational counselor to properly evaluate 
veterans who have significant yet manageable physical and mental health 
disabilities for services and perform the necessary associated tasks. 
Even an experienced counselor needs sufficient time to carefully 
evaluate and collect information, and ultimately, guide their clients. 
The counselor's job is to keep up with planning and all the necessary 
behind-the-scenes paperwork, with an eye on moving the case forward.
    While managing a caseload, the vocational counselor also needs to 
remain up to date on training programs, and the ``world of work.'' At 
the very least, the counselor has to be familiar with training 
programs, universities, jobs in the community, resources, and more. All 
of this is an important function of the job that takes time.
    In light of all of these duties, it is important that a counselor 
maintains a balanced caseload. A ratio of counselors to clients of 
1:125 is recognized as a full workload in the field of vocational 
rehabilitation counseling. Although an experienced counselor can handle 
125 clients, the needs of those clients must be considered.
    Veterans come into the vocational rehabilitation system with some 
or many barriers to employment due to their one or more mental health 
or physical disabilities (and often veterans have both kinds of 
disabilities). They may have many health and physical limitations to 
work around, and all this is important to know and consider when 
developing services aimed at a suitable end goal. If the proportion of 
veteran clients who have significant barriers to employment is too 
great, then it may be tough for one counselor to properly manage 125 
cases at a time.
    Ensuring a proper counselor-to-veteran ratio in VR&E's program has 
been a perennial issue because of the impact staffing deficiencies have 
on the successful administration of the program, and ultimately, how 
successfully the program services its veteran clients. In January 2014, 
the Government Accountability Office issued a report calling on VA's 
VR&E program to implement performance and workload management 
improvements. At that time, caseloads for VR&E counselors ranged up to 
1:139. \5\ According to VA, the average counselor-to-veteran caseload 
ratio is now approximately 1:133.
---------------------------------------------------------------------------
    \5\ Government Accountability Office, ``VA Vocational 
Rehabilitation and Employment: Future Performance and Workload 
Management Improvements Are Needed,'' GAO-14-61, January 2014.
---------------------------------------------------------------------------
    The Independent Budget (IB), co-authored by the Disabled American 
Veterans, PVA, and the Veterans of Foreign Wars, has highlighted on a 
continuing basis the need for additional VR&E personnel to improve the 
program's effectiveness. In the most recent IB budget recommendations 
for Fiscal Years (FY) 2019 and 2020, the IBVSOs recommended an $18 
million increase for VR&E over the estimated FY 2018 appropriations. 
\6\ This appropriation would allow VA to hire an additional 143 full-
time equivalent employees. \7\ Of these employees, at least 75 percent 
should be VR&E counselors as opposed to administrative or other 
personnel.
---------------------------------------------------------------------------
    \6\ The Independent Budget, Budget Recommendations for Fiscal Years 
2019 and 2020 (2018), http://www.independentbudget.org/2019/z--edits--
022218/IB--FY19-20--D9s.pdf.
    \7\ Id.
---------------------------------------------------------------------------
    The IB continues to recommend increased VR&E staffing due to the 
imbalance between the increasing number of veterans in the program and 
the number of employees available to serve them. In the last four 
years, participation in the program has increased approximately 16.8 
percent. \8\ Personnel, however, have only increased by 1.8 percent. 
\9\ With program participation estimated to increase by an additional 
three percent in the next fiscal year, \10\ personnel will continue to 
feel constrained to provide the services veterans, particularly those 
with significant barriers to employment, need to be successful.
---------------------------------------------------------------------------
    \8\ Id.
    \9\ Id.
    \10\ Id.
---------------------------------------------------------------------------
    Providing VR&E with additional resources to decrease the counselor-
to-veteran ratio is a step in the right direction. VR&E must also, 
however, reduce bureaucratic hurdles that delay veterans in moving 
through the vocational rehabilitation process. For example, PVA, along 
with our IB co-authors, support the commissioning of a study to assess 
whether or not VR&E's eligibility process could be streamlined by 
allowing access to any veteran with a service-connected disability. If 
veterans encounter hurdles to participation, then they may lose hope, 
interest, and ultimately, opportunities.
    In addition to removing unnecessary processes, VR&E must deploy 
technology, where appropriate, to facilitate interaction with veteran 
clients and reduce administrative burdens on counselors. VR&E's piloted 
efforts to use technology to facilitate the entitlement process by 
using tele-counseling is a step in the right direction. Further 
implementation of electronic processes to facilitate participation by 
veterans and reduce administrative burdens on VR&E personnel have the 
potential to boost the program's success, while allowing VA to more 
efficiently use available resources.
    The services available to veterans with service-connected 
disabilities through VA's VR&E program are vital to their ability to 
successfully return to work after acquiring what is in some cases a 
catastrophic disability. Additional investment in this program, along 
with a reduction of administrative delays is key to ensuring that 
counselors are able to access the tools needed to help these veterans 
obtain and retain competitive employment in their communities. PVA also 
supports the creation of an administration within VA focused on 
veterans' economic opportunity and transition. We believe that the 
creation of this fourth administration within VA would elevate programs 
like VR&E and result in increased attention from VA leaders and 
stakeholders.

Continue Collaboration with Public and Private Partners

    Continued resource constraints within the VR&E program complicate 
the ability of VR&E counselors to provide intensive services for 
veterans with multiple barriers to employment. Under current resource 
limitations, one way to maximize VR&E services is to increase 
partnerships with community organizations that provide specialty 
placement services and other Federal programs that provide employment 
services for veterans with disabilities. For veterans who have complex 
needs as a result of their disabilities and other circumstances, these 
partnerships may provide the lifeline that results in long-term 
employment success.
    As a result of the barriers to employment faced by our members, PVA 
launched its own vocational rehabilitation and employment program in 
2007, Paving Access for Veterans Employment (PAVE). With offices now 
co-located in VA medical centers in Tampa, Richmond, San Antonio, 
Chicago, Minneapolis, Long Beach, and a new dedicated office in New 
York City, PAVE serves all veterans nationwide using a hybrid, 
integrated approach to assist veterans and transitioning service 
members who face significant barriers to employment, as well as their 
spouses and caregivers.
    PAVE provides clients with one-on-one career counseling and 
assistance. The program's services are available to any veterans with 
disabilities, including those whose disabilities are not related to 
their military service. PAVE counselors offer proactive, rapid 
engagement to ensure newly injured or ill veterans quickly learn about 
the services and supports available to help them return to work. 
Importantly, the program is a partner for life to ensure clients' 
continuing success. All services are provided at no charge.
    Although PAVE counselors are serving some of the most difficult to 
place clients, including those living with paralysis or serious 
illness, they have a high rate of success in helping veterans return to 
work. In 2016, the PAVE program had an average active caseload of 600 
clients and averaged 350 placements. Most importantly, the average 
retention rate for employed clients was 83 percent.
    Continuing to foster new partnerships to ensure that veterans with 
disabilities, particularly those who have catastrophic disabilities, 
are able to be successful in returning to work is needed to stretch 
VR&E's existing resources. For example, PAVE counselors have noted that 
they are able to more quickly begin providing vocational assistance 
because there are fewer procedural hurdles to clear for eligibility. 
Another important aspect of these partnerships is the ability of 
private partners, such as PVA's PAVE program, to serve veterans who are 
ineligible for VR&E services, along with the caregivers and family 
members of all veterans who may need these services. Thus, these 
partnerships allow more veterans to receive high quality assistance.
    VA's VR&E program must also continue to foster relationships with 
other government programs that have responsibilities to help veterans 
with disabilities obtain and retain employment. For example, the 
Department of Labor's Veterans' Employment and Training Service (VETS) 
administers programs that play a key role in assisting veterans with 
disabilities in obtaining employment. We are pleased that VR&E now 
reports that 100 percent of VR&E clients are referred to the state 
workforce system and the assistance available through federally-funded 
Disabled Veterans' Outreach Program (DVOP) specialists. We urge 
continued and increased collaboration and an evaluation of the success 
of these referrals for VR&E clients.
    With the reality of continuing budgetary constraints, it is unclear 
when, if ever, VR&E may have the counselors and other resources 
necessary to adequately assist the increasing number of veterans who 
are seeking VR&E services each year. Collaborating with public and 
private partners is an important way to ensure that veterans with 
disabilities will be able to receive the services and supports needed 
to allow them to build successful employment outcomes. VR&E must 
continue to do community outreach to find experienced, credible 
partners to meet gaps that will result in more veterans with 
disabilities being placed in competitive, integrated employment sooner.

Ensure Access to Services

    A veteran's eligibility period for receiving services from VR&E is 
for a 12-year period beginning on either: (1) the date of separation 
from military service, or (2) the date the veteran receives a VA 
disability rating. In order to receive services, a veteran must need 
vocational rehabilitation to overcome employment barriers due to a 
service-connected disability. A veteran's entitlement to participate in 
VR&E services is 48 months.
    PVA, along with our IB co-authors, has long supported the 
elimination of the 12-year limit on eligibility for services available 
through the VR&E program. For veterans who have incurred a catastrophic 
disability, the 12-year delimiting date may not be sufficient to allow 
them to meet their vocational rehabilitation goals. Furthermore, many 
of these veterans have disabilities that may continue to evolve and 
worsen over time, which may cause them to need additional assistance. 
Veterans with service-connected disabilities must have access to the 
vocational rehabilitation services that allow them to continue to work 
throughout their lives.
    Although a VR&E counselor may waive the 12-year limit for veterans 
with serious employment barriers, veterans living with the wounds, 
injuries, and illnesses associated with military service should have 
certainty that if they need assistance in staying in or returning to 
the workforce in the future that this program will be there to assist 
them. Unnecessarily limiting eligibility harms veterans, particularly 
those with catastrophic disabilities, by failing to foster the 
conditions that allow them be a part of their communities and 
contributing members to our nation's economy. Ensuring access to the 
supports and services that help veterans with disabilities fulfill 
their potential is integral to maximizing a veteran's potential.

Increase Follow Up Time

    VR&E counselors typically follow veterans for 60 days once they are 
placed in a job. After that time, VA will close the veteran's case and 
the placement will be deemed a success. We are concerned, however, that 
60 days is not enough time to determine whether or not a veteran who 
has a catastrophic disability has successfully adjusted to working as a 
person with a disability.
    Most people find it at least somewhat challenging to settle into a 
new job. For someone who has acquired a disability, there are 
additional challenges that must be met including those related to 
needed accommodations, evolving medical needs and appointments, and 
other disability-related matters that can unfold over a period of time. 
Furthermore, employee probationary periods may be longer than 60 days.
    PVA, along with the co-authors of the IB, believe that, at the very 
least, VR&E should study whether or not the current tracking standard 
of 60 days is sufficient follow up time. For employees with 
probationary periods over 60 days, longer follow up time may allow for 
problems that could lead to dismissal to be addressed, resulting in the 
veteran remaining employed. Regardless of the length of a probationary 
period, if any, it makes sense to increase the follow up time to ensure 
that the veteran has the supports, if needed, to ensure a successful 
transition to the workforce. That's why PVA's PAVE counselors conduct 
ongoing follow up for veterans placed through their program.
    Long-term support may be needed to help a veteran with a 
catastrophic disability to not only successfully transition back to the 
workforce but also to remain in the workforce. If a veteran is not 
successful in the workplace, then he or she may suffer setbacks to 
include a belief that work is not possible, even when the problem was 
lack of support. Not all jobs turn out to be the right fit, but no 
veteran should feel that their only option is to leave the workforce 
when the proper supports and assistance would allow him or her to be 
successful. America cannot afford to waste the talent of these veterans 
who have much to offer to our society.

Enhance Independent Living

    Despite best efforts, veterans who have significant disabilities 
may be unable to enter the labor market. In 1980, Congress passed a 
pilot program designed to assist these veterans by providing them with 
needed services and resources to increase their independence and 
ability to participate in their families and communities. Through the 
Independent Living program, VA is able to guide these veterans in 
development of goals and provide the information, referrals, and 
continuing case management needed for success in achieving them. A 
number of creative alternatives to employment preparation can be 
recommended, purchased, or approved by a veteran's counselor to enhance 
a veteran's quality of life.
    VA's Independent Living program was initially limited to 500 
veterans. Over time, the program proved to be a critical option for 
improving the rehabilitation experiences of catastrophically disabled 
veterans. As a result, Congress increased the number of veterans who 
could be served through this program. Today, however, the program 
remains capped and VA may initiate no more than 2,700 cases per year.
    The Independent Living Program must be able to accept any veteran 
who could benefit without VA being forced to monitor enrollees to 
ensure that the cap on new cases is not exceeded. In addition, VR&E 
counselors must be well-versed in the Independent Living program to 
ensure that those who are eligible and who would benefit most from 
participation are given the opportunity to do so. Once a veteran is in 
the program, counselors must also closely track referrals for VA 
service and benefits to ensure that those referrals are addressed. 
Otherwise, the program will fail the veterans it serves, and their 
independence will be compromised.
    In sum, without the proper services and supports, veterans with 
catastrophic disabilities are in danger of following out of the 
workforce. Such a loss means decreased financial security and social 
opportunities. VA's VR&E program provides critical access to needed 
services and supports for veterans with service-connected disabilities. 
An investment in VR&E is an investment in helping veterans with 
disabilities return to work and ensuring their long-term rehabilitation 
and success.
    PVA thanks you for this opportunity to express our views. We would 
be happy to answer any questions that you may have.

                                 <F-dash>
            Prepared Statement of Cassandra Vangellow, Esq.
    Chairman Arrington, Ranking Member O'Rourke, and Members of the 
Committee:

    Thank you for inviting Student Veterans of America (SVA) to submit 
our testimony on the Department of Veterans Affairs' (VA) Vocational 
Rehabilitation and Employment Program (VR&E). With more than 1,500 
chapters representing more than 1.1 million student veterans in schools 
across the country, we are pleased to share the perspective of those 
directly impacted by the subjects before this committee.
    Established in 2008, SVA has grown to become a force and voice for 
the interests of veterans in higher education. With a myriad of 
programs supporting their success, rigorous research on ways to improve 
the landscape, and advocacy throughout the nation, we place the student 
veteran at the top of our organizational pyramid.

Introduction/History

    The intent of VR&E is to provide services to eligible 
servicemembers and veterans with service-connected disabilities to help 
them prepare for, obtain, and maintain suitable employment, or to 
achieve independence in daily living. \1\ The end goal of VR&E is 
employment. Veterans work with a Vocational Rehabilitation Counselor to 
select one of five employment tracks: (1) Reemployment with a Previous 
Employer, (2) Rapid Access to Employment, (3) Self Employment, (4) 
Employment Through Long-Term Services, and (5) Independent Living 
Services. \2\
---------------------------------------------------------------------------
    \1\ U.S. Department of Veterans Affairs, Vocational Rehabilitation 
and Employment (VR&E), https://www.benefits.va.gov/vocrehab/
employment--tracks.asp (last visited Apr. 30, 2018).
    \2\ Id.
---------------------------------------------------------------------------
    VR&E has been an important component of veterans' reintegration 
since Congress instituted a veterans benefits system upon U.S. entry 
into World War I in 1917. \3\ In 1953, the Department of Veterans 
Benefits became part of the Veteran's Administration. \4\ The Veterans' 
Benefits Act of 1962 authorized peacetime VR&E. The Vietnam Era 
Veterans' Readjustment Assistance Act of 1974, which amended the 1962 
law, provided similar benefits to those offered during other wars.
---------------------------------------------------------------------------
    \3\ Disabled American Veterans, Paralyzed Veterans of America, and 
the Veterans of Foreign Wars, The Independent Budget - Veterans Agenda 
for the 115th Congress (Policy Recommendations for Congress and the 
Administration), 120, http://www.independentbudget.org/2018/FY18--
IB.pdf (last visited Apr. 30, 2018).
    \4\ Email correspondence with Scott Lajiness, VBA-VSO Liaison, May 
10, 2018. We thank Scott and his team for assisting us with our VR&E 
history inquiries. This correspondence provided the legislative history 
and background for this section.
---------------------------------------------------------------------------
    As part of the GI Bill Improvement Act of 1977, Congress required 
VA to perform a study of its vocational rehabilitation program. In 
response, Congress passed the Veterans' Rehabilitation and Education 
Amendments of 1980. The program's purpose changed; focus turned to 
enabling veterans with service-connected disabilities to achieve 
maximum independence in daily living and to the maximum extent 
possible, to become employable and able to maintain suitable 
employment.
    In 1986, the Vocational Rehabilitation and Counseling Service and 
Education Service were combined into Vocational Rehabilitation and 
Education Service. More changes followed the VA becoming a cabinet 
agency in March 1989. In 1990, the Vocational Rehabilitation and 
Education Service became the Vocational Rehabilitation Service. A 
separate Education Service was created at this time. In 1999, the name 
of the Central Office command and field structure became Vocational 
Rehabilitation and Employment Service.
    The Deputy Under Secretary for Field Operations, the Deputy Under 
Secretary for Economic Opportunity, and the VR&E Director work together 
to provide VR&E services. The VR&E Service Director, who reports to the 
Deputy Under Secretary for Economic Opportunity, determines VR&E policy 
and priorities. The Deputy Under Secretary for Field Operations through 
five District Offices oversees and manages VR&E personnel in the 56 
regional benefits offices. Importantly, the Office of Field Operations 
allocates employees to the Regional Offices.
    In 2003, the Government Accountability Office (GAO) identified 
Federal disability programs, including VR&E, as high risk due to 
program management difficulties. \5\ In March 2004, the Congressional 
Commission on Service Members and Veterans Transition Assistance's VR&E 
Task Force issued a report with 110 recommendations for program 
improvement. \6\ Important Task Force takeaways included (1) VR&E not 
being a Veterans Benefits Administration (VBA) priority in assisting 
impacted veterans return to the workforce, (2) VR&E having a limited 
capacity to manage its growing workload, and (3) VR&E needing a 
redesign for the 21st century employment environment. \7\
---------------------------------------------------------------------------
    \5\ U.S. Government Accountability Office, High-Risk Series: An 
Update, January 2003, https://www.gao.gov/assets/240/237065.pdf 
(reporting, ``The second new high-risk area involves Federal disability 
programs, primarily those at the Social Security Administration and the 
Department of Veterans Affairs. Already growing, disability programs 
are poised to surge as baby-boomers age, yet the programs remain mired 
in outdated economic, workforce, and medical concepts and are not well-
positioned to provide meaningful and timely support to disabled 
Americans.'').
    \6\ Disabled American Veterans, Paralyzed Veterans of America, and 
the Veterans of Foreign Wars, The Independent Budget - Veterans Agenda 
for the 115th Congress (Policy Recommendations for Congress and the 
Administration), 120, http://www.independentbudget.org/2018/FY18--
IB.pdf (last visited Apr. 30, 2018).
    \7\ U.S. Government Accountability Office, VA Vocational 
Rehabilitation and Employment Program - GAO Comments on Key Task Force 
Findings and Recommendations, June 2004, https://www.gao.gov/assets/
250/242861.pdf.
---------------------------------------------------------------------------
    Although VA implemented nearly all of the Task Force's 
recommendations, program concerns continue. The Veterans' Benefits 
Improvement Act, which passed in 2008, included a provision requiring a 
20-year longitudinal study focusing on outcomes for participants 
beginning rehabilitation plans in fiscal years 2010, 2012, and 2014. 
\8\ We appreciate VA's dedication to improving and enhancing VR&E and 
other benefits through study and evaluation. \9\
---------------------------------------------------------------------------
    \8\ 38 U.S.C. Sec.  3122 - Longitudinal study of vocational 
rehabilitation programs.
    \9\ U.S. Department of Veterans Affairs, VR&E Longitudinal Study, 
https://www.benefits.va.gov/VOCREHAB/VRELongitudinalStudy.asp (last 
visited May 13, 2018).
---------------------------------------------------------------------------
    VR&E is an important program that continues to serve our nation's 
veterans. We appreciate the Office of VR&E meeting with us to discuss 
the program, and we look forward to ongoing collaboration to ensure the 
program best serves our veterans as they transition following their 
service. SVA appreciates the opportunity to share feedback on two VR&E-
specific bills.

Key Successes

    Before discussing our concerns and sharing our insights for program 
improvement, we want to highlight several positive reforms occurring at 
VR&E. VR&E's new case management system is replacing its Corporate 
WINRS system that has been in place for two decades. \10\ By utilizing 
a Microsoft management platform, veterans will be able to receive more 
efficient and effective services. After hearing from our constituents 
about issues coordinating and traveling to and from appointments, we 
are also encouraged by VR&E's increasing use of tele-counseling based 
on a successful St. Petersburg Regional Office pilot. \11\
---------------------------------------------------------------------------
    \10\ U.S. Department of Veterans Affairs, Volume III - Benefits and 
Burial Programs and Departmental Administration, Congressional 
Submission, FY 2019, VBA-246, https://www.va.gov/budget/docs/summary/
fy2019VAbudgetvolumeIIIbenefitsBurialProgramsAndDeptmentalAdministration
.pdf [hereinafter FY 2019 Congressional Submission].
    \11\ FY 2019 Congressional Submission, at VBA-247.
---------------------------------------------------------------------------
    As an organization that works on behalf of service-affiliated 
students getting ``to, through, and beyond higher education,'' we also 
applaud VR&E for the expansion of the VetSuccess on Campus Program from 
94 to 105 campuses. \12\ We look forward to the continued growth of 
this program.
---------------------------------------------------------------------------
    \12\ FY 2019 Congressional Submission, at VBA-249.

---------------------------------------------------------------------------
Current Challenges

    In recent years, we have collected stakeholder feedback on this 
program. Specifically, we performed a deep-dive analysis of VR&E over 
the past five months, including targeted feedback from stakeholders. 
Individual situations varied, but we classified hurdles into five main 
categories: (1) counselor concerns, (2) program administration, (3) 
process subjectivity, (4) career concerns, and (5) benefits 
misconceptions. The next several sections include a mix of individual 
anecdotes and systemic barriers permeating the program.

Counselor Issues

    Counselor quality is consistently cited as the top challenge our 
students face. Large caseloads contribute to the lacking quality and 
veteran dissatisfaction. Public Law 114-223 specifies a ratio of one 
counselor for every 125 veterans in the program. \13\ VA acknowledges 
that this counselor ratio is not being met, noting how the average 
counselor caseload ratio was 136.4 in 2017. \14\ This average also 
reflects that some counselors may be serving less than 125 veterans 
while other counselors are serving much more. In March 2013, seven 
offices averaged fewer than 100 cases per staffer, yet eight offices 
averaged more than 175 cases per staffer. \15\ Although the 2017 case 
per counselor ratio is lower than it was in 2015 (138.3) and 2016 
(140.0), VA must enforce the ratio requirement specified in the 2016 
law.
---------------------------------------------------------------------------
    \13\ Continuing Appropriations and Military Construction, Veterans 
Affairs, and Related Agencies Appropriations Act, 2017, and Zika 
Response and Preparedness Act, Public Law 114-223, Sept. 29, 2016, 
https://www.congress.gov/114/plaws/publ223/PLAW-114publ223.pdf.
    \14\ FY 2019 Congressional Submission, at VBA-244.
    \15\ U.S. Government Accountability Office, VA Vocational 
Rehabilitation and Employment Program - Further Program Management 
Improvements Are Needed, 9, Feb.27, 2014, https://www.gao.gov/assets/
670/661184.pdf.

    <bullet>  Katherine S., Fort Worth, TX, University of Texas - 
Arlington: ``As it stands, the future of a veteran depends on the 
opinion of a counselor. The trouble with opinions are, not only are 
they subjective for the counselor and relative to each veteran, but, in 
my experience, neither the veteran or a substantiated medical opinion 
seems to be able to influence the counselor's belief. No one person 
should have that much sovereignty over another, especially when it is 
based on the whim of a personal opinion.''
    <bullet>  Wayne M., Los Angeles, CA, California State - Los 
Angeles: Underscoring the need for more counselors, he says, ``they 
want to help more, but all of them in California are overloaded.''

    Students also experience counselor continuity hurdles. The GAO 
determined that VR&E participants who work with more VR&E personnel 
over time are less likely to achieve suitable employment, revealing 
``veterans who worked with four staff were 27 percentage points less 
likely to achieve success within 8 years of program entry, compared to 
those who worked with only one staff member.'' \16\ Addressing this 
counselor staffing disparity would presumably also help lower the 
number of program re-entries, which included 37 percent across three 
studied cohorts in FY 2016. \17\
---------------------------------------------------------------------------
    \16\ U.S. Government Accountability Office, VA Vocational 
Rehabilitation and Employment Program - Further Program Management 
Improvements Are Needed, 5, Feb.27, 2014, https://www.gao.gov/assets/
670/661184.pdf.
    \17\ EconSys, Vocational Rehabilitation and Employment (VR&E) 
Longitudinal Study (PL 110-389 Sec. 334), E-10, July 31, 2017, https://
www.benefits.va.gov/VOCREHAB/docs/2016LongStdy.pdf. [hereinafter 2017 
Longitudinal Study].
---------------------------------------------------------------------------
    We are concerned by VA's 2019 VR&E budgetary request for $257.6 
million as this request is $59.3 million lower than the 2018 level. 
\18\ VA states that the sizable decrease in the VR&E funding request is 
a result of the favorable pricing of the new Transition Assistance 
Program contract. \19\ While we recognize the potential cost savings 
associated with a new program, we do not accept the rationale for not 
requesting additional Full-Time Employees to help with the program. 
\20\ The current estimate for 2018 is 1,589 Total FTE, and the request 
for 2019 is also 1,589. \21\ In light of continued feedback about not 
enough counselors, we question why more funding and resources are not 
being maximized to address this staffing gap.
---------------------------------------------------------------------------
    \18\ 2019 Congressional Submission, at VBA-239.
    \19\ FY 2019 Congressional Submission, at VBA-240.
    \20\ FY 2019 Congressional Submission, at VBA-240.
    \21\ FY 2019 Congressional Submission, at VBA-240.
---------------------------------------------------------------------------
    Counselor training is another area of serious concern. We support 
VA's requirements for counselors and counseling psychologists to hold a 
master's degree or higher in Rehabilitation Counseling or a related 
field with a minimum of 30 hours of specific coursework. \22\ We also 
appreciate the growing emphasis on professional credentialing, 
including Certified Rehabilitation Counselor, Certified Veterans 
Rehabilitation Counselor, Licensed Professional Counselor, and National 
Certified Counselor. \23\
---------------------------------------------------------------------------
    \22\ FY 2019 Congressional Submission, at VBA-241.
    \23\ FY 2019 Congressional Submission, at VBA-241.
---------------------------------------------------------------------------
    In addition, counselors would benefit from track-specific training. 
Receiving training about entrepreneurship and changing academic 
requirements and demands would contribute to program satisfaction and 
successful rehabilitations. GAO previously reported ongoing training 
deficiencies, \24\ including knowledge gaps regarding job placement and 
workplace accommodations. We were extremely discouraged by a senior 
VR&E Official's response to our inquiry about track-specific training. 
One VA program official stated, ``The counselors know the tracks 
extremely well without having a VA specific training on each one of 
them.'' \25\
---------------------------------------------------------------------------
    \24\ U.S. Government Accountability Office, VA Vocational 
Rehabilitation and Employment Program - Further Program Management 
Improvements Are Needed, 10, Feb.27, 2014, https://www.gao.gov/assets/
670/661184.pdf.
    \25\ Email correspondence with Senior VA Official, Apr. 16, 2018.
---------------------------------------------------------------------------
    Such response directly contradicts what individual veterans are 
experiencing in many cases. One student emphasizes how counselors need 
to be trained about the self-employment track, ``It seems like one of 
the biggest obstacles is that my counselor doesn't know how to go 
forward with the self-employment track mostly because she has never 
done it before.'' Another student says VR&E must ``hold VR&E counselors 
accountable for working outside their scope of practice.''

Program Administration

    Program control and ownership is a major barrier. Although VR&E is 
supposed to be a collaborative effort between VR&E and the Office of 
Field Operations, divided responsibility and authority is ineffective. 
The Office of Field Operations maintains oversight responsibility and 
management for the field operation. \26\ While VR&E can implement 
policy and procedures, VR&E does not have control over regional office 
structure and individual counselors.
---------------------------------------------------------------------------
    \26\ Email correspondence with Scott Lajiness, VBA-VSO Liaison, May 
10, 2018. Mr.Lajiness noted how this organizational structure is noted 
in Office of Field Operations Letter 20-02-41, VBA Reorganization.
---------------------------------------------------------------------------
    The M28R, VR&E Employment Manual, \27\ as well as VR&E Job Support 
Tools, \28\ are available resources to help educate and inform 
counselors and other personnel about their roles and responsibilities. 
Such resources provide important information regarding application 
processing, evaluation and entitlement, as well as plan development. 
However, policies and manuals are only successful when combined with 
management, oversight, and enforcement mechanisms.
---------------------------------------------------------------------------
    \27\ U.S. Department of Veterans Affairs, M28R, Vocational 
Rehabilitation and Employment Service Manual, https://
www.benefits.va.gov/WARMS/M28R.asp (last visited May 13, 2018).
    \28\ U.S. Department of Veterans Affairs, Vocational Rehabilitation 
& Employment Job Support Tools, https://www.vba.va.gov/bln/vre/epss/
VRE--JST/index.html (last visited May 13, 2018).
---------------------------------------------------------------------------
    VA agreed with the GAO recommendation that the VR&E Office must 
work with the Office of Field Operations to collect information about 
the varying approaches and report on which approaches are most 
successful in terms of suitable employment and veteran satisfaction. 
\29\ Before this Subcommittee on February 27, 2014, VR&E Director Jack 
Kammerer stated, ``VR&E Service is designing the staffing model to 
account for regional factors impacting performance, and together with 
the Office of Field Operations, we will revisit the metrics used in the 
resource allocation model to ensure continued validity and data 
integrity.'' \30\ We request an update on the metrics and resource 
allocation model being used because problems persist more than four 
years later.
---------------------------------------------------------------------------
    \29\ See U.S. Government Accountability Office, VA Vocational 
Rehabilitation and Employment Program - Further Program Management 
Improvements Are Needed, 10, Feb.27, 2014, https://www.gao.gov/assets/
670/661184.pdf (noting how VA concurred with GAO's recommendation that 
``VA collect information on the regional offices' approaches for 
managing their VR&E workloads, assess their advantages and 
disadvantages, and use the results of this assessment to provide 
guidance to the offices.'').
    \30\ Jack Kammerer, Prepared Statement RE Oversight Hearing on the 
Topic of ``A Review of the Effectiveness of VA's Vocational 
Rehabilitation and Employment Program,'' HOUSE SUBCOMMITTEE ON ECONOMIC 
OPPORTUNITY, 57, Feb. 27, 2014, https://www.gpo.gov/fdsys/pkg/CHRG-
113hhrg87668/pdf/CHRG-113hhrg87668.pdf.

    <bullet>  Johnny P., McGaheysville, VA, Vermont College of Fine 
Arts: ``Never before have I seen a VA program seemingly designed to 
prevent veterans from using it - the hoops to clear to participate are 
daunting, and eligible veterans in need suffer during the time 
---------------------------------------------------------------------------
consuming application process.''

    The recent VA Office of the Inspector General Audit of VR&E 
Subsistence Allowance Payments \31\ raises concerns. After evaluating a 
sample of 120 subsistence allowances for November 2016 and identifying 
four errors of overpayments and underpayments in 120 payments, the 
Office decided to limit the audit's scope and to offer no 
recommendations. \32\ This report release on March 15, 2018 came out 
weeks after 11,000 VR&E participants experienced disbursement delays. 
\33\ These late disbursements impact whether our students are able to 
pay for basic living necessities like housing and food. We encourage 
VR&E to identify what caused this delay and ensure it does not happen 
again.
---------------------------------------------------------------------------
    \31\ VA Office of Inspector General, Audit of Vocational 
Rehabilitation and Employment Program Subsistence Allowance Payments, 
VETERANS BENEFITS ADMINISTRATION, Mar. 15, 2018, https://www.va.gov/
oig/pubs/VAOIG-16-05121-110.pdf.
    \32\ Id. at 3.
    \33\ Emily Wax-Thibodeaux, 11,000 disabled student veterans left 
without rent and expense money due to computer glitch, THE WASHINGTON 
POST, Feb. 2, 2018, https://www.washingtonpost.com/news/checkpoint/wp/
2018/02/02/11000-disabled-student-veterans-left-without-rent-and-
expense-money-due-to-computer-glitch/.

    <bullet>  Jill W., Ada, OK, East Central University: 
``[C]onsistently, VR&E's procedure for processing invoices is not 
effective. Our school takes from first available funds when processing 
financial aid, and VR&E is always the last to pay.. I understand that 
VR&E counselors have to check the invoices, especially for books and 
supplies, before forwarding them to finance, but the amount of time it 
is taking puts VR&E participants at a huge disadvantage compared to 
Post-9/11 students, whose tuition and fees are paid in a timely 
manner.''
    <bullet>  Mark B., Washington, D.C., Johns Hopkins University: ``My 
student loans were held by Johns Hopkins for 8 months because it took 
Voc Rehab 8 months to pay tuition to Hopkins.''

Process Subjectivity

    VR&E is marked by inconsistent treatment for similarly situated 
parties. While individualized plans are a VR&E positive, the emphasis 
on individualization often results in students receiving different 
approvals based on who their counselors are.

    <bullet>  Cristy B., Waterford, MI, Wayne State University: In 
referencing the inconsistencies, she discusses a common situation, 
```My VRC did this for me but didn't do that,' while others are getting 
this and that.''
    <bullet>  Francheska S., Annapolis, MD, Anne Arundel Community 
College: ``There is a huge disparity in equality between vocational 
rehabilitation programs. For example, Voc Rehab will only pay for my 
associates since I am employable as a paralegal. In contrast, my fellow 
veterans are able to attend law school courtesy of Voc Rehab. When I 
addressed this disparity with my counselor, the answer I consistently 
received is as follows: `We are here to employ you not educate you.'"
    <bullet>  Bruno M., Las Vegas, NV, University of Nevada Las Vegas: 
After seeing many of his friends and colleagues able to use VR&E for 
graduate school, he emphasizes the need for clarity regarding ``access 
to graduate level degrees.''

Career Concerns

    Career concerns fall into three main categories: (1) failing to 
identify high-demand career fields, (2) pressuring recipients into 
paths/careers they do not want, and (3) missing soft skills 
development, including interviewing and LinkedIn instruction. Students 
consistently cite the lack of guidance about suitable employment. Some 
veterans are also pushed toward employment paths that will aggravate 
their disabilities.

    <bullet>  Adam L., Syracuse, NY, Syracuse University: ``As a medic 
with medic related PTS I wasn't going to be able to become a physician 
assistant with cadaver labs being a part of the undergrad and grad 
education plan.''
    <bullet>  Donalita B., Gilbert, AZ: ``Counselors need to take 
veterans' disabilities into consideration when selecting a track.''
    <bullet>  Gilbert B., Marina, CA, California State University - 
Monterey Bay: Regarding employment training and supports, he desires 
``more time to go over employment services in more detail instead of 
just the 30 minute meetings.''

    In addition to counselors, Employment Coordinators work out of the 
Regional Offices. \34\ Although such coordinators are supposed to help 
with resume preparation, this is an area that demands improvement. 
Veterans report confusion and difficulty \35\ in translating their 
military experiences into the civilian workforce context, which clearly 
seems like an opportunity for counselors and coordinators. Having a 
professional and polished resume is not enough in today's competitive 
job market - Program participants must know how to leverage job 
resources like LinkedIn. Veterans are eligible for a free one-year 
LinkedIn Premium Careers subscription, \36\ and counselors and 
coordinators could be instrumental in helping recipients use these 
resources.
---------------------------------------------------------------------------
    \34\ FY 2019 Congressional Submission, at VBA-242.
    \35\ U.S. Government Accountability Office, VA Vocational 
Rehabilitation and Employment Program - Further Program Management 
Improvements Are Needed, 6, Feb.27, 2014, https://www.gao.gov/assets/
670/661184.pdf.
    \36\ LinkedIn, LinkedIn for Veterans - Free Premium Career 
Subscription and Eligibility, https://www.linkedin.com/help/linkedin/
answer/14803/linkedin-for-veterans-free-premium-career-subscription-
and-eligibility?lang=en (last visited May 7, 2018).

---------------------------------------------------------------------------
Benefits Misconceptions

    We consistently hear from students about persisting confusion 
regarding the use of multiple education benefits. VR&E specifies a 
duration of 48 months. \37\ GI Bill beneficiaries may use their 
education benefit for up to 36 months. \38\ For students using both 
benefits, how do these months of eligibility interact? VA specifies on 
its Post 9/11 GI Bill FAQ page, that while a beneficiary may be 
eligible for more than one VA education benefit program, ``[Y]ou may 
only receive payments from one program at a time. You can receive a 
maximum of 48 months of benefits under any combination of VA education 
programs you qualify for.'' \39\
---------------------------------------------------------------------------
    \37\ See 38 U.S.C. Sec.  3105(b)(1) - Duration of rehabilitation 
programs.
    \38\ 38 U.S.C. Sec.  3312(a) - Educational assistance: duration.
    \39\ U.S. Department of Veterans Affairs, Can I be eligible for two 
or more education benefits?, GI BILL CUSTOMER HELP, Answer Updated Mar. 
14, 2018, https://gibill.custhelp.va.gov/app/answers/detail/a--id/523//
can-i-be-eligible-for-two-or-more-education-benefits%3F.
---------------------------------------------------------------------------
    Students indicate this seemingly clear-cut policy is problematic in 
practice. Some students are able to use the remaining 12 months 
(difference between 48 months of maximum eligibility and 36 months of 
GI Bill benefits) to continue educational pursuits, while others are 
not. Third party sources identify how nuanced this policy can be. \40\ 
In recognizing that VR&E is an employment program, we request clearer 
guidance about benefits overlap to ensure students are maximizing their 
benefits in pursuit of their educational and employment goals. Such 
guidance is imperative as a majority of VR&E participants are pursuing 
the Employment through Long-Term Services track, specifically 83 
percent for Longitudinal Study Cohort I, 88 percent for Cohort II, and 
92 percent for Cohort III. \41\
---------------------------------------------------------------------------
    \40\ Benjamin Krause, Does VA Voc Rehab Chapter 31 Take Away From 
Your GI Bill?, DISABLEDVETERANS.ORG, Oct. 30, 2013, https://
www.disabledveterans.org/2013/10/30/va-voc-rehab-take-away-gi-bill/ 
(noting how the blog author is a VR&E alumnus who has submitted 
testimony to the House Veterans Affairs Committee).
    \41\ 2017 Longitudinal Study, at 3-13.

---------------------------------------------------------------------------
Recommended Improvements

Immediate Recommendations

    Expectation Management. First, many VR&E obstacles originate from 
unclear expectations about what the program provides. This can be 
addressed by revamping how the program is publicized. Although we 
generally received positive feedback about the application form being 
intuitive and easy to fill out, policy guidance about how the program 
works is scattered on multiple webpages.
    We appreciate that the Client Relations Team \42\ is available to 
respond to inquiries from veterans, as well as outside organizations 
like ours. As inquiries come in, patterns of questions are likely to 
emerge. We recommend the VR&E Office prepare a Frequently Asked 
Question resource to be updated annually. Providing this resource would 
enable prospective and current participants' understanding of program 
objectives.
---------------------------------------------------------------------------
    \42\ FY 2019 Congressional Submission, at VBA-249.
---------------------------------------------------------------------------
    Employer Partnerships. Identifying employer partnerships is another 
opportunity for the VR&E program to flourish. Many entities are looking 
to hire veterans, and several of the VR&E existing tracks, including 
Reemployment with a Previous Employer and Rapid Access to Employment 
demonstrate this. VA and the Department of Labor maintain a Memorandum 
of Understanding to best serve those with service-connected 
disabilities, which includes providing labor market information to VR&E 
participants. \43\ We think further inter-agency collaboration with the 
Department of Labor's Veterans' Employment and Training Service will 
foster greater leveraging of opportunities and resources, \44\ 
including almost 2,500 American Job Centers. \45\
---------------------------------------------------------------------------
    \43\ See Jack Kammerer, Statement RE A Review of VA's Vocational 
Rehabilitation and Employment Program, HOUSE SUBCOMMITTEE ON ECONOMIC 
OPPORTUNITY, 5-6, JULY 8, 2015, https://docs.house.gov/meetings/VR/
VR10/20150708/103656/HHRG-114-VR10-Wstate-KammererJ-20150708.pdf.
    \44\ U.S. Department of Labor, About VETS, https://www.dol.gov/
vets/aboutvets/aboutvets.htm (last visited May 10, 2018).
    \45\ CareerOneStop, How can an American Job Center help you?, 
https://www.careeronestop.org/LocalHelp/AmericanJobCenters/american-
job-centers.aspx#AJC%20Types (last visited May 10, 2018).
---------------------------------------------------------------------------
    Subsistence Allowances. Establishing appropriate subsistence 
allowances would also be a beneficial program development. Many of our 
surveyed constituents share concerns about not being able to afford 
basic necessities like food and rent while pursuing their 
individualized training and education plans. Subsistence rates are 
based on rate of attendance (full time, three quarter time, half time), 
number of dependents, and the training type. \46\ Regional Office 
insights also echo these challenges where managers report that veterans 
may discontinue their plans before obtaining suitable employment 
because of financial pressures. \47\ Although some VR&E participants 
may be able to receive the higher Post 9/11 Chapter 31 Subsistence 
Allowance Rate if pursuing their educations, this funding does not 
apply to all VR&E participants.
---------------------------------------------------------------------------
    \46\ U.S. Department of Veterans Affairs, VR&E Subsistence 
Allowance Rates, https://www.benefits.va.gov/vocrehab/subsistence--
allowance--rates.asp (last visited May 13, 2018).
    \47\ U.S. Government Accountability Office, VA Vocational 
Rehabilitation and Employment Program - Further Program Management 
Improvements Are Needed, 6, Feb.27, 2014, https://www.gao.gov/assets/
670/661184.pdf.
---------------------------------------------------------------------------
    Participant Satisfaction. Implementing satisfaction surveys for 
participants and employers would make it easier for VR&E to monitor the 
program and assess issues as they arise, as compared to having to wait 
for results from the Longitudinal Study. We question the rationale for 
no longer externally reporting Veterans' Satisfaction with VR&E that is 
measured in the J.D. Power & Associates Voice of the Veteran Continuous 
Measurement Survey. \48\
---------------------------------------------------------------------------
    \48\ FY 2019 Congressional Submission, at VBA-245.

---------------------------------------------------------------------------
Strategic Recommendations

    Economic Opportunity Administration. The creation of the VA 
Economic Opportunity Administration will provide economic opportunity 
programs like VR&E with the champion these programs need and deserve. 
Creating an Under Secretary for Economic Opportunity and Transition to 
oversee these programs would also give this Committee and other 
legislative bodies a central point of contact for accountability and 
oversight. \49\ SVA is proud to support the bipartisan Veterans' 
Education, Transition, and Opportunity Prioritization Plan (VET OPP) 
Act of 2018, which was introduced in the House by Subcommittee Members 
Brad Wenstrup and Mark Takano. \50\
---------------------------------------------------------------------------
    \49\ MG Robert M. Worley II USAF (Ret.), Testimony RE An Update on 
the Implementation of the Forever GI Bill, the Harry W. Colmery 
Educational Assistance Act of 2017, HOUSE SUBCOMMITTEE ON ECONOMIC 
OPPORTUNITY, Dec. 12, 2017, https://veterans.house.gov/calendar/
eventsingle.aspx?EventID=2006 (Noting how in the Exchange with Rep. 
Kathleen Rice (D-NY), Mr. Worley consistently expressed how he could 
not answer questions relating to other Economic Opportunity Programs 
not under the Education Service purview. An Under Secretary for 
Economic Opportunity and Transition would oversee VR&E programs, 
educational assistance programs, veterans' housing loan and related 
programs, and other critical programs that serve our veterans. A person 
holding this role would serve a crucial role for keeping the lines of 
communication and oversight between VA and Congress open).
    \50\ Press Release - Wenstrup, Takano, Rubio, and Hassan Introduce 
Legislation to Prioritize Veterans' employment and Education Programs 
at the VA, BRAD WENSTRUP WEBSITE, Apr. 26, 2018, https://
wenstrup.house.gov/updates/documentsingle.aspx?DocumentID=400271.
---------------------------------------------------------------------------
    As SVA's Director of Policy Lauren Augustine testified at the Joint 
Subcommittee Oversight Hearing on the Fiscal Year 2019 Budget, this 
fourth administration would create ``a refocusing of existing resources 
that modernizes VA and creates greater accountability for economic 
opportunity and transition programs.'' \51\ Similarly SVA's Vice 
President of Government Affairs William Hubbard emphasized how moving 
VR&E and other programs to the new administration will increase 
accountability, elevate economic opportunity issues, reduce 
bureaucracy, create a VA counterpart for positions already established 
at the Department of Labor and the Department of Defense, as well as 
supporting ``whole health.'' \52\ We look forward to testifying at the 
upcoming legislative hearing on the VET OPP Act.
---------------------------------------------------------------------------
    \51\ Lauren Augustine, Testimony RE Oversight Hearing on the Topic 
of ``Fiscal Year 2019 Budget Submission of the Department of Veterans 
Affairs,'' HOUSE SUBCOMMITTEE ON ECONOMIC OPPORTUNITY AND SUBCOMMITTEE 
ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS OF THE COMMITTEE ON 
VETERANS' AFFAIRS, 5, Mar. 15, 2018, http://studentveterans.org/images/
pdf/will/Legislative-Hearing-VA-FY19-Budget-3.15.18.pdf.
    \52\ William Hubbard, Testimony RE Legislative Hearing on the Topic 
of: ``Pending Legislation,'' HOUSE SUBCOMMITTEE ON ECONOMIC 
OPPORTUNITY, 6-7, Mar. 20, 2018, http://studentveterans.org/images/pdf/
will/Legislative-Hearing--HVAC-Subcommittee-on-Economic-Opportunity-
March-20-2018.pdf (noting how ``It appears maintenance of bureaucracy 
is the chief concern for those opposing this proposal, placing an 
emphasis on preserving `the way things are' for the sake of doing so, 
versus the prioritization of the customer: veterans.'').
---------------------------------------------------------------------------
    Authority Restructure. The VR&E Office should be given 
responsibility and authority over counselors and other staff 
administering the VR&E program. Having this authority under the Office 
of Field Operations inhibits oversight and effective service to our 
veterans. Giving the power to VR&E will enable more effective counselor 
and personnel allocation to each regional office.
    Eligibility Requirements. Reconsidering VR&E's eligibility 
criteria, which is specified in statute, would require a legislative 
fix. As it currently stands, a veteran is VR&E eligible (1) if he/she 
has a service-connected disability of at least 20 percent with an 
employment handicap or a service-connected disability of 10 percent 
with a serious employment handicap and (2) be discharged or released 
from military service under other than dishonorable conditions. \53\ 
The most recent VR&E Longitudinal Study released on July 31, 2017, 
revealed that cohort members (Cohort I includes 10,791 members; Cohort 
II includes 15,396 members; Cohort III includes 21,082 members) have an 
average service-connected disability of about 60 percent. \54\
---------------------------------------------------------------------------
    \53\ See 38 U.S.C. Sec.  3102 - Basic entitlement. See also U.S. 
Department of Veterans Affairs, Vocational Rehabilitation and 
Employment (VR&E) - Eligibility and Entitlement, https://
www.benefits.va.gov/vocrehab/eligibility--and--entitlement.asp (last 
visited May 1, 2018).
    \54\ 2017 Longitudinal Study, at E-4.
---------------------------------------------------------------------------
    It is interesting to note how VR&E participants who re-entered the 
program from a discontinued or rehabilitated status have a higher 
combined disability rating - 69 percent as compared to 64 percent, 
which can likely be attributed to a worsening disability condition. 
\55\ By increasing the service-connected disability rating requirement, 
we can ensure that VR&E services are being received by the veterans 
truly in need of assistance obtaining suitable employment, defined as 
``employment that does not aggravate the Veteran or Servicemember's 
disabilities, is stable, and is consistent with his or her pattern of 
abilities, aptitudes, and interests.'' \56\
---------------------------------------------------------------------------
    \55\ 2017 Longitudinal Study, at E-10.
    \56\ U.S. Department of Veterans Affairs, Vocational Rehabilitation 
and Employment (VR&E) - Program Definitions, https://
www.benefits.va.gov/vocrehab/program--definitions.asp (last visited May 
1, 2018).
---------------------------------------------------------------------------
    Funding Reform. The VR&E funding structure demands attention. VR&E 
Director Jack Kammerer emphasized VR&E importance before this 
Subcommittee, stating ``VR&E employees across the country are committed 
to and engaged in multiple initiatives to extend VR&E's outreach 
capabilities, gain a better understanding of our current and future 
Veteran population, increase program efficiencies, enhance our 
supporting technologies, and reframe performance metrics.'' \57\ VA's 
VR&E budget request fails to indicate that VR&E is a priority.
---------------------------------------------------------------------------
    \57\ Jack Kammerer, Statement RE A Review of VA's Vocational 
Rehabilitation and Employment Program, HOUSE SUBCOMMITTEE ON ECONOMIC 
OPPORTUNITY, 1, JULY 8, 2015, https://docs.house.gov/meetings/VR/VR10/
20150708/103656/HHRG-114-VR10-Wstate-KammererJ-20150708.pdf.
[GRAPHIC] [TIFF OMITTED] T5489.001

    Total appropriations for Fiscal Year 2016 totaled $1,532,061,000 - 
$217,379,000 for salaries, rent, travel, other services; $573,346,000 
for subsistence allowances paid to veterans, and $741,336,000 for 
vocational training, including tuition, books, supplies, etc. paid on 
behalf of veterans. \58\ Due to VR&E's expected increasing program 
demand, we emphasized during previous testimony that counselor salaries 
be increased to attract high-quality counselors. \59\ Glassdoor 
indicates a salary range of $49,799-$95,000 based on salary reports and 
statistical methods. \60\
---------------------------------------------------------------------------
    \58\ 2017 Longitudinal Study, at 1-15.
    \59\ Lauren Augustine, Testimony RE Oversight Hearing on the Topic 
of ``Fiscal Year 2019 Budget Submission of the Department of Veterans 
Affairs,'' HOUSE SUBCOMMITTEE ON ECONOMIC OPPORTUNITY AND SUBCOMMITTEE 
ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS OF THE COMMITTEE ON 
VETERANS' AFFAIRS, 4, Mar. 15, 2018, http://studentveterans.org/images/
pdf/will/Legislative-Hearing-VA-FY19-Budget-3.15.18.pdf.
    \60\ Glassdoor, U.S. Department of Veterans Affairs Vocational 
Rehabilitation Counselor Salaries, https://www.glassdoor.com/Salaries/
vocational-rehabilitation-counselor-salary-SRCH--KO0,35.htm (last 
visited May 1, 2018).
---------------------------------------------------------------------------
    Paired with our anecdotal evidence from our constituents, recent 
work by the Department of Justice and U.S. Attorney's Office for the 
District of Columbia highlight additional issues. Atius Technology 
Institute's owner paid a counselor a 7 percent cash kickback on all VA 
payments to Atius, which amounted to a kickback of approximately 
$155,000. \61\ In exchange for the kickback, the counselor encouraged 
VR&E participants to attend Atius. While this particular situation is 
likely limited in scope, it shines a light on the need for better 
compensation to attract higher quality personnel to take care of and 
support our veterans.
---------------------------------------------------------------------------
    \61\ Office of Public Affairs, School Owner Pleads Guilty to $2 
Million Bribery Scheme Involving VA Program for Disabled Military 
Veterans, Apr. 16, 2018, https://www.justice.gov/opa/pr/school-owner-
pleads-guilty-2-million-bribery-scheme-involving-va-program-disabled-
military (also noting how ``These bribery payments were hand-delivered 
by Poawui or an Atius employee to the VR&E counselor or the counselor's 
assistant, a veteran who was enrolled in the VR&E program.'').
---------------------------------------------------------------------------
    Data Collection and Analysis. The congressionally-mandated 
Longitudinal Study is a positive step in data collection, but we are 
concerned with how VR&E is measuring results. At SVA, we are driven by 
data, especially outcomes. Based on our National Veteran Education 
Success Tracker (NVEST), which is the first comprehensive study of the 
academic successes of student veteran use of the Post-9/11 GI Bill, we 
are able to report that students have earned 453,000 degrees and 
certificates using the Post-9/11 GI Bill since 2009. \62\
---------------------------------------------------------------------------
    \62\ Cate, C.A., Lyon, J.S., Schmeling, J., & Bogue, B.Y. (2017). 
National Veteran Education Success Tracker: A Report on the Academic 
Success of Student Veterans Using the Post-9/11 GI Bill. Student 
Veterans of America, Washington, D.C., 42, http://
nvest.studentveterans.org/wp-content/uploads/2017/03/NVEST-Report--
FINAL.pdf (noting how 63.4 percent of the completed degrees were at the 
bachelor's degree level or higher).
---------------------------------------------------------------------------
    Although VR&E's 15,528 positive outcomes for 2017 sounds 
impressive, ``positive outcome'' is broadly defined as achieved a 
rehabilitation plan goal, pursued higher education, obtained suitable 
employment, or became employable through VR&E. \63\ Does pursuit of 
higher education mean signing up for a class? Completing a course with 
a passing grade? Starting but not completing a course? We question 
whether the positive outcome includes those veterans who achieved a 
maximum rehabilitation gain, which is a status applied to veterans who 
attained vocational skills or some other benefit from VR&E 
participation even though suitable employment was not achieved. \64\ 
While each of these attainments may benefit a participant, VA must 
monitor outcomes, successes, and issues in a way that allows the 
program to be evaluated.
---------------------------------------------------------------------------
    \63\ FY 2019 Congressional Submission, at VBA-242.
    \64\ U.S. Government Accountability Office, VA Vocational 
Rehabilitation and Employment Program - Further Program Management 
Improvements Are Needed, 2 n.7, Feb.27, 2014, https://www.gao.gov/
assets/670/661184.pdf.
---------------------------------------------------------------------------
    Outcome Tracking. Another strategic goal is to track employment 
outcomes for longer periods. Currently, veterans are considered 
rehabilitated once suitable employment has been maintained for 60 days. 
For comparison, the Department of Labor measures job retention for its 
employment and training programs over a 180-day period. \65\ Monitoring 
employment six months and one year, which VA has previously considered, 
\66\ would enable VA to better assess rehabilitation.
---------------------------------------------------------------------------
    \65\ Id. at 8.
    \66\ Id. at 8.
---------------------------------------------------------------------------
    We thank the Chairman, Ranking Member, and the Committee members 
for your time, attention, and devotion to the cause of veterans using 
VR&E and other economic opportunity programs. As always, we welcome 
your feedback and questions, and we look forward to continuing to work 
with this Subcommittee, the House Veterans' Affairs Committee, and the 
entire Congress to ensure the success of all generations of veterans 
through education and beyond.

Information Required by Rule XI2(g)(4) of the House of Representatives

    Pursuant to Rule XI2(g)(4) of the House of Representatives, Student 
Veterans of America has not received any Federal grants in Fiscal Year 
2018, nor has it received any Federal grants in the two previous Fiscal 
Years.

APPENDIX A

    The following feedback comes directly from student veterans and 
other constituents who filled out our survey. Such feedback includes 
hurdles, as well as suggestions for improvement. Narratives include 
participants' first name and last initial.

Counselor Issues

    <bullet>  Jonathan H.: I had an awful Voc Rehab Counselor who 
refused to let me attend the university of my choosing, which I was 
already enrolled at and instead pushed for me to instead, drop out and 
enroll in community college. She said, ``there is no difference between 
Harvard and a community college'' and I stood up and left the room 
never to go back and make use of their services. After I left no one 
even attempted to make contact with me. Before this I also informed the 
counselor I want to be a lawyer and she informed me that the best I 
would be able to do is Paralegal.
    <bullet>  Kierston W.: We are required to meet with our counselor 
once per semester to discuss our education track, however, the last 2 
appointments that I had with our VSOC were cancelled. Also, our 
(Syracuse University) VSOC was highly disorganized with not returning 
emails or being available for the veterans on campus.
    <bullet>  Mark H.: More of a hands-on approach to the counselors. 
Most students on VR&E don't get the much-needed help from counselors 
here at UNLV.
    <bullet>  Jim B.: More counselors to better understand participant 
needs as most counselors are completely over booked which takes away 
from their knowledge of the veterans they are trying to assist. Often 
allowing individuals to fall through the cracks.
    <bullet>  Samantha R.: More accessibility - VR&E counselors 
available on campus.
    <bullet>  Daniel C.: Better communication between vets & 
counselors/supervisors at VR&E. I have to call & email several times to 
get a response & most of the time I don't receive all the information 
available on a particular subject. It feels like they have all the 
information & I have the ask the right question the right way at the 
right time to get an answer with all the content I need. To put it 
simple, I feel like I don't matter. I feel like I am a bother to the 
counselor.
    <bullet>  Daniel P.: The entire system is broken. Counselors are 
incompetent and unwilling. Their superiors do not get involved and are 
nonexistent as it relates to helping student veterans. I was placed on 
the program over three years ago, and I have gone through four 
different counselors that have no idea what's going on. The right hand 
doesn't know what the left hand is doing. This program is a complete 
waste of time and I would advise any fellow veteran to stay clear and 
pursue education on their own using other resources.
    <bullet>  Robert O.: The responsiveness of counselors, they are not 
equipped to solve most issues.
    <bullet>  Robert A.: Either fewer veterans assigned to a specific 
counselor so that it doesn't take an act of congress to get them to at 
least email you back within a three week time period after you've 
attempted to contact them, or who actually have a background in career/
personal development or something to that extent so that neither the 
Veterans Administration or veteran wastes their time, TAX PAYERS 
dollars, or start being more selective on who you hire as a counselor.
    <bullet>  Wayne M.: Reduce work load for counselors - they want to 
help more, but all of them in California are overloaded.
    <bullet>  Katherine S.: As it stands, the future of a veteran 
depends on the opinion of a counselor. The trouble with opinions are, 
not only are they subjective for the counselor and relative to each 
veteran, but, in my experience, neither the veteran or a substantiated 
medical opinion seems to be able to influence the counselor's belief. 
No one person should have that much sovereignty over another, 
especially when it is based on the whim of a personal opinion.

Program Administration

    <bullet>  Robert R.: Subsistence allowance is not enough to 
survive.
    <bullet>  Kierston W.: We are encouraged to attend school full 
time, and many of us have families, we all have monthly payments that 
need to be made whether classes are in session or on break. As non-
traditional students it is difficult for us to find part-time 
employment while classes are in session, that can transfer to a full 
time position while on break that will supplement the housing 
allowance.
    <bullet>  Christopher G.: Making it simpler for Vets to access 
benefits and not have it hard to jump through hoops to get 
reimbursement.
    <bullet>  Carlos S.: Manage expectations of participants. This is 
not a ``get everything I want'' program. - Better explanation of the 
benefit and eligibility. Too many veterans think this is an automatic 
benefit.
    <bullet>  Mark B.: Pay bills in a decent amount of time. My student 
loans were held by Johns Hopkins for 8 months because it took Voc Rehab 
8 months to pay tuition to Hopkins.
    <bullet>  Kassandra F.: Cost of living pay - I think that the 
prorated money is not beneficial for those who are in school and trying 
to pay for housing or any bills.
    <bullet>  Dean Z.: Equal monthly stipend to post 9-11, as a student 
attending college in the DC Metro area being married with 2 children, I 
get approx $971 a month for housing and food, veterans at my college 
using post 9-11 as single Unmarried get approx $2100 a month. I've had 
to take out loans to pay for housing because I could not afford to live 
in the local area.
    <bullet>  Arthur H.: Better stipend to help with the cost of 
living.
    <bullet>  Hannah J.: I would like to share my experience with 
attempting to apply for an MSW internship with the VA hospital in Des 
Moines Iowa. Upon acceptance to my MSW program with Simmons College in 
Boston, online accredited and prestigious brick mortar in its own 
right, I immediately contacted the local VA in Des Moines to acquire 
the steps I needed to complete in order to apply. I was informed that I 
was not qualified to apply for the VA internship due to my programs 
``online'' status. I contacted my VR&E counselor, and the MSW VA 
program director in Des Moines, and was informed that there was nothing 
that I could do about this.
    <bullet>  Jill W.: I am the director of Veteran Student Support 
Services (Dept. of Education TRIO program) at a small university in 
Oklahoma. My coworkers and I have discussed advising our new intakes to 
utilize the Post-9/11 GI Bill rather than VR&E, even though we know 
that our disabled veterans really need the case management services 
provided by VR&E. This is because, consistently, VR&E's procedure for 
processing invoices is not effective. Our school takes from first 
available funds when processing financial aid, and VR&E is always the 
last to pay. Right now, I still have seven students for whom VR&E has 
not processed payments, and the school has applied the Pell Grants and/
or loan money of those students to their accounts, leaving them with 
little resources to pay rent, utilities, etc. The past several 
semesters, we have had students who did not receive their released Pell 
grants/loans until the week before finals! (A few semesters ago, every 
single payment for the State of Oklahoma was sent to Texas, and the 
government had to wait for that money to be returned before they would 
reissue payments!!! Another semester, the VA was changing payment 
systems, and again, our students suffered.) I understand that VR&E 
counselors have to check the invoices, especially for books and 
supplies, before forwarding them to finance, but the amount of time it 
is taking puts VR&E participants at a huge disadvantage compared to 
Post-9/11 students, whose tuition and fees are paid in a timely manner.
    <bullet>  Patrick H.: The book reimbursement is very outdated with 
hard copies and invoices being mailed between colleges and state 
offices. Tuition and fees need to be reimbursed faster, especially for 
those colleges that hold back the Pell Grant Money until the Ch. 31 
money comes in.
    <bullet>  Johnny P.: Never before have I seen a VA program 
seemingly designed to prevent veterans from using it - the hoops to 
clear to participate are daunting, and eligible veterans in need suffer 
during the time consuming application process.

Process Subjectivity

    <bullet>  Cristy B.: Training for counselors - Counselors all need 
to receive the same training so that they can provide quality service 
to veterans. This whole ``My counselor did this for me but didn't do 
that'' while others are getting this and that.
    <bullet>  Shane: Most of the time the Counselors deny applications 
based on how they feel. They do not follow the CFR regulations. They 
neglect to provide a reason behind their actions. There is no one to 
check and monitor what they are doing. There is a lot of abuse and 
neglect of veterans needs that exists within the program.
    <bullet>  Tarshica R.: Some get approved for bachelor & master 
programs while some do not. Really hard to gain employment with 
Associates.
    <bullet>  Helen H.: Some places allow services while others do not. 
Huge inconsistencies. Veterans suffer.
    <bullet>  Francheska S.: There is a huge disparity in equality 
between vocational rehabilitation programs. One is location and the 
second inequality depends on your vocational rehabilitation specialist. 
For example, VR&E will only pay for my associates since I am employable 
as a paralegal. In contrast, my fellow veterans are able to attend law 
school courtesy of VR&E. When I addressed this disparity with my 
counselor, the answer I consistently received is as follows: We are 
here to employ you not educate you.
    <bullet>  Kevin T.: Make it simpler to get the degree one is 
working toward instead of having to fight with counselors to get 
answers without being belittled or having to make a trial ready case. 
I've almost completed my B.A. We planned to get me licensed IF I did 
well enough to go forward. A master's is needed to get licensed. Well, 
I didn't flunk out of the first year, actually, I've held near a 4.0 
with this being my senior year. Still it has been a fight to get any 
information about moving forward. Others are doing it, and it seems 
dependent on who one is assigned as to how easy or hard it is to get 
anything.

Career Concerns

    <bullet>  Adam L.: Realistic VR&E counselor - As a medic with medic 
related PTS I wasn't going to be able to become a physician assistant 
with cadaver labs being a part of the undergrad and grad education 
plan.
    <bullet>  Kierston W.: While this is a great benefit that allows a 
student to search for the right job after graduating, it is not only 
not advertised but also not available until the student is ``job 
ready.'' As an accounting major on a CPA track I am not ``job ready'' 
until I've passed all 4 parts to the CPA exam, however, can work as an 
accountant for 2 years while preparing for and taking the exams. I have 
a job after graduation, 2 months after graduation and will not be able 
to receive this benefit until I've finished all parts, which means I am 
searching for a job for 2 months that will pay me enough to survive.
    <bullet>  Mario H.: Listen to the needs of the recipient. - I was 
put into an Business Administration AA program against the advice of my 
school counselor and my wishes with the promise of a continuation upon 
completion. After program completion, I was told I did not qualify to 
continue and my degree was not transferable so I had to go back to 
school at my own expense to be able to transfer which took me an 
additional two years.
    <bullet>  Charles P.: There is no job placement program nor is 
there a way to link with other who may want to hire veterans for job. 
Outside of the school aspect, the program is useless. My counselor was 
never in the office, never very helpful, we had monthly calls which 
were a waste. - Like other job placement areas, they need to get out 
there and look for companies and people to help find veterans jobs. I 
mean bigger companies not just Walmart, good paying jobs with a future.
    <bullet>  Joshua M.: When initially signing up for the VR&E don't 
make individuals pick 3 jobs they think they would want in order to 
receive any benefits. As many of us are just getting out of the 
military and don't know exactly what we want to do. If Individuals are 
leaning towards a field guide them, but if they are unsure allow those 
using chapter 31 to take gen eds that they will eventually need. This 
would give them time to choose a specific career field or even career. 
This would not waste tax payers money as they have at least a years 
worth of time to decide what they want to do while getting credits they 
would need for any degree later down the road.
    <bullet>  Logan B.: It feels like I'm fighting tooth and nail to 
take the self-employment route. I wish they would be more open to me 
making my own choices and how VR&E can help me instead of trying to put 
me on whatever track is easiest.
    <bullet>  Brenton I.: A comprehensive list of employment 
opportunities in the local area either through work-study or privately 
owned companies.
    <bullet>  Donalita B.: Counselors need to take veterans' 
disabilities into consideration when selecting a track.
    <bullet>  Gilbert B.: More time to go over employment services in 
more detail instead of just the 30 minute meetings

Benefits Misconceptions

    <bullet>  Heidi O.: The eligibility could be extended beyond the 48 
months so if there was a need to get a Masters degree in a career field 
it would be covered.
    <bullet>  Donald W.: For those of us who use 9/11, who qualify for 
vocrehab, ensuring that they know that they should switch before they 
run out so that they can continue at the higher GI bill rate. Make it 
easier to access once you are in school.

APPENDIX B

    VR&E statutory and regulatory authority are included below.

38 USC Ch. 31: TRAINING AND REHABILITATION FOR VETERANS WITH SERVICE-
    CONNECTED DISABILITIES

From Title 38-VETERANS' BENEFITS

PART III-READJUSTMENT AND RELATED BENEFITS

Sec. 3100. Purposes

    The purposes of this chapter are to provide for all services and 
assistance necessary to enable veterans with service-connected 
disabilities to achieve maximum independence in daily living and, to 
the maximum extent feasible, to become employable and to obtain and 
maintain suitable employment.

Sec. 3101. Definitions

For the purposes of this chapter-

    (1) The term ``employment handicap'' means an impairment, resulting 
in substantial part from a disability described in section 3102(1)(A) 
of this title, of a veteran's ability to prepare for, obtain, or retain 
employment consistent with such veteran's abilities, aptitudes, and 
interests.

    (2) The term ``independence in daily living'' means the ability of 
a veteran, without the services of others or with a reduced level of 
the services of others, to live and function within such veteran's 
family and community.

    (3) The term ``program of education'' has the meaning provided in 
section 3452(b) of this title.

    (4) The term ``program of independent living services and 
assistance'' includes (A) the services provided for in this chapter 
that are needed to enable a veteran to achieve independence in daily 
living, including such counseling, diagnostic, medical, social, 
psychological, and educational services as are determined by the 
Secretary to be needed for such veteran to achieve maximum independence 
in daily living, and (B) the assistance authorized by this chapter for 
such veteran.

    (5) The term ``rehabilitated to the point of employability'' means 
rendered employable in an occupation for which a vocational 
rehabilitation program has been provided under this chapter.

    (6) The term ``rehabilitation program'' means (A) a vocational 
rehabilitation program, or (B) a program of independent living services 
and assistance authorized under section 3120 of this title for a 
veteran for whom a vocational goal has been determined not to be 
currently reasonably feasible.

    (7) The term ``serious employment handicap'' means a significant 
impairment, resulting in substantial part from a service-connected 
disability rated at 10 percent or more, of a veteran's ability to 
prepare for, obtain, or retain employment consistent with such 
veteran's abilities, aptitudes, and interests.

    (8) The term ``vocational goal'' means a gainful employment status 
consistent with a veteran's abilities, aptitudes, and interests.

    (9) The term ``vocational rehabilitation program'' includes-

    (A) the services provided for in this chapter that are needed for 
the accomplishment of the purposes of this chapter, including such 
counseling, diagnostic, medical, social, psychological, independent 
living, economic, educational, vocational, and employment services as 
are determined by the Secretary to be needed-

    (i) in the case of a veteran for whom the achievement of a 
vocational goal has not been determined not to be currently reasonably 
feasible, (I) to determine whether a vocational goal is reasonably 
feasible, (II) to improve such veteran's potential to participate in a 
program of services designed to achieve a vocational goal, and (III) to 
enable such veteran to achieve maximum independence in daily living, 
and

    (ii) in the case of a veteran for whom the achievement of a 
vocational goal is determined to be reasonably feasible, to enable such 
veteran to become, to the maximum extent feasible, employable and to 
obtain and maintain suitable employment, and

    (B) the assistance authorized by this chapter for a veteran 
receiving any of the services described in clause (A) of this 
paragraph.

Sec. 3102. Basic entitlement

    (a) In General.-A person shall be entitled to a rehabilitation 
program under the terms and conditions of this chapter if-

(1) the person-

(A) is-

    (i) a veteran who has a service-connected disability rated at 20 
percent or more which was incurred or aggravated in service on or after 
September 16, 1940; or

    (ii) hospitalized or receiving outpatient medical care, services, 
or treatment for a service-connected disability pending discharge from 
the active military, naval, or air service, and the Secretary 
determines that-

    (I) the hospital (or other medical facility) providing the 
hospitalization, care, services, or treatment is doing so under 
contract or agreement with the Secretary concerned, or is under the 
jurisdiction of the Secretary of Veterans Affairs or the Secretary 
concerned; and

    (II) the person is suffering from a disability which will likely be 
compensable at a rate of 20 percent or more under chapter 11 of this 
title; and

    (B) is determined by the Secretary to be in need of rehabilitation 
because of an employment handicap; or

(2) the person is a veteran who-

    (A) has a service-connected disability rated at 10 percent which 
was incurred or aggravated in service on or after September 16, 1940; 
and

    (B) is determined by the Secretary to be in need of rehabilitation 
because of a serious employment handicap.

    (b) Additional Rehabilitation Programs for Persons Who Have 
Exhausted Rights to Unemployment Benefits Under State Law.-(1) Except 
as provided in paragraph (4), a person who has completed a 
rehabilitation program under this chapter shall be entitled to an 
additional rehabilitation program under the terms and conditions of 
this chapter if-

    (A) the person is described by paragraph (1) or (2) of subsection 
(a); and

    (B) the person-

    (i) has exhausted all rights to regular compensation under the 
State law or under Federal law with respect to a benefit year;

    (ii) has no rights to regular compensation with respect to a week 
under such State or Federal law; and

    (iii) is not receiving compensation with respect to such week under 
the unemployment compensation law of Canada; and

    (C) begins such additional rehabilitation program within six months 
of the date of such exhaustion.

    (2) For purposes of paragraph (1)(B)(i), a person shall be 
considered to have exhausted such person's rights to regular 
compensation under a State law when-

    (A) no payments of regular compensation can be made under such law 
because such person has received all regular compensation available to 
such person based on employment or wages during such person's base 
period; or

    (B) such person's rights to such compensation have been terminated 
by reason of the expiration of the benefit year with respect to which 
such rights existed.

    (3) In this subsection, the terms ``compensation'', ``regular 
compensation'', ``benefit year'', ``State'', ``State law'', and 
``week'' have the respective meanings given such terms under section 
205 of the Federal-State Extended Unemployment Compensation Act of 1970 
(26 U.S.C. 3304 note).

    (4) No person shall be entitled to an additional rehabilitation 
program under paragraph (1) from whom the Secretary receives an 
application therefor after March 31, 2014.

Sec. 3103. Periods of eligibility

    (a) Except as provided in subsection (b), (c), (d), or (e) of this 
section, a rehabilitation program may not be afforded to a veteran 
under this chapter after the end of the twelve-year period beginning on 
the date of such veteran's discharge or release from active military, 
naval, or air service.

    (b)(1) In any case in which the Secretary determines that a veteran 
has been prevented from participating in a vocational rehabilitation 
program under this chapter within the period of eligibility prescribed 
in subsection (a) of this section because a medical condition of such 
veteran made it infeasible for such veteran to participate in such a 
program, the twelve-year period of eligibility shall not run during the 
period of time that such veteran was so prevented from participating in 
such a program, and such period of eligibility shall again begin to run 
on the first day following such veteran's recovery from such condition 
on which it is reasonably feasible, as determined under regulations 
which the Secretary shall prescribe, for such veteran to participate in 
such a program.

    (2) In any case in which the Secretary determines that a veteran 
has been prevented from participating in a vocational rehabilitation 
program under this chapter within the period of eligibility prescribed 
in subsection (a) of this section because-

    (A) such veteran had not met the requirement of a discharge or 
release from active military, naval, or air service under conditions 
other than dishonorable before (i) the nature of such discharge or 
release was changed by appropriate authority, or (ii) the Secretary 
determined, under regulations prescribed by the Secretary, that such 
discharge or release was under conditions other than dishonorable, or

    (B) such veteran's discharge or dismissal was, under section 5303 
of this title, a bar to benefits under this title before the Secretary 
made a determination that such discharge or dismissal is not a bar to 
such benefits, the twelve-year period of eligibility shall not run 
during the period of time that such veteran was so prevented from 
participating in such a program.

    (3) In any case in which the Secretary determines that a veteran 
has been prevented from participating in a vocational rehabilitation 
program under this chapter within the period of eligibility prescribed 
in subsection (a) of this section because such veteran had not 
established the existence of a service-connected disability rated at 10 
percent or more, the twelve-year period of eligibility shall not run 
during the period such veteran was so prevented from participating in 
such a program.

    (c) In any case in which the Secretary determines that a veteran is 
in need of services to overcome a serious employment handicap, such 
veteran may be afforded a vocational rehabilitation program after the 
expiration of the period of eligibility otherwise applicable to such 
veteran if the Secretary also determines, on the basis of such 
veteran's current employment handicap and need for such services, that 
an extension of the applicable period of eligibility is necessary for 
such veteran and-

    (1) that such veteran had not previously been rehabilitated to the 
point of employability;

    (2) that such veteran had previously been rehabilitated to the 
point of employability but (A) the need for such services had arisen 
out of a worsening of such veteran's service-connected disability that 
precludes such veteran from performing the duties of the occupation for 
which such veteran was previously trained in a vocational 
rehabilitation program under this chapter, or (B) the occupation for 
which such veteran had been so trained is not suitable in view of such 
veteran's current employment handicap and capabilities; or

    (3) under regulations which the Secretary shall prescribe, that an 
extension of the period of eligibility of such veteran is necessary to 
accomplish the purposes of a rehabilitation program for such veteran.

    (d) In any case in which the Secretary has determined that a 
veteran's disability or disabilities are so severe that the achievement 
of a vocational goal currently is not reasonably feasible, such veteran 
may be afforded a program of independent living services and assistance 
in accordance with the provisions of section 3120 of this title after 
the expiration of the period of eligibility otherwise applicable to 
such veteran if the Secretary also determines that an extension of the 
period of eligibility of such veteran is necessary for such veteran to 
achieve maximum independence in daily living.

    (e)(1) The limitation in subsection (a) shall not apply to a 
rehabilitation program described in paragraph (2).

    (2) A rehabilitation program described in this paragraph is a 
rehabilitation program pursued by a veteran under section 3102(b) of 
this title.

    (f) In any case in which the Secretary has determined that a 
veteran was prevented from participating in a vocational rehabilitation 
program under this chapter within the period of eligibility otherwise 
prescribed in this section as a result of being ordered to serve on 
active duty under section 688, 12301(a), 12301(d), 12301(g), 12302, 
12304, 12304a, or 12304b of title 10, such period of eligibility shall 
not run for the period of such active duty service plus four months.

Sec. 3104. Scope of services and assistance

    (a) Services and assistance which the Secretary may provide under 
this chapter, pursuant to regulations which the Secretary shall 
prescribe, include the following:

    (1) Evaluation, including periodic reevaluations as appropriate 
with respect to a veteran participating in a rehabilitation program, of 
the potential for rehabilitation of a veteran, including diagnostic and 
related services (A) to determine whether the veteran has an employment 
handicap or a serious employment handicap and whether a vocational goal 
is reasonably feasible for such veteran, and (B) to provide a basis for 
planning a suitable vocational rehabilitation program or a program of 
services and assistance to improve the vocational rehabilitation 
potential or independent living status of such veteran, as appropriate.

    (2) Educational, vocational, psychological, employment, and 
personal adjustment counseling.

    (3) An allowance and other appropriate assistance, as authorized by 
section 3108 of this title.

    (4) A work-study allowance as authorized by section 3485 of this 
title.

    (5) Placement services to effect suitable placement in employment, 
and postplacement services to attempt to insure satisfactory adjustment 
in employment.

    (6) Personal adjustment and work adjustment training.

    (7)(A) Vocational and other training services and assistance, 
including individualized tutorial assistance, tuition, fees, books, 
supplies, handling charges, licensing fees, and equipment and other 
training materials determined by the Secretary to be necessary to 
accomplish the purposes of the rehabilitation program in the individual 
case.

    (B) Payment for the services and assistance provided under 
subparagraph (A) of this paragraph shall be made from funds available 
for the payment of readjustment benefits.

    (8) Loans as authorized by section 3112 of this title.

    (9) Treatment, care, and services described in chapter 17 of this 
title.

    (10) Prosthetic appliances, eyeglasses, and other corrective and 
assistive devices.

    (11) Services to a veteran's family as necessary for the effective 
rehabilitation of such veteran.

    (12) For veterans with the most severe service-connected 
disabilities who require homebound training or self-employment, or both 
homebound training and self-employment, such license fees and essential 
equipment, supplies, and minimum stocks of materials as the Secretary 
determines to be necessary for such a veteran to begin employment and 
are within the criteria and cost limitations that the Secretary shall 
prescribe in regulations for the furnishing of such fees, equipment, 
supplies, and stocks.

    (13) Travel and incidental expenses under the terms and conditions 
set forth in section 111 of this title, plus, in the case of a veteran 
who because of such veteran's disability has transportation expenses in 
addition to those incurred by persons not so disabled, a special 
transportation allowance to defray such additional expenses during 
rehabilitation, job seeking, and the initial employment stage.

    (14) Special services (including services related to blindness and 
deafness) including-

    (A) language training, speech and voice correction, training in 
ambulation, and one-hand typewriting;

    (B) orientation, adjustment, mobility, reader, interpreter, and 
related services; and

    (C) telecommunications, sensory, and other technical aids and 
devices.

    (15) Services necessary to enable a veteran to achieve maximum 
independence in daily living.

    (16) Other incidental goods and services determined by the 
Secretary to be necessary to accomplish the purposes of a 
rehabilitation program in an individual case.

    (b) A rehabilitation program (including individual courses) to be 
pursued by a veteran shall be subject to the approval of the Secretary. 
To the maximum extent practicable, a course of education or training 
may be pursued by a veteran as part of a rehabilitation program under 
this chapter only if the course is approved for purposes of chapter 30 
or 33 of this title. The Secretary may waive the requirement under the 
preceding sentence to the extent the Secretary determines appropriate.

    (c)(1) The Secretary shall have the authority to administer this 
chapter by prioritizing the provision of services under this chapter 
based on need, as determined by the Secretary. In evaluating need for 
purposes of this subsection, the Secretary shall consider disability 
ratings, the severity of employment handicaps, qualification for a 
program of independent living, income, and any other factor the 
Secretary determines appropriate.

    (2) Not later than 90 days before making any changes to the 
prioritization of the provision of services under this chapter as 
authorized under paragraph (1), the Secretary shall submit to the 
Committees on Veterans' Affairs of the Senate and House of 
Representatives a plan describing such changes.

Sec. 3105. Duration of rehabilitation programs

    (a) In any case in which the Secretary is unable to determine 
whether it currently is reasonably feasible for a veteran to achieve a 
vocational goal, the period of extended evaluation under section 
3106(c) of this title may not exceed twelve months, except that such 
period may be extended for additional periods of up to six months each 
if the Secretary determines before granting any such extension that it 
is reasonably likely that, during the period of any such extension, a 
determination can be made whether the achievement of a vocational goal 
is reasonably feasible in the case of such veteran.

    (b)(1) Except as provided in paragraph (2) and in subsection (c), 
the period of a vocational rehabilitation program for a veteran under 
this chapter following a determination of the current reasonable 
feasibility of achieving a vocational goal may not exceed forty-eight 
months, except that the counseling and placement and postplacement 
services described in section 3104(a)(2) and (5) of this title may be 
provided for an additional period not to exceed eighteen months in any 
case in which the Secretary determines the provision of such counseling 
and services to be necessary to accomplish the purposes of a 
rehabilitation program in the individual case.

    (2) The period of a vocational rehabilitation program pursued by a 
veteran under section 3102(b) of this title following a determination 
of the current reasonable feasibility of achieving a vocational goal 
may not exceed 12 months.

    (c) The Secretary may extend the period of a vocational 
rehabilitation program for a veteran to the extent that the Secretary 
determines that an extension of such period is necessary to enable such 
veteran to achieve a vocational goal if the Secretary also determines-

    (1) that such veteran had previously been rehabilitated to the 
point of employability but (A) such veteran's need for further 
vocational rehabilitation has arisen out of a worsening of such 
veteran's service-connected disability that precludes such veteran from 
performing the duties of the occupation for which such veteran had been 
so rehabilitated, or (B) the occupation for which such veteran had been 
so rehabilitated is not suitable in view of such veteran's current 
employment handicap and capabilities; or

    (2) under regulations which the Secretary shall prescribe, that 
such veteran has a serious employment handicap and that an extension of 
such period is necessary to accomplish the purposes of a rehabilitation 
program for such veteran.

    (d)(1) Except as provided in paragraph (2), the period of a program 
of independent living services and assistance for a veteran under this 
chapter (following a determination by the Secretary that such veteran's 
disability or disabilities are so severe that the achievement of a 
vocational goal currently is not reasonably feasible) may not exceed 
twenty-four months.

    (2)(A) The period of a program of independent living services and 
assistance for a veteran under this chapter may exceed twenty-four 
months as follows:

    (i) If the Secretary determines that a longer period is necessary 
and likely to result in a substantial increase in the veteran's level 
of independence in daily living.

    (ii) If the veteran served on active duty during the Post-9/11 
Global Operations period and has a severe disability (as determined by 
the Secretary for purposes of this clause) incurred or aggravated in 
such service.

    (B) In this paragraph, the term ``Post-9/11 Global Operations 
period'' means the period of the Persian Gulf War beginning on 
September 11, 2001, and ending on the date thereafter prescribed by 
Presidential proclamation or by law.

    (e)(1) Notwithstanding any other provision of this chapter or 
chapter 36 of this title, any payment of a subsistence allowance and 
other assistance described in paragraph (2) shall not-

    (A) be charged against any entitlement of any veteran under this 
chapter; or

    (B) be counted toward the aggregate period for which section 3695 
of this title limits an individual's receipt of allowance or 
assistance.

    (2) The payment of the subsistence allowance and other assistance 
referred to in paragraph (1) is the payment of such an allowance or 
assistance for the period described in paragraph (3) to a veteran for 
participation in a vocational rehabilitation program under this chapter 
if the Secretary finds that the veteran had to suspend or discontinue 
participation in such vocational rehabilitation program as a result of 
being ordered to serve on active duty under section 688, 12301(a), 
12301(d), 12301(g), 12302, or 12304 of title 10.

    (3) The period for which, by reason of this subsection, a 
subsistence allowance and other assistance is not charged against 
entitlement or counted toward the applicable aggregate period under 
section 3695 of this title shall be the period of participation in the 
vocational rehabilitation program for which the veteran failed to 
receive credit or with respect to which the veteran lost training time, 
as determined by the Secretary.

Sec. 3106. Initial and extended evaluations; determinations regarding 
    serious employment handicap

    (a) The Secretary shall provide any veteran who has a service-
connected disability rated at 10 percent or more and who applies for 
benefits under this chapter with an initial evaluation consisting of 
such services described in section 3104(a)(1) of this title as are 
necessary (1) to determine whether such veteran is entitled to and 
eligible for benefits under this chapter, and (2) in the case of a 
veteran who is determined to be entitled to and eligible for such 
benefits, to determine-

    (A) whether such veteran has a serious employment handicap, and

    (B) whether the achievement of a vocational goal currently is 
reasonably feasible for such veteran if it is reasonably feasible to 
make such determination without extended evaluation.

    (b) In any case in which the Secretary has determined that a 
veteran has a serious employment handicap and that the achievement of a 
vocational goal currently is reasonably feasible for such veteran, such 
veteran shall be provided an individualized written plan of vocational 
rehabilitation developed under section 3107(a) of this title.

    (c) In any case in which the Secretary has determined that a 
veteran has a serious employment handicap but the Secretary is unable 
to determine, in an initial evaluation pursuant to subsection (a) of 
this section, whether or not the achievement of a vocational goal 
currently is reasonably feasible, such veteran shall be provided with 
an extended evaluation consisting of the services described in section 
3104(a)(1) of this title, such services under this chapter as the 
Secretary determines necessary to improve such veteran's potential for 
participation in a program of services designed to achieve a vocational 
goal and enable such veteran to achieve maximum independence in daily 
living, and assistance as authorized by section 3108 of this title.

    (d) In any case in which the Secretary has determined that a 
veteran has a serious employment handicap and also determines, 
following such initial and any such extended evaluation, that 
achievement of a vocational goal currently is not reasonably feasible, 
the Secretary shall determine whether the veteran is capable of 
participating in a program of independent living services and 
assistance under section 3120 of this title.

    (e) The Secretary shall in all cases determine as expeditiously as 
possible whether the achievement of a vocational goal by a veteran 
currently is reasonably feasible. In the case of a veteran provided 
extended evaluation under subsection (c) of this section (including any 
periods of extensions under section 3105(a) of this title), the 
Secretary shall make such determination not later than the end of such 
extended evaluation or period of extension, as the case may be. In 
determining whether the achievement of a vocational goal currently is 
reasonably feasible, the Secretary shall resolve any reasonable doubt 
in favor of determining that such achievement currently is reasonably 
feasible.

    (f) In connection with each period of extended evaluation of a 
veteran and each rehabilitation program for a veteran who is determined 
to have a serious employment handicap, the Secretary shall assign a 
Department of Veterans Affairs employee to be responsible for the 
management and followup of the provision of all services (including 
appropriate coordination of employment assistance under section 3117 of 
this title) and assistance under this chapter to such veteran.

Sec. 3107. Individualized vocational rehabilitation plan

    (a) The Secretary shall formulate an individualized written plan of 
vocational rehabilitation for a veteran described in section 3106(b) of 
this title. Such plan shall be developed with such veteran and shall 
include, but not be limited to (1) a statement of long-range 
rehabilitation goals for such veteran and intermediate rehabilitation 
objectives related to achieving such goals, (2) a statement of the 
specific services (which shall include counseling in all cases) and 
assistance to be provided under this chapter, (3) the projected date 
for the initiation and the anticipated duration of each such service, 
and (4) objective criteria and an evaluation procedure and schedule for 
determining whether such objectives and goals are being achieved.

    (b) The Secretary shall review at least annually the plan 
formulated under subsection (a) of this section for a veteran and shall 
afford such veteran the opportunity to participate in each such review. 
On the basis of such review, the Secretary shall (1) redevelop such 
plan with such veteran if the Secretary determines, under regulations 
which the Secretary shall prescribe, that redevelopment of such plan is 
appropriate, or (2) disapprove redevelopment of such plan if the 
Secretary determines, under such regulations, that redevelopment of 
such plan is not appropriate.

    (c)(1) Each veteran for whom a plan has been developed or 
redeveloped under subsection (a) or (b)(1), respectively, of this 
section or in whose case redevelopment of a plan has been disapproved 
under subsection (b)(2) of this section, shall be informed of such 
veteran's opportunity for a review as provided in paragraph (2) of this 
subsection.

    (2) In any case in which a veteran does not agree to such plan as 
proposed, to such plan as redeveloped, or to the disapproval of 
redevelopment of such plan, such veteran may submit to the person 
described in section 3106(f) of this title a written statement 
containing such veteran's objections and request a review of such plan 
as proposed or redeveloped, or a review of the disapproval of 
redevelopment of such plan, as the case may be.

    (3) The Secretary shall review the statement submitted under 
paragraph (2) of this subsection and the plan as proposed or as 
redeveloped, and, if applicable, the disapproval of redevelopment of 
the plan, and render a decision on such review not later than ninety 
days after the date on which such veteran submits such statement, 
unless the case is one for which a longer period for review, not to 
exceed 150 days after such veteran submits such statement, is allowed 
under regulations prescribed by the Secretary, in which case the 
Secretary shall render a decision no later than the last day of the 
period prescribed in such regulations.

Sec. 3122. Longitudinal study of vocational rehabilitation programs

    (a) Study Required.-(1) Subject to the availability of appropriated 
funds, the Secretary shall conduct a longitudinal study of a 
statistically valid sample of each of the groups of individuals 
described in paragraph (2). The Secretary shall study each such group 
over a period of at least 20 years.

    (2) The groups of individuals described in this paragraph are the 
following:

    (A) Individuals who begin participating in a vocational 
rehabilitation program under this chapter during fiscal year 2010.

    (B) Individuals who begin participating in such a program during 
fiscal year 2012.

    (C) Individuals who begin participating in such a program during 
fiscal year 2014.

    (b) Annual Reports.-By not later than July 1 of each year covered 
by the study required under subsection (a), the Secretary shall submit 
to the Committees on Veterans' Affairs of the Senate and House of 
Representatives a report on the study during the preceding year.

    (c) Contents of Report.-The Secretary shall include in the report 
required under subsection (b) any data the Secretary determines is 
necessary to determine the long-term outcomes of the individuals 
participating in the vocational rehabilitation programs under this 
chapter. The Secretary may add data elements from time to time as 
necessary. In addition, each such report shall contain the following 
information:

    (1) The number of individuals participating in vocational 
rehabilitation programs under this chapter who suspended participation 
in such a program during the year covered by the report.

    (2) The average number of months such individuals served on active 
duty.

    (3) The distribution of disability ratings of such individuals.

    (4) The types of other benefits administered by the Secretary 
received by such individuals.

    (5) The types of social security benefits received by such 
individuals.

    (6) Any unemployment benefits received by such individuals.

    (7) The average number of months such individuals were employed 
during the year covered by the report.

    (8) The average annual starting and ending salaries of such 
individuals who were employed during the year covered by the report.

    (9) The number of such individuals enrolled in an institution of 
higher learning, as that term is defined in section 3452(f) of this 
title.

    (10) The average number of academic credit hours, degrees, and 
certificates obtained by such individuals during the year covered by 
the report.

    (11) The average number of visits such individuals made to 
Department medical facilities during the year covered by the report.

    (12) The average number of visits such individuals made to non-
Department medical facilities during the year covered by the report.

    (13) The average annual income of such individuals.

    (14) The average total household income of such individuals for the 
year covered by the report.

    (15) The percentage of such individuals who own their principal 
residences.

    (16) The average number of dependents of each such veteran.

Title 38: Pensions, Bonuses, and Veterans' Relief PART 21-VOCATIONAL 
    REHABILITATION AND EDUCATION Contents Subpart A-Vocational 
    Rehabilitation and Employment Under 38 U.S.C. Chapter 31

Sec. 21.1 Training and rehabilitation for veterans with service-
    connected disabilities.

    (a) Purposes. The purposes of this program are to provide to 
eligible veterans with compensable service-connected disabilities all 
services and assistance necessary to enable them to achieve maximum 
independence in daily living and, to the maximum extent feasible, to 
become employable and to obtain and maintain suitable employment. 
(Authority: 38 U.S.C. 3100)

    (b) Basic requirements. Before a service-disabled veteran may 
receive training and rehabilitation services under Chapter 31, Title 38 
U.S.C., three basic requirements must be met:

    (1) The Department of Veterans Affairs must first find that the 
veteran has basic entitlement to services as prescribed by Sec. 21.40. 
(Authority: 38 U.S.C. 3102)

    (2) The services necessary for training and rehabilitation must be 
identified by the Department of Veterans Affairs and the veteran. 
(Authority: 38 U.S.C. 3106)

    (3) An individual written plan must be developed by the Department 
of Veterans Affairs and the veteran describing the goals of the program 
and the means through which these goals will be achieved.

                                 <F-dash>
                Prepared Statement of Shane L. Liermann
    Chairman Arrington, Ranking Member O'Rourke and Members of the 
Subcommittee:

    Thank you for inviting DAV (Disabled American Veterans) to testify 
at this oversight hearing of the Subcommittee of Economic Opportunity 
regarding the Vocational Rehabilitation and Employment (VR&E) program 
of the Department of Veterans Affairs (VA).
    Mr. Chairman, as you may know, DAV is a congressionally chartered 
national veterans' service organization of more than one million 
wartime veterans, all of whom were injured or made ill while serving on 
behalf of this nation. To fulfill our service mission to America's 
injured and ill veterans and the families who care for them, DAV 
directly employs a corps of more than 260 National Service Officers 
(NSOs), all of whom are themselves wartime service-connected disabled 
veterans, at every VA regional office (VARO) as well as other VA 
facilities throughout the nation. Together with our chapter, 
department, transition and county veteran service officers, DAV has 
over 4,000 accredited representatives on the front lines providing free 
claims and appeals services - including for VR&E services - to our 
nation's veterans, their families and survivors.
    We represent over one million veterans or survivors, making DAV the 
largest veterans service organization (VSO) providing claims 
assistance. This testimony reflects the collective experience and 
expertise of our thousands of dedicated and highly trained service 
officers who provide free claims and appeals assistance to hundreds of 
thousands of veterans and survivors each year.
    Our mission includes the principle that this nation's first duty to 
veterans is the rehabilitation and welfare of its wartime disabled. 
This principle envisions vocational rehabilitation and/or education to 
assist disabled veterans to prepare for and obtain gainful employment 
and enhanced opportunities for employment and job placement so that the 
full array of talents and abilities of disabled veterans are used 
productively.
    In fact, all of DAV's National Service Officers have received or 
are currently receiving services through VR&E as part of the DAV 
National Service Officer Apprentice Program through a Memorandum of 
Understanding (MOU) with VA's VR&E program.
    For example, in July 1998, I started my career with DAV and 
received services through VR&E. I successfully completed the DAV NSO 
Training Program through VR&E in December 1999. Not only am I a 
successful outcome of these specialized services &E, but also, as a DAV 
NSO Supervisor, I personally assisted over 15 DAV Apprentices with VR&E 
Services to include meetings with their counselors, discussion of their 
plans, and use of VR&E other resources. As a DAV NSO, I assisted 
hundreds of veterans with VR&E, to include applications, meetings with 
their counselors, resolution of differences of opinion, representation 
in Notice of Disagreements with Decision Review Officers and before 
Veterans Law Judges at the Board of Veterans Appeals (BVA).

VOCATIONAL REHABILITATION AND EMPLOYMENT PROGRAM

    The VR&E program, also known as the Chapter 31 program, assists 
veterans and service members with service-connected disabilities and an 
employment barrier to prepare for, obtain, and maintain suitable 
employment. Veterans with at least a 20 percent disability evaluation 
or a 10 percent evaluation with a serious employment handicap meet the 
eligibility criteria. VR&E provides comprehensive services to include 
vocational assessment, rehabilitation planning, and employment 
services. For veterans with service-connected disabilities so severe 
that they cannot immediately consider work, the VR&E program offers 
services to improve their ability to live as independently as possible 
within their families and communities. VR&E also administers Chapter 
36, Chapter 35, and Chapter 18 benefits under title 38, United States 
Code. These programs provide benefits to eligible dependents, spouses, 
and beneficiaries.
    VR&E administers these benefits through a decentralized service-
delivery network comprised of nearly 350 offices. As of the end of 
fiscal year (FY) 2016, the field network included a VR&E workforce of 
1,335 staff, including Vocational Rehabilitation Counselors (VRC), 
Employment Coordinators, support staff, and managers. The network also 
included nearly 200 Integrated Disability Evaluation System counselors 
on 71 military installations, 79 VetSuccess on Campus counselors at 94 
college locations, and 142 out-based VR&E offices.
    VR&E's Chapter 31 workload is predominately driven by three 
factors: (1) the number of veterans applying for rehabilitation 
benefits and services; (2) the number of veterans who enter into the 
development and implementation of a rehabilitation plan; (3) the 
associated growth of disability claims consistent with the ongoing 
reduction of the claims backlog; (4) changes to total volume of 
military separations due to military end-strength policy; and (5) 
frequency/severity of service-related injuries/illnesses. Once a 
veteran or service member applies and is determined eligible for 
services, the veteran meets with a VRC to complete a comprehensive 
vocational assessment. The VRC will then make an entitlement 
determination. If the veteran or service member is not entitled, the 
counselor will assist with any necessary referrals for other services 
such as referrals to state vocational rehabilitation programs, local 
employment agencies, or other local or state training programs.
    VR&E requires regular face-to-face interactions with veterans to 
deliver benefits and services, this is in contrast to VBA's other lines 
of business that focus primarily on claims processing. They are the 
largest out-based network of any VBA business line with nearly 350 
locations nationwide.
    The cycle of an active VR&E case may extend up to and beyond six 
years. This is necessary to provide adequate training for veterans so 
that they can obtain employment that accommodates their disabilities 
and provides a career foundation that is appropriate.

VR&E SERVICE STUDIES

    In 2008, Congress passed the Veterans' Benefits Improvement Act, 
which required VA to conduct a 20-year longitudinal study of veterans 
who applied for and entered into a plan of services in the VR&E program 
in FY 2010, FY 2012, and FY 2014. These three cohorts are being 
followed annually for 20 years each. Survey data collection started in 
2012 for the first two cohorts and in 2014 for the last cohort. The 
primary focus of the VR&E Longitudinal Study is on the long-term 
employment and standard of living outcomes for VR&E participants after 
they exit the program.
    A 2014 Government Accountability Office (GAO) Vocational 
Rehabilitation and Employment Report (GAO-14-61) noted that further 
performance and workload management improvements were needed. GAO 
recommended that VA reflect success rates in revised performance 
measures, ensure the reliability of its customer satisfaction survey 
results, re-visit its staff allocation formula, study staff 
assignments, and close certain gaps in its training for staff.
    VR&E implemented new program performance measures in FY 2015 that 
place a greater focus on veteran outcomes and their accomplishments. 
These new measures of veterans' success are driven by positive outcomes 
and active participation. Positive outcomes include employment and 
independent living rehabilitation; rehabilitation for further 
education; and maximum rehabilitation gains, as either employed or 
employable. These new metrics effectively measure veterans' outcomes at 
every stage of their progression through the program and more 
accurately account for veterans' multi-year participation in the VR&E 
program.
    On July 31, 2017, the VR&E Longitudinal Study annual report was 
released for FY 2016. It noted that the average combined disability 
evaluation is 60 percent, indicating the program is benefiting those 
with significant disabilities.
    The most substantive finding of the study to date is that 
regardless of the length of time since they began their VR&E program, 
veterans who have achieved rehabilitation have substantially better 
employment and standard of living outcomes than those who discontinued 
services. Rehabilitation remains one of the most dominant variables 
driving positive financial outcomes compared to those veterans who were 
discontinued.
    The study also found that veterans who have achieved rehabilitation 
reported higher annual income amounts than discontinued participants, 
at least $15,000 higher for individual income and at least $24,000 
higher for household income. Compared to non-VR&E participants, those 
who achieved rehabilitation had an annual income almost 50 percent 
higher: $46,000 versus $31,000, dramatically demonstrating its 
successful outcomes for the veteran population VR&E serves. The study 
also reveals that roughly 90 percent of veterans report a moderately to 
highly satisfying experience with VR&E.

VR&E SERVICE PERSONNEL

    In 2016, Congress enacted legislation (P.L. 114-223) that included 
a provision recognizing the need to provide a sufficient client-to-
counselor ratio to appropriately align veteran demand for VR&E 
services. Section 254 of that law authorizes the VA Secretary to use 
appropriated funds to ensure the ratio of veterans to VRCs does not 
exceed 125 veterans to one full-time employment equivalent (FTEE). 
Unfortunately, for the past three years, VA has requested no new 
personnel for VR&E to reach this ratio.
    The Administration's proposed budget for FY 2019 reflected that 
over the past four years, VR&E program participation had increased by 
an estimated 16.8 percent, while VR&E staffing has risen just 1.8 
percent, VA projects program participation will increase another 3.1 
percent in FY 2019; however the current rolling average counselor-to-
client ratio is 136.4.

RECOMMENDATIONS TO IMPROVE RATIO OF VETERANS TO VRC

    1. Provide an additional 143 FTEE

    In order to achieve the 1:125 counselor-to-client ratio established 
by Congress, we estimate that VR&E will need another 143 FTEE in FY 
2019 for a total direct workforce of 1,585, to manage an active 
caseload and provide support services to almost 150,000 VR&E 
participants. At a minimum, three-quarters of the new hires should be 
VRCs dedicated to providing direct services to veterans. This would 
require an increase of $18 million for FY 2019.
    Unfortunately, the Administration's budget proposal called for a 
decrease of $257 million for VR&E in FY 2019. While this is partly due 
to lower pricing for the Transition Assistance Program (TAP) for those 
separating from service, it disregards the increased need of VR&E 
services veterans may require many years after separation. The 
Administration has acknowledged that since 2013, participation in this 
program increased by nearly 17 percent and noted a rolling average 
counselor to caseload ratio of 136.4; however, their budget request 
fails to request additional FTEE to move closer to a 1:125 counselor-
to-client ratio.

    2. Leveraging Technologies to Improve Efficiency of VRCs

    Each rehabilitation plan in the VR&E program is essentially a 
partnership between the veteran and the VRC. For any plan or 
partnership to be successful, both parties need clear expectations and 
the required time for successful completion. Studies and feedback from 
both veterans and VRCs indicate that time is an essential element to 
success and that VRCs spend a large amount of time with administrative 
functions that could be spent more effectively on counseling. 
Leveraging technologies could improve the efficiency and time 
requirements for VRCs, thus allowing more time for actual counseling.

Time Study

    VR&E has indicated its intention to conduct a time study in the 
very near future to measure the amount of time each VRC spends 
completing administrative tasks versus counseling veterans. We applaud 
VR&E for this initiative to help determine if VRCs can be more 
effective for the veterans in the program.

Tele-counseling

    As previously noted, VR&E requires regular face-to-face 
interactions with veterans to deliver benefits and services. VR&E 
previously had access to the same online video service, JABAR, as used 
by VHA. However, recently VR&E started a pilot at the St. Petersburg 
VARO using a new service, PEXIP. VR&E will be adding other VAROs to the 
pilot in the near future with an expectation to be VA wide by the end 
of the fiscal year.
    This technology has the potential to decrease the current 45-day 
processing time from application to rehabilitation plan. The required 
face-to-face interactions can also be scheduled via PEXIP, which will 
increase the efficiency of the VRC. The veteran will spend less time 
traveling to appointments with less interference with educational and 
employment requirements. This is a great example of leveraging 
technology to improve the veteran experience.

Electronic Reminders of Appointments

    Even with the use of PEXIP, VRCs have reported that approximately 
50 percent of veterans fail to appear for scheduled appointments. VR&E 
is planning to roll out text message reminders for appointments on a 
nationwide basis to increase the number of veterans appearing for their 
appointments, further increasing the time each VRC spends counseling 
versus performing administrative tasks.

School Payment System

    Many VRCs utilize education services to help achieve veterans' 
employment goals, which lead to another administrative function for VRC 
who must ensure payment of those educational centers. The payment 
process currently in use is cumbersome and time-consuming for the VRC 
and payment for schools is an ongoing challenge.
    However, the Post 9-11 GI Bill has already developed a school 
payment system that is streamlined and efficient. Because approximately 
97 percent of the schools used by VR&E counselors are GI Bill approved 
schools, we recommend that VR&E receive permission to utilize the same 
financial system as the GI Bill in order to greatly reduce the amount 
of administrative time expended by VRCs.

Automate and Digitize VR&E Records

    VR&E Services require VRCs to keep notes, applications, documents, 
and other evidence as part of the veteran's file. Although VBA has gone 
to digital claims files, VR&E still maintains paper files. Efforts have 
been started to digitize all VR&E files and place them inside VBA's 
Veterans Benefits Management System (VBMS). This will give all VRCs 
greater access to veterans VR&E files as well as their claims folders.
    Automation of VR&E applications and required documentation by VRCs 
would also reduce their time spent on administrative actions. VR&E is 
obtaining voice recognition software that will allow counselors to make 
their notes by speaking; another example of VR&E's initiative to 
improve the effectiveness of VRCs.

    3. Increased Resources for VA IT Services

    VA IT Services have many requirements and priorities for all of VA 
to include the Veterans Health Administration, VBA, and the National 
Cemeteries Administration. However, in order to meet requirements and 
initiatives as noted above, VR&E needs an increase in its information 
technology resources in order to automate and digitize VR&E records and 
to streamline the school payment system.

    4. Training for VRCs

    In 2017, VR&E conducted a pilot for a new training platform, 
Competency Based Training System (CBTS). All newly employed VRCs will 
receive 80 hours of training. CBTS will gauge each VRC's understanding 
and knowledge about the program on an annual basis. Remedial training 
will be provided on areas or subjects that need additional focus.
    This training system can be used to provide uniformity and some 
standardization because inconsistency between VAROs and VRCs is common 
within VR&E. At the same time, we urge VR&E to use this training to 
ensure each VRC understands the flexibility they have to address the 
individualized needs of their veteran clients while remaining 
consistent within the overall VR&E system.

    5. Increase Awareness of VR&E Services

    During service members' transition to civilian life, VA provides 
information regarding VR&E Services. Many transitioning veterans may be 
eligible for both Post 9-11 GI Bill and VR&E Services; however, few may 
be aware of how much data exists about the proven benefits, such as the 
50 percent increase in annual earnings for those who complete the 
program. We recommend that VR&E consider conducting a national 
awareness campaign, in collaboration with VSOs, in order to provide 
information on eligibility, the various benefits offered by VR&E 
services and the differences between the education and employment 
services available.

    6. Retain Current Eligibility Standards

    In recent years there have been some suggestions that the VR&E 
program should be scaled back by limiting the number of veterans who 
are eligible and we note that restricting eligibility to VR&E could 
potentially decrease the counselor-to-veteran client ratio. However, 
DAV will adamantly oppose any legislation or policies that would 
restrict existing VR&E eligibility criteria. As VR&E is an employment 
program, any changes to eligibility will negatively impact disabled 
veterans' ability to obtain and maintain employment.

7. Eliminate 12-Year Eligibility Period

    Finally, DAV supports H.R. 5452, Reduce Unemployment for Veterans 
of All Ages Act of 2018. Currently, veterans with service-connected 
disabilities or other employment challenges are able to receive career 
development services through the VA's Vocational Rehabilitation and 
Employment program up to 12 years after they separate from the service. 
H.R. 5452 would eliminate the 12-year period of eligibility. In 
agreement with DAV Resolution No. 250, we support this legislation to 
eliminate the 12-year period of eligibility, which will provide 
veterans the flexibility to receive the support they have earned and 
deserve throughout their lifetime and thus help reduce unemployment for 
service-connected veterans.
    Mr. Chairman, this concludes my testimony on behalf of DAV. I would 
be happy to answer any questions you or other members of the 
Subcommittee may have.

                                 <F-dash>
                       Statements For The Record

             VETERANS OF FOREIGN WARS OF THE UNITED STATES
PATRICK MURRAY, ASSOCIATE DIRECTOR
    Chairman Arrington, Ranking Member O'Rourke and members of the 
Subcommittee, on behalf of the men and women of the Veterans of Foreign 
Wars (VFW) and its Auxiliary, thank you for the opportunity to present 
our views on this important benefit.
    The Vocational Rehabilitation and Employment Service (VR&E) 
provides critical counseling and other adjunct services necessary to 
enable service-disabled veterans to overcome barriers as they prepare 
for, find, and maintain gainful employment. VR&E offers services on 
five tracks: re-employment, rapid access to employment, self-
employment, employment through long-term services, and independent 
living.
    The VFW views VR&E as a critical tool in promoting success for our 
veterans. It is at the forefront in ensuring veterans can remain in the 
workforce and stay employed in meaningful careers. Once a veteran 
receives a disability rating, and cannot continue along their original 
path in the work force, they must choose a different route for their 
career. This is where VR&E is critical because it helps veterans remain 
employed by providing training and education for an alternative career.
    The VFW has nearly 2,000 service officers across the country, and 
representatives on 24 military installations. Our service officers 
train twice a year on VR&E and have assisted on over 4,000 of those 
claims resulting in $37.6 million in 2017 alone. We are fully 
supportive of how vitally important this program is, but we are also 
keenly aware of areas that need improvement.
    The vital part of the VR&E program is the counselors who assist 
veterans with their claims. The counselors are the key component in 
assisting veterans with their rehabilitation plan for VR&E. However, 
while the counselors are one of the biggest assets for veterans seeking 
to use VR&E they are also one of the largest areas that needs 
improvement.
    Far too often our service officers have to work with veterans who 
are eligible to receive VR&E benefits but were originally denied by the 
VR&E counselors. The subjectivity of approving eligibility leads to 
veterans being denied the benefit, when in fact they should have been 
approved immediately. There needs to be a more standardized way to 
approve the eligibility of veterans, and further training of 
counselors, so deserving recipients do not have to fight for a benefit 
they have already earned.
    The other issue concerning VR&E counselors is the need for more of 
them. Additional funding needs to be authorized in order to ensure the 
program can keep up with demand. Counselors who have an increased 
workload cannot give the proper attention to the clients they deserve 
if counselors have too many clients to serve.
    Over the past four years, program participation has increased by an 
estimated 16.8 percent, while VR&E staffing has risen just 1.8 percent. 
VA projects program participation will increase another 3.1 percent in 
FY 2019, and it is critical that sufficient resources are provided not 
only to meet this rising workload, but also to expand capacity to meet 
the full, unconstrained demand for VR&E services.
    In 2016, Congress enacted legislation (P.L. 114-223) that included 
a provision recognizing the need to provide a sufficient client-to-
counselor ratio to appropriately align veteran demand for VR&E 
services. Section 254 of that law authorizes the Secretary of Veterans 
Affairs to use appropriated funds to ensure the ratio of veterans to 
Vocational Rehabilitation Counselors (VRC) does not exceed 125 veterans 
to one full-time employment equivalent. Unfortunately, for the past 
three years, VA has requested no new personnel for VR&E to reach this 
ratio.
    In order to achieve the 1:125 counselor-to-client ratio established 
by Congress, the VFW estimates that VR&E will need another 163 Full 
Time Equivalent Employees (FTEE) in FY 2019 for a total workforce of 
1,585, to manage an active caseload and provide support services to 
almost 150,000 VR&E participants. At a minimum, three-quarters of the 
new hires should be VRCs dedicated to providing direct services to 
veterans.
    A suggestion the VFW has that could improve the accuracy of 
reporting the counselor-to-client ratio is to change from a national 
average to an average of VA Regional Offices (RO). This change would 
help identify areas of need for the specific offices, rather than 
having one area of the country drastically affect the average of the 
other RO's. Changing the reporting of the counselor-to-client ratio 
would help identify offices that are meeting the requirements and those 
offices that need significant help.
    We are disappointed by the Administration's proposal for a decrease 
of $257 million for VR&E for FY 2019. While we understand this is 
partly due to lower pricing for the Transition Assistance Program for 
those separating from service, this disregards the increased need of 
VR&E services veterans may require many years after separation. The 
Administration acknowledges that since 2013, participation in this 
program increased by 17 percent and noted a rolling average counselor-
to-caseload ratio of 136.4; however, their budget request fails to 
request additional FTEE to move closer to a 1:125 counselor-to-client 
ratio.

                                 <F-dash>
                          THE AMERICAN LEGION
    Chairman Arrington Ranking Member O'Rourke and distinguished 
members of the Subcommittee, on behalf of National Commander Denise 
Rohan and our 2 million members, we thank you for the opportunity to 
share the views of The American Legion regarding the Department of 
Veterans Affairs' Vocational Rehabilitation and Education (VR&E) 
program.
    The Vocational Rehabilitation and Employment (VR&E) Program 
provides comprehensive services and assistance enabling veterans with 
service-connected disabilities and employment handicaps to achieve 
maximum independence in daily living, become employable, and maintain 
suitable employment. After a veteran is authorized to utilize VR&E, a 
vocational rehabilitation counselor helps the veteran identify a 
suitable employment goal and determines the appropriate services 
necessary to achieve their goal.
    As our nation's servicemembers transition to the civilian sector, 
there is an ongoing need for retraining to independent living, 
achieving the highest possible quality of life, and securing meaningful 
employment. To meet America's obligation to these specific veterans and 
other eligible VR&E veterans, VA leadership must focus on marked 
improvements in case management and effective vocational counseling.
    The successful rehabilitation of our severely disabled veterans is 
determined by the coordinated efforts of every Federal agency 
[Department of Defense (DoD), Veterans Affairs (VA), Department of 
Labor (DOL), Office of Personnel Management (OPM), Housing and Urban 
Development (HUD), etc.] involved in the seamless transition from the 
battlefield to the civilian workplace. Timely access to quality health 
care services, favorable physical rehabilitation, vocational training, 
and job placement play a critical role in the seamless transition of 
each and every veteran, as well as his or her family.
    Administration of VR&E and its programs is a responsibility of the 
Veterans Benefits Administration (VBA). Historically, VBA has placed 
emphasis on the processing of veterans' claims and the reduction of the 
claims backlog, which is extremely important. However, providing 
effective employment programs through VR&E must become a priority as 
well.
    Until recently, VR&E's primary focus has been providing veterans 
with skills training, rather than obtaining meaningful employment. 
Clearly, any employability plan that doesn't achieve the ultimate 
objective of a job is an injustice to those veterans seeking assistance 
in transitioning into the civilian workforce.
    Vocational counseling plays a vital role in identifying barriers to 
employment that must be overcome, as well as matching veterans' skills 
with those career opportunities available to qualified candidates. 
Becoming fully qualified becomes the next logical objective towards 
successful transition.

 
----------------------------------------------------------------------------------------------------------------
               Category                     2013           2014           2015           2016           2017
----------------------------------------------------------------------------------------------------------------
                    VR&E New Claims          80,812         87,094         88,439        112,155        107,200
----------------------------------------------------------------------------------------------------------------
                           Caseload         135,815        148,229        166,511        173,606        172,323
----------------------------------------------------------------------------------------------------------------
                       Participants         112,659        123,383        131,607        137,097        132,218
----------------------------------------------------------------------------------------------------------------
            Total Positive Outcomes          12,418         13,106         13,476         14,350         15,528
----------------------------------------------------------------------------------------------------------------
           Case per Counselor Ratio           136.2          131.8          138.3            140          136.4
----------------------------------------------------------------------------------------------------------------

    Between FY13 and FY17, VR&E applicants rose from 80,812 to 112,115, 
creating increased workloads for VR&E counselors tasked with developing 
employment goals and services for beneficiaries. The American Legion 
recognized the escalating problems associated with VR&E, and at our 
2016 National Convention passed Resolution No. 345: Support for 
Vocational Rehabilitation and Employment Program Hiring More Counselors 
and Employment Coordinators \1\. Congress also recognized these 
problems, and sought to address them in Public Law 114-223. 
Specifically, Section 254 mandates that the Secretary of Veterans 
Affairs ``may use amounts appropriated.... to ensure that the ratio of 
veterans to full-time employment equivalents within any program of 
rehabilitation conducted under chapter 31 of title 38, United States 
Code does not exceed 125 veterans to one full-time employment 
equivalent.
---------------------------------------------------------------------------
    \1\ American Legion Resolution No. 345: https://archive.legion.org/
bitstream/handle/123456789/5663/2016N345.pdf?sequence=1&isAllowed=y
---------------------------------------------------------------------------
    By 2017, the average caseload of a typical VR&E counselor was 136.4 
veterans. With actual participants expected to rise by 17,000, it does 
not appear that VBA intends to meet this congressionally requested 
ratio. In order to fulfill the 1:125 counselor-to-client ratio in FY 
2018, it has been estimated that VR&E would need 266 new full-time 
employees (FTE), for a total workforce of 1,550 FTE. Instead, VBA added 
only 61 FTE, and froze the VR&E request for direct personnel at 1,442 
through 2019. Further, budgeted funds for estimated overtime have been 
slashed from $996,000 to $500,000, depriving overworked counselors the 
opportunity to help veterans.
    Additionally, improvements made to veterans' claims, such as 
modernizing the appeals process, can only accelerate participation in 
the vocational rehabilitation program. Over $135.5 million has been 
requested for the Board of Veterans Appeals and related information 
technology initiatives to reduce the pending appeals inventory. An 
additional $74 million has been requested in President Trump's FY 19 
budget to hire an additional 605 full-time VBA employees to assist in 
decreasing and processing veterans' claims. The American Legion's fears 
that the unintended consequence of increasing the applicant pool for 
VR&E without increasing support staff for the critical program itself 
will cause further strain.

BUDGET REQUEST TRANSPARENCY

    The FY 2019 VA Budget Request proposed a cut of $59.8 million - 
over 18 percent - to the Vocational Rehabilitation and Employment 
Program. The wide majority of these cuts are outlined squarely in 
VR&E's second largest line item: Other Services. The budget proposal 
attributes this cut to ``favorable pricing of a new Transition 
Assistance Program (TAP) contract which provides the required level of 
support at a considerably lower cost.'' Further review shows greater 
fluctuation in ``Other Services'':

 
----------------------------------------------------------------------------------------------------------------
                  2014                          2015              2016              2017        2018 (projected)
----------------------------------------------------------------------------------------------------------------
                          $64,360,000       124,785,000       124,785,000            43,244
----------------------------------------------------------------------------------------------------------------

    While The American Legion appreciates the explanation for this 
reduction, it believes that greater detail needs to be provided. 
Questions remain as to why a renegotiated TAP contract is under 
Vocational Rehabilitation and Employment funding, and why this funding 
could not have been used as an offset to increase FTE for VR&E 
counselors.

PERFORMANCE MEASURES

    The American Legion applauds the efforts of VR&E to continue to 
focus on designing performance measures to drive continuous improvement 
and achieve optimal outcomes for veterans. The FY19 budget request will 
continue to calculate Class Achievement Rate, which measures the 
percentage of veterans who after six years obtain a positive outcome 
and the number of veterans persisting in their enrollment, measured 
against all veterans in their cohort (class).
    Based on the Vocational Rehabilitation and Employment Longitudinal 
Study Annual Report for FY 2016, 90% of VR&E participants have reported 
moderate to high program satisfaction \2\. While The American Legion 
applauds the success and focus that VBA has placed on customer service, 
we urge Congress to not discount the experiences of veterans 
dissatisfied with the program. Compared to other VA education and 
training benefits, the mishandling of a veteran's case in the VR&E 
program carries significant consequences.
---------------------------------------------------------------------------
    \2\ Vocational Rehabilitation and Employment (VR&E) Longitudinal 
Study (PL 110-389 Sec. 334). Vocational Rehabilitation and Employment 
(VR&E) Longitudinal Study (PL 110-389 Sec. 334).
---------------------------------------------------------------------------
    As an example, a veteran enrolled in the Post 9/11 GI Bill may 
categorize their satisfaction with the VA as ``poor'' if they have 
encountered multiple late payments. This could potentially impact their 
enrollment times, and at worst, delay their graduation .
    A veteran enrolled in the Vocational Rehabilitation Program may 
categorize satisfaction with the VA as ``poor'' if their entire course 
of study was rejected by their Vocational Rehabilitation Counselor, 
despite the knowledge of other veterans in the program who are pursuing 
comparable rehabilitation plans. The result of this experience thus has 
life-altering implications.
    While the JD Power & Associates Voice of the Veteran Continuous 
Measurement Surveys do not indicate that this is a widespread problem, 
The American Legion has received enough anecdotal evidence from our 
members across the country that leads us to believe this still warrants 
attention. It is clear that the individualized nature of developing 
employment plans makes for incredibly difficult decisions on the part 
of Vocational Rehabilitation Counselors. In addition to assessing the 
veteran's needs, skills and abilities, the counselors also have to 
reconcile economic conditions and employment trends to determine the 
best course of action for the veteran. Often times these counselors 
must be the bearers of bad news, and they should be adequately 
empowered to make these judgments. However, appropriate recourse for 
veterans concerned with the decisions of their counselors needs to be 
improved.
    Evidence of the need for this can be found as recently as April of 
2018 in the case of Atius Technology Institute. The owner of Atius 
Technology Institute (``Atius''), a privately owned, non-accredited 
school specializing in information technology courses, plead guilty to 
bribing a Vocational Rehabilitation Counselor in exchange for the 
public official's facilitation of payments that were supposed to be 
dedicated to providing vocational training for vocational 
rehabilitation. Over the life of the scheme, Atius defrauded the 
Department of Veterans Affairs, veterans, and the American taxpayer out 
of $2.2 million dollars. The counselor certified veterans attending 
Atius were enrolled in up to thirty two hours of class per week, when 
it fact, Atius offered a maximum of six weekly class hours. In order to 
do this, it is likely that many veterans were manipulated into 
attending the fraudulent institution.
    While the case of Atius is extraordinary, the lessons that can be 
drawn from it are important: if a veteran enrolled in the Vocational 
Rehabilitation Program believes that something is not right with the 
decisions or conduct of his or her counselor, intentional or otherwise, 
that appropriate recourse is available to address potential inequity.

Conclusion

    In closing, The American Legion supports this important program, 
that has helped thousands of veterans become better trained and capable 
of obtaining quality employment. Further, The American Legion is 
committed to working with the Department of Veterans Affairs and this 
committee to ensure that America's veterans are provided with the 
highest level of employment assistance.
    Chairman Arrington, Ranking Member O'Rourke, and distinguished 
members of this committee, The American Legion thanks this committee 
for holding this important hearing and for the opportunity to explain 
the views of the 2 million members of this organization. For additional 
information regarding this testimony, please contact Mr. Jonathan 
Espinoza, Legislative Associate of The American Legion's Legislative 
Division at (202) 861-2700 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5b313e282b323534213a1b373e3c3234357534293c">[email&#160;protected]</a>

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
